<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES


                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                JOSE E. SERRANO, New York
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________

                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________

         Printed for the use of the Committee on Appropriations










  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                JOSE E. SERRANO, New York
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________

                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 74-233                     WASHINGTON : 2012






                        COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\         NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\           MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia               PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey   JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                      ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama           JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri              JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                    ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho             DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas           MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida               LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana                SAM FARR, California
 JOHN R. CARTER, Texas                 JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana           CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California               STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                    SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio            BARBARA LEE, California
 TOM COLE, Oklahoma                    ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                   MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida            BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 /1/Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2013

                              ----------                              

                                          Thursday, March 22, 2012.

               MEMBERS OF CONGRESS AND OUTSIDE WITNESSES

    Mr. Wolf. We are going to begin a little early. And I would 
ask everybody respectfully if you could kind of keep it to the 
time because we have 60 outside witnesses and people have 
different schedules and different things like that.
    I want to welcome the first witness. Our first witness is 
Justice Seamus McCaffery of the Supreme Court of Pennsylvania. 
I am originally from Pennsylvania, went to Penn State, born and 
raised, born in south Philadelphia, raised in southwest 
Philadelphia.
    What part of Pennsylvania are you from?
    Mr. McCaffery. Philadelphia.
    Mr. Wolf. Where?
    Mr. McCaffery. Northeast.
    Mr. Wolf. Okay. Good. I was born in Methodist Hospital in 
south Philly. And my dad was a Philadelphia policeman.
    Anyway, we welcome you and just proceed as you see fit.
    And we welcome our new Member here from Pennsylvania. I 
also have family living in his district. My brother lives in 
his district.
    Mr. Meehan, you might want to proceed.
    Mr. Meehan. Well, thank you, Mr. Chairman, for that 
welcoming reception.
    And let me say that one in six of our veterans are 
returning right now from the battlefields of Afghanistan and 
Iraq and we also are dealing with many veterans of previous 
wars who are showing issues with respect to mental illness.
    Nobody knows better than I as a prosecutor the implications 
and value of interventions and preventions and appropriate 
time.
    Veterans courts are an opportunity for us to give back to 
those who have served our country so nobly. These are 
effective.
    And there is no better champion than the gentleman to my 
right, a Marine, a Philadelphia police officer, a Philadelphia 
court judge who knows what the issues are at the street level 
and now a distinguished member of the Pennsylvania Supreme 
Court.
    And it is my pleasure to give an opportunity to Justice 
Seamus McCaffery.
    Mr. Wolf. And I want to recognize the ranking member, Mr. 
Fattah, who has some interest in Philadelphia, too, in case he 
wants to say something.
    Mr. Fattah. Let me welcome the justice and my colleague 
also from Pennsylvania. And I guess we are getting a little 
early start here. It is a few minutes before the starting bell.
    But I am happy to see all of you here and look forward to 
your comments. I am very much and so is the chairman interested 
in the veterans courts approach and we have been big supporters 
of the drug courts. And we think that veterans deserve more 
than a fair hearing before the court given all that they have 
done for our country.
    So I look forward to your testimony and I welcome the 
distinguished jurist to the committee.
    Thank you.
    Mr. Wolf. You may proceed.
                              ----------                              

                                          Thursday, March 22, 2012.

                     SUPREME COURT OF PENNSYLVANIA


                                WITNESS

SEAMUS P. McCAFFERY, JUSTICE, SUPREME COURT OF PENNSYLVANIA
    Mr. McCaffery. Thank you, Congressman.
    First and foremost, I want to thank you all as well 
Congressman Meehan for being here today.
    I spent 40 years of my life in the military. In 1968, I 
joined the United States Marine Corps. I retired as a full bird 
colonel in 2008. I had the opportunity and pleasure of meeting 
veterans from Korea, Vietnam, of course, up to and including 
Iraq and Afghanistan.
    As a Philadelphia police officer, we used to see young men 
and young women coming back from our service and treating 
themselves with street drugs, excessive alcohol, things along 
those lines.
    These men and these women suffer what is now known as 
posttraumatic stress. In this war, we also call it traumatic 
brain injury.
    These young men and these young women, quite frankly, 
Congressman, they are ashamed. They are afraid to talk about 
it. They are afraid to mention it. A lot of times, families are 
breaking up. We oftentimes see them losing their jobs. They 
become homeless and out of work all because they have a problem 
dealing with that stress that came out of combat.
    But the reality was we saw it as a police officer. My 
oldest son is now a Philadelphia police officer. He sees it now 
as well.
    We some years ago through the efforts of myself and Chief 
Justice Ronald D. Castille, who lost his leg in Vietnam as a 
Marine platoon commander, he suggested that we look into the 
creation of special reports.
    I went out and started basically asking around and we got a 
lot of judges that are former veterans or actual veterans. And 
we set up these special reports trying to act as diversion 
programs.
    The Veterans Administration of Pennsylvania under the 
leadership of Mr. Michael Moreland has been absolutely 
outstanding. The VA is giving us housing, giving us job 
training, mental health treatment, drug treatment, alcohol 
treatment. It is there for us.
    We are actually now working to set up court programs. We 
have 12 programs set up around Pennsylvania right now. And 
these programs, Congressman, they act as diversion programs.
    Police officers arriving on the scene either to domestic 
violence, a DUI, or even a drug possession case, they 
immediately ascertain whether or not these men or these women 
are veterans.
    And one of the things that we do, we divert them out of the 
criminal justice system. Why is that important? Because we feel 
it is really our obligation to give back to our veterans, get 
them the type of treatment that they need, help them out with 
drugs, help them out with alcohol, help them out with mental 
illness, get them back on their feet, get them back with their 
families.
    And last but not least, Congressman, this is not a walk in 
the park. These men and these women are put through an awful 
lot. They are required to go to their treatment programs.
    We have in Pennsylvania right now a Veterans Mentor Program 
that is second to none. We have the VFWs. We have the American 
Legions. We have the VVA and other non-organized affiliated 
groups that are coming forward to act as volunteers in the 
courtrooms. We try to have veteran judges, veteran staff, and, 
again, mentors in the actual room.
    When that veteran comes into our courts, they have already 
been evaluated and they now know exactly what treatment they 
need. They are taken. They are given over to the VA. They are 
now, again, required to complete all of their treatment.
    They come back in front of the judge after successfully 
completing it and here is the best part. Their case is now 
discharged. That means that that veteran does not have a 
criminal record.
    And as we all know, one-third of the jobs in this country 
you are not eligible for right now if you have a criminal 
conviction.
    So we see them every single day now. The numbers are 
growing in Pennsylvania. We have a million veterans in 
Pennsylvania. Right now nationally we have 80 veterans courts 
up and running.
    Here is the problem. We have no real designated funding. 
Nothing. When we started our first court, we wanted flags, 
Army, Navy, Air Force, Marine Corps, POW flags for our 
courtroom. Congressman, we had to have a beef and beer just to 
buy flags. We have no designated funding. We are doing 
everything right now in house and our mentors do not get paid. 
Again, they are volunteers.
    The VA really helped out a lot. But the reality is we need 
someone to step forward and have something in place where we 
have funding so that we can make these court programs, you 
know, a part of our fabric of justice in Pennsylvania and 
across this country because, you know, our young men and women 
go off to serve our Nation. Okay?
    They risk their lives. They come back. We see our young men 
and women who die. We honor them every year. We see these other 
men and women like our chief justice that lose a limb. We honor 
them as well. But it is the invisible wound, the invisible 
wound that is most problematic.
    And these people are our friends, our neighbors, our family 
members. They are going to work every day.
    And I was just telling Congressman Meehan a minute ago 
another growing number that is coming into the court system are 
Vietnam veterans. Why? Because now their families are grown. 
They are now retired from their jobs. They are sitting around 
with their wives and they are having flashbacks. And we are 
seeing them self-medicate again, excessive alcohol, sometimes 
street drugs.
    So we need to get them help. We need something in our 
courts that some day somebody just cannot come along and say, 
you know, we are going to do away with that program.
    It is important for us to have veteran type programs out 
there because when these men and women get off active duty, you 
know, Pennsylvania guard, for example, the 28th Division, 
three, four rotations, we are hearing more and more about young 
men and women now who are snapping.
    We need a program that is going to help them when they get 
locked up and get into the court system. And that is what the 
veterans courts are doing.
    And we are asking right now and, again, through the help 
of, you know, Congressman Meehan and all of you to really step 
up and put something in place so that we can be assured that 
our veterans are going to be treated fairly and right once they 
come back and if they do ever end up in the criminal justice 
system.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well, thank you for your testimony.
    I told Congressman Meehan I hope we can do something here. 
We separated you from the drug courts so there is no 
competition. And I told the drug court people whatever we are 
able to do, and, again, a lot depends on the allocation that we 
have, but I hope that we can--I cannot speak for Mr. Fattah or 
the other Members, but I hope we can do something because I 
told Congressman Meehan when he put his bill in--I do not know 
if I am on your bill or not, but I said I think it is a great 
idea.
    I had not heard about it before, so we hope we can do 
something. Again, the allocation will depend. And if the drug 
courts are out there, we are not going to take away from the 
drug courts to do it. We hope we can kind of separate it out.
    But I thank you for taking the time to come down and 
appreciate the leadership that Mr. Meehan has made. I think it 
is really a good idea. I see it in my area.
    I talked to a family the other day, a junior high school 
principal, four deployments and really tough. So I desperately 
want to do something in this bill that kind of begins this.
    And with that, thank you both.
    Mr. McCaffery. Thank you, Mr. Chairman.
    Mr. Meehan. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. I agree with the chairman. And he can speak for 
me on this. We are going to work together and see if we can 
move the ball down the court here.
    Thank you both for your work in this regard.
    Mr. McCaffery. Thank you, Congressman.
    Mr. Fattah. Good seeing you.
    Mr. McCaffery. Good seeing you.
    Mr. Meehan. Thanks, Congressman.
    Mr. Wolf. Thanks.
    Next will be Nancy Blaney, senior federal policy advisor, 
Animal Welfare Institute.
    And also, too, we just want to tell you once you are 
finished, you do not have to stay to the time. You are welcome 
to leave.
    Again, we welcome you. Your full statement will appear in 
the record. We would appreciate if you kind of stay to that 
limit because of all the others. But welcome.
    Mr. Fattah, any comments?
    Mr. Fattah. No.
    Mr. Wolf. Okay. Thank you.
                              ----------                              

                                          Thursday, March 22, 2012.

                        ANIMAL WELFARE INSTITUTE


                                WITNESS

NANCY BLANEY, SR. FEDERAL POLICY ADVISOR, ANIMAL WELFARE INSTITUTE
    Ms. Blaney. It is a pleasure to appear before the 
subcommittee again and I do want to establish my Pennsylvania 
bona fides first.
    Mr. Wolf. Oh, really?
    Ms. Blaney. I was born in Episcopal Hospital.
    Mr. Wolf. Okay.
    Ms. Blaney. Baptized at Visitation and actually was raised 
outside Philadelphia in Levittown, Pennsylvania.
    Mr. Wolf. Okay. And do you like hoagies or cheese steaks?
    Ms. Blaney. Hoagies. Hoagies, absolutely. I did not know 
what a sub was when I came down here.
    I will be addressing the activities under the Department of 
Justice's Office of Justice Programs, specifically the Bureau 
of Justice Assistance National Animal Cruelty and Fighting 
Initiative.
    And I appreciate the subcommittee's continuing interest in 
this program.
    As you know, this initiative has supported the Association 
of Prosecuting Attorneys Program of Training, Technical 
Support, and Other Assistance that is provided to prosecutors, 
law enforcement, animal control, and many other communities to 
improve the prevention, investigation, and prosecution of 
animal cruelty and animal fighting.
    And I wanted to bring the subcommittee up to date on some 
of the achievements under this program.
    APA is planning its third national conference for October 
in Los Angeles, having had a conference in D.C. and Colorado.
    Like the previous conferences, this one will bring together 
participants and speakers from many disciplines, law 
enforcement, psychology, animal control, veterinary medicine, 
the domestic violence and juvenile justice communities as well 
to share their experiences dealing with animal cruelty and 
animal fighting and to cross-pollinate among participants.
    The topics have included the basics of conducting an animal 
cruelty investigation, how to charge, prosecute, and sentence 
in such cases, the use of forensic experts in court, the 
relationship between animal cruelty and other forms of 
interpersonal violence, and cutting-edge considerations in the 
use of digital evidence. Participants then put theory into 
practice through a mock trial.
    I want to give you an example of the impact that this kind 
of training has had because it always comes back to me that 
this is what it is really about.
    An assistant prosecutor from a large urban county attended 
the very first conference. He and a colleague were taking on 
animal cruelty cases on their own in addition to their other 
workload which included murder cases and they were feeling very 
much out in the wilderness at that time.
    Today their animal protection unit boasts four prosecutors 
who review and handle all animal related cases as well as other 
cases and over the past three years, they have achieved a 98 
percent conviction rate. And both of these original assistant 
prosecutors are now on APA's Animal Cruelty Advisory Council.
    One of the unit's cases resulted in significant jail time 
for two men who set fire to a dog in front of several witnesses 
including children.
    The support and training go beyond the national 
conferences. APA maintains a listserv that allows members to 
contact one another for assistance. They have responded to over 
250 requests for technical assistance. They have run webinars. 
The website makes available a variety of resources and they 
publish a newsletter that provides practical information.
    The subcommittee is well-versed on the relationship between 
animal cruelty and other forms of violence.
    An FBI special agent is now overseeing a new research 
report that is analyzing the criminal histories of offenders 
who have been arrested for active animal cruelty in order to 
further examine the potential link between animal cruelty and 
violence against persons. The majority of the 66 offenders 
examined so far have all had previous arrests for other crimes.
    The U.S. Drug Enforcement Administration in a report on the 
sentencing of a Louisiana drug trafficking kingpin described 
him as an avid pit bull and cock fighter who used these illegal 
events as a networking tool in order to recruit members to 
transport and sell marijuana and cocaine for his organization.
    Two other things I will mention very quickly. One is states 
are beefing up their animal cruelty laws. There are now 47 
states with felony cruelty laws. There were 46 this time last 
year. Twenty-two states now allow the inclusion of pets in 
domestic violence restraining orders and more states are 
actually looking at increasing penalties for animal cruelty 
committed in front of a child.
    So I want to thank the committee for its continued interest 
in BJA's program and ask for your continued support.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much. I appreciate your testimony 
and appreciate your good work.
    Mr. Fattah.
    Mr. Fattah. Thank you very much.
    Ms. Blaney. Thank you.
    Mr. Wolf. Thank you.
    The next witness will be Bill Mefford, director of Civil 
and Human Rights, the General Board of Church and Society, 
United Methodist Church, who will discuss prison overcrowding.
    Yes, sir. Welcome. Your full statement--all the statements 
will appear in the record as if read.
                              ----------                              

                                          Thursday, March 22, 2012.

      GENERAL BOARD OF CHURCH AND SOCIETY, UNITED METHODIST CHURCH


                                WITNESS

BILL MEFFORD, DIRECTOR, CIVIL AND HUMAN RIGHTS
    Mr. Mefford. Thank you, Chairman Wolf and Ranking Member 
Fattah and the Members of the subcommittee, for allowing me to 
testify today.
    Today I represent the United Methodist Church in numerous 
civil rights, legal, religious, and criminal justice 
organizations. We are unified in our opposition to 
appropriating any new funds for the expansion of federal prison 
capacity or contracting new private prison beds that is now 
being proposed by the Obama administration which includes a 
$278 million increase in fiscal year 2013 budget over the 
budget from last year for the Bureau of Prisons.
    We believe that numerous administrative and legislative 
options are available that could more effectively address the 
federal prison population crisis and save taxpayers money.
    Currently a record 217,000 people are confined with BOP 
operated facilities. Over the last 30 years, the size of the 
federal prison system has increased nearly 800 percent largely 
due to the over-representation of those convicted of drug 
offenses, many of whom are low level and nonviolent.
    In fact, BOP director Charles Samuels testified before this 
committee earlier this month and singled out the excessive 
sentences and increasing prosecution for drug offenses as the 
primary contributor to the exploding prison growth.
    In addition to administrative recommendations which I will 
highlight, Congress can and must take legislative action to 
change the course of unrestrained incarceration. Briefly some 
of those legislative proposals that we are recommending include 
expanding the time credits for good behavior from the current 
47 days per year implemented by BOP to the mandated 54 days.
    Number two, home confinement for elderly prisoners who pose 
no risk to local communities, and, number three, ending 
mandatory minimum sentences for drug sentencing.
    It is critical that the crisis of the unsustainable federal 
prison population be addressed. Before this committee endorses 
BOP's request to Congress for fiscal year 2013, the agency 
should be asked to demonstrate that it has maximized cost 
savings and sentence reduction opportunities, something that it 
was asked by the Senate Appropriations Committee to do in 2012.
    We believe BOP has not done so in the current budget 
justification.
    There are also immediate administrative steps that can be 
taken to help save money, maintain public safety, and put a 
curb on the uncontrolled and unrestrained incarceration.
    Number one, expand BOP's residential drug abuse treatment 
program otherwise known as RDAT. Though Congress created up to 
a year's sentence reduction incentive for prisoners convicted 
of nonviolent offenses and eligible for substance abuse 
treatment while in custody, the cost savings of this program 
have not yet been realized.
    According to a recent GAO report, from 2009 to 2011 only 19 
percent of those who qualified for a 12-month sentence 
reduction after completing the program actually received the 
maximum sentence reduction.
    We support BOP's recent 2013 budget request to enhance 
RDAT, but we also urge that BOP prioritize RDAT slots for those 
prisoners who are eligible for a sentence reduction and also 
broaden the definition of eligibility.
    We know that even now $25 million could be saved each year 
if low level, undocumented immigrants remain eligible for RDAT 
as well.
    Number two, expand BOP's implementation of compassionate 
release. In addition to those who are terminally ill, 
compassionate release should be considered for inmates with 
medical conditions who have served at least 67 percent of their 
sentence, which was also endorsed by the Obama administration, 
and when it involves the death or incapacitation of the 
inmate's only family member capable of caring for the inmate's 
minor child.
    Number three, expand the use of residential reentry centers 
or home confinement for up to the last 12 months of sentences 
in order for inmates to prepare to return to society. Utilizing 
both residential reentry centers and home detention more 
effectively will both save money and promote successful reentry 
and public safety.
    Thank you for the opportunity to testify. We look forward 
to working with you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much. Appreciate your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you for your testimony and thank you for 
the work that you and the community of faith are doing on this 
issue. Thank you.
    Mr. Mefford. Thank you. Thank you very much.
    Mr. Wolf. The next witness will be Kelly Harbitter, 
programs and policy advisor for SEARCH, the National Consortium 
for Justice Information and Statistics.
    You may proceed.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

 SEARCH, THE NATIONAL CONSORTIUM FOR JUSTICE INFORMATION AND STATISTICS


                                WITNESS

KELLY HARBITTER, PROGRAMS AND POLICY ADVISOR, SEARCH, THE NATIONAL 
    CONSORTIUM FOR JUSTICE INFORMATION AND STATISTICS
    Ms. Harbitter. Good morning, Mr. Chairman. Thank you.
    And thank you, Mr. Fattah, for the opportunity to talk to 
you today about Department of Justice appropriations in the 
fiscal 2013 bill, specifically for the National Criminal 
History Improvement Program, NCHIP.
    SEARCH is a state criminal justice organization made up of 
governors' appointees from each of the states. Many of our 
members oversee the state criminal history repositories and 
other justice information sharing systems.
    As you well know, NCHIP received an allocation of $5 
million in the recent budget proposals and our members 
recognize that these are difficult budgetary times. And they 
have been judicious in their investment in criminal history 
records improvement over the last several years.
    But the criminal and noncriminal justice demand for these 
accurate, complete, and timely criminal records continues to 
grow at a very rapid pace and there should be a priority placed 
on the NCHIP funding.
    Despite the single digit budget allocations for NCHIP last 
year, states submitted viable applications for funding that 
have come in at nearly five times the available amount.
    So we recommend that NCHIP receive an appropriations of $25 
million. It reflects the Nation's pressing need to continue to 
improve the quality and completeness of criminal history 
records.
    So I would like to highlight four key points today. Number 
one, NCHIP is a long-standing successful program. It is a 
program that has a proven record of success. States have made 
real measurable progress towards improving their records and 
the Bureau of Justice statistics has provided strong oversight 
and auditing of the program as has been noted in two GAO 
reports in the last decade.
    Number two, the demand for these records is growing 
exponentially while funding rapidly declines. The Nation's 
criminal history record system plays a more vital and 
comprehensive role in public safety decision making today than 
ever before including for law enforcement investigations, 
officer safety, for sentencing and other criminal justice 
purposes, but also for expungement and support for successful 
reentry programs and for homeland security and anti-terrorism 
initiatives.
    But meanwhile the demand for the record for noncriminal 
justice records continues to rise including for security 
clearances, employment, volunteer suitability. That has grown 
exponentially.
    The public demands that gun dealers, employers, volunteer 
organizations, and others are carefully screening the criminal 
backgrounds of individuals who want to purchase a gun or who 
are applying to take on sensitive security related positions or 
who are going to interact with our vulnerable populations, the 
children, the elderly, the disabled, and others.
    NCHIP funding, however, has seen a steady and dramatic 
decline in the past several years and, in fact, the program has 
been cut by 50 percent since 2010.
    Number three, if the state records are weakened, so, too, 
is the effectiveness of the national system. Continued funding 
reductions negatively impact the states and the Nation. This is 
a national network and we expect criminal history records from 
California to Virginia to have the same standards for quality 
and accuracy and completeness as in any other state.
    More broadly, the state criminal history records are the 
primary source for the FBI's interstate identification index, 
the III. Indeed, 70 percent of all III records are maintained 
by the states.
    Any weakness in the states affects the ability of state, 
national, and federal programs to identify threats and keep our 
citizens safe.
    And, finally, number four, the states have been successful 
with NCHIP. The Virginia State Police set up electronic access 
to criminal records on site at gun shows ensuring rapid 
response in keeping guns out of individuals' hands that should 
not have them.
    California used NCHIP funding to make disposition reporting 
process nearly entirely electronic resulting in quicker access 
to more accurate and complete information without manual 
intervention.
    New York focused its NCHIP funding on solving the problem 
of missing dispositions. The state now maintains a 92 percent 
disposition completion rate.
    And like many states, Georgia and Hawaii used NCHIP funding 
to implement live scan devices, mug shot imaging systems, and 
to improve important critical protection order systems and 
their sex offender registries.
    So we urge Congress to increase support to this vital 
national system. Our Nation's criminal history records and the 
ability of state and local criminal justice agencies to share 
quality information helps keep our country safe.
    So thank you for your time today.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well, thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you very much.
    Ms. Harbitter. Thank you.
    Mr. Wolf. Next will be Bill Piper, Drug Policy Alliance.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                          DRUG POLICY ALLIANCE


                                WITNESS

BILL PIPER, DIRECTOR, NATIONAL AFFAIRS, DRUG POLICY ALLIANCE
    Mr. Piper. Good morning.
    Mr. Wolf. Good morning.
    Mr. Piper. First let me apologize for walking in late. I 
beg forgiveness.
    Mr. Wolf. That is fine.
    Mr. Piper. The Drug Policy Alliance is working to reduce 
the harms associated with both drug abuse and punitive drug 
policies and so we are very interested in shifting money from 
the federal supply side approach to drugs to a more demand and 
public health oriented approach.
    Over the last 40 years, the U.S. has spent about a trillion 
dollars on the war on drugs and, yet, drugs remain cheap, 
potent, readily available in every community and incarceration 
has skyrocketed with five percent of the world's population, 
but 25 percent of the world's prison population.
    I think Senator Webb is right when he says that either the 
U.S. has the most evil people in the world or our criminal 
justice system is broken. And I think a lot of people are 
probably going to talk about sentencing reform and things along 
those lines.
    I just want to talk briefly about the role that federal 
grants to local and state law enforcement play in over-
incarceration and in particular the Byrne Grant Program and the 
COPS Program.
    So the Byrne Grant Program has been criticized from a 
variety of policy and political perspectives. The program 
insulates states from the full cost of current criminal justice 
policies. The evidence shows that unquestionably is driving 
mass incarceration at the local and state level.
    Local and county police use federal Byrne money to arrest 
hundreds of thousands of people a year, in many cases for 
nonviolent drug offenses. Those people end up in many cases 
going into state prisons. And so even though the cities are 
getting help, it ends up costing the state governments billions 
of dollars.
    Civil rights leaders have expressed concerns that the Byrne 
Program is enabling racial disparities. Calls for serious 
reform to the program have come from the ACLU, the Brennan 
Center, National Association of Blacks in Criminal Justice, 
National Black Police Association, and the voice of the Pio La 
Raza.
    And on the other side of the perspective, a number of 
leading conservative organizations have written in favor of 
completely eliminating the program including American 
Conservative Union, the Americans for Tax Reform, Citizens 
Against Government Waste, and the National Taxpayers Union.
    I go into detail about, I think, some of the problems 
associated with the program in the written testimony, but I 
think the most important thing to stress is that it is not a 
result of a few bad apples in law enforcement. It is a result 
of a fundamentally flawed bureaucracy that is prone to 
corruption, especially with respect to regional narcotics task 
forces which are federally funded, state managed, and locally 
staffed. And GAO and others have really looked into this in 
detail.
    With respect to COPS, I could not agree more with something 
Chairman Sensenbrenner said just a few weeks ago in his 
committee when he said it is clear to me that the purpose of 
the program has shifted from addressing violent crime 
nationwide to subsidizing state and local law enforcement 
agencies with budget problems. A responsibility to fund and 
manage routine state and local law enforcement efforts has been 
and should remain with the state and local governments. This 
program was intended to address an acute crime program that no 
longer exists and has now become a program to bail out state 
and local governments that make fiscally irresponsible 
decisions.
    And so, you know, I think this money could be better used 
either focusing on things that are truly federal in nature, 
terrorism, border security, et cetera, or shifted to more 
effective ways of dealing with drugs.
    And in particular, I want to thank the chairman and ranking 
member for your support for the Second Chance Act, which is 
crucial. And we recommend fully funding that program. It has 
never really been fully funded.
    I think, you know, the Obama administration is advocating 
cuts to the Byrne Grant Program. You can use part of that to 
pay for the Second Chance Act. You know, we have hundreds of 
thousands of people that are coming out of jail each year and 
the Second Chance Act is providing, you know, mental health, 
substance abuse education, employment, everything that people 
need to get a second chance.
    And, you know, we need to deal with the front end and stop 
sending so many people to prison. I think a lot of that, you 
know, has to be done through authorizing committee. But I think 
the back end, helping people when they get out to reduce 
recidivism this committee can do.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you for your testimony. I appreciate it.
    Mr. Piper. Thank you.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you.
    And the fact that the chairman and I are not elaborating is 
not because of a lack of interest in these matters, but we have 
a lot of people who have to testify and we do appreciate it.
    Thank you.
    Mr. Wolf. I appreciate Mr. Fattah saying that, too, because 
there have been so many questions I could have asked. And Mr. 
Fattah is in the same way. But in the interest of time----
    Mr. Fattah. We would be here a week.
    Mr. Wolf. Yes. So the fact that we are not asking does not 
mean we are not interested in what you are saying. Believe me. 
I can assure you of that.
    Next witness, David Bean, with the Puyallup Tribe, tribal 
councilman.
    Sir, welcome.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                             PUYALLUP TRIBE


                                WITNESS

DAVID BEAN, TRIBAL COUNCILMAN, PUYALLUP TRIBE
    Mr. Bean. Good morning.
    Mr. Wolf. Good morning.
    Mr. Bean. Chairman Wolf, Ranking Member Fattah, my name is 
David Bean. I am a member of the Puyallup Tribal Council. I am 
here today on behalf of my chairman, Herman Dillon, Sr.
    Thank you for this hearing and thank you for allowing us to 
sit at this table. We truly appreciate your past support for 
many tribal issues and are appreciative for your interest here 
today.
    I am pleased to present testimony related to the Department 
of Justice funding for Office of Justice Programs, the Office 
of Community Oriented Policing, and the Office on Violence 
Against Women programs.
    We look forward to working with the 112th Congress to 
ensure that funding is adequate to meet the needs.
    Just to give you a little brief background of Puyallup 
Tribe, we have about 18,000 acres within our reservation. There 
are approximately six municipalities that are within our 
reservation, City of Tacoma being the largest one. And it is a 
checker board style reservation which means some of it is owned 
by the tribe, some is owned by non-natives.
    We service 4,400 members, Puyallup Tribe members, along 
with 25,000 other Native Americans from 365 fairly recognized 
tribes.
    Our law enforcement division consists of a chief of police, 
29 officers, and two reserves. Due to limited federal funding, 
only two of those positions are funded through federal funding. 
The Puyallup Tribe carries the burden of the remaining officers 
along with the associated expenses.
    We work real closely with neighboring jurisdictions. We 
feel it is very important to have that relationship with the 
state, the city, and the counties in the area of law 
enforcement in addressing the needs of our community.
    We have inter-local agreements which allows our tribal 
police officers to be cross-deputized and make arrests and make 
sure that the arrested parties are brought to the appropriate 
authority.
    These relationships are extremely important to the Puyallup 
Tribe. There are currently 33 active gangs within our 
reservation. Let me put this into perspective.
    There are 200,000 residents in the City of Tacoma. And our 
tribe consists of 4,000 members, so we represent about two 
percent of the population.
    You can break the city into eight segments and with the 
recent study, the Tacoma gang assessment, they identified 99 
gangs within the city limits.
    On the east side of Tacoma where the Puyallup Tribe 
reservation is, 33 of those tribes have been identified. So 
one-third of the gang problem is within our reservation. So 
that is again a reason why we see it is so important to 
interact with the local jurisdictions to address this problem, 
because what affects one of us affects all of us.
    I grew up on the east side of Tacoma, so I want to bring 
some personal perspective here. These gangs are actively 
pursuing our children and we need your help. We need your help 
addressing this problem.
    This Tacoma gang assessment that I mentioned was started 
about a year ago gathering data with help from the National 
Gang Intelligence Center in which I believe, Chairman, you had 
a large part.
    Mr. Wolf. Right. The Administration wants to eliminate it.
    Mr. Bean. That is unfortunate.
    Mr. Wolf. I do not think we are going to let them, but they 
want to. But go ahead.
    Mr. Bean. Well, they provided some really good data and 
really technical assistance that has allowed the City of Tacoma 
in partnership with the Puyallup Tribe and other agencies to 
gather data to address this problem.
    Fifty percent of our population, our community are under 
the age of 18, so we see our kids, being targeted by these 
gangs and it is particularly for me growing up in it, I have 
seen it firsthand. I have lost a lot of friends to gang 
violence. And so as a council member I am in a position to 
address these issues through activities for our children.
    And so, again, I am just telling you we need your help and 
we appreciate the funding.
    Lastly, I see my time is up. I just want to tell you that 
we support the Office on Violence Against Women. And of the 
funding that has been requested, $412 million, $40 million of 
that will be for tribal initiatives.
    And, again, I have some personal perspective on that. As a 
young teenage boy, I was called from a wrestling tournament to 
go rescue my mother. And so it is not just our women. It is our 
children that are impacted by this violence against our women.
    One in three Native American women will be raped. Six out 
of ten will be subject to physical abuse. And I was a witness 
to that. And so, again, we need your help. We need the funding. 
We know it is limited, but we need your help.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well, thank you.
    There are a thousand questions. What do you think the major 
reason of all the violence is?
    I mean, I feel that, and this is my own personal opinion, I 
am not speaking for the chairman or for Mr. Fattah or the other 
committee members, I have been very opposed to Indian gambling. 
I think it is just a bad thing.
    Consequently I think the Congress has fundamentally and 
this Administration and previous Administrations have failed 
the American Indians. We have just almost neglected them. And I 
think there should be opportunities of bringing jobs, of 
repatriating jobs and doing things.
    We have had a very difficult time because it seems that 
some tribes, all they want to do is the gambling and I think 
they are looking for an opportunity for money and, you know, 
who am I to say?
    The other side of the coin is the fact that the feds have 
allowed that to take place has almost given the Federal 
Government the ability to sort of wash their hands and say we 
are not really involved anymore. And I think the Congress and 
the Administration have failed the American Indians so badly.
    But at some time, I would be interested, maybe you can just 
give my office a call sometime----
    Mr. Bean. Certainly.
    Mr. Wolf [continuing]. When we are finished with the 
hearing and we can chat about it. But you wanted to say 
something, Mr. Fattah?
    Mr. Bean. Yes, sir. The violence----
    Mr. Wolf. I do not know if your tribe has gambling or not.
    Mr. Bean. We actually do.
    Mr. Wolf. Let me say I am absolutely--I mean, that is like 
adding--a fire is raging and that is like pouring more gasoline 
on it. But I am not making a judgment. Who I am is not--I have 
no right to tell you. I think it is morally, ethically wrong. 
It is an exploitation of the poor. It brings corruption. It 
brings, you know, I could go on and on. But aside from that, 
there ought to be something.
    Just give me a call, you know, and we can chat----
    Mr. Bean. Yes.
    Mr. Wolf [continuing]. And see what--maybe there are some 
things----
    Mr. Bean. Yes.
    Mr. Wolf [continuing]. That we can do. Mr. Fattah.
    Mr. Fattah. I want to thank you for your testimony. And we 
will take it into account as we go forward.
    Mr. Bean. Yes, sir.
    Mr. Fattah. Thank you.
    Mr. Bean. Just to respond real briefly.
    Mr. Wolf. Sure.
    Mr. Bean. Again, growing up in the east side of Tacoma long 
before Indian gaming was there, there was gang violence. In 
fact, it was the top ten area in the Nation as far as gang 
violence prior to gaming. What gaming has done for us has 
allowed us to fund programs to--again, for our law enforcement. 
You know, we are paying, you know, four point----
    Mr. Wolf. I understand.
    Mr. Bean. So it is funding healthcare education for our 
families.
    Mr. Wolf. I understand.
    Mr. Bean. It has improved our community.
    Mr. Wolf. For the record, I have got to say this. Gaming is 
Monopoly. It is jacks. Gambling we are talking about. Gambling 
is fundamentally exploitation of the poor. I know there are 
some benefits that may come. We are trying to push repatriation 
whereby we can bring jobs back.
    And I would love to see the Members of Congress who care 
deeply about American Indians, and I do not have a large 
number, but I would--to see if we could cordon off as we 
repatriate to bring the jobs to go on to the reservations and 
go there because we are making iPhones, iPads all in China when 
we could be moving it back and doing--and so--but every time we 
get into this, the gambling issue comes up or somebody--I think 
the fact that the Congress and the Administration have allowed 
gambling to take place, it has almost enabled them to say, hey, 
we are giving them the opportunity. They can do whatever they 
want to.
    And so literally the Congress and the Administration have 
pulled a Pontius Pilate. They have washed their hands of it and 
that is just the reality of it.
    I used to work at the Department of Interior for Secretary 
Rogers C.B. Morton. Some of the things I saw, and it is even 
worse. But, anyway, give me a call.
    Mr. Bean. Yes, sir.
    Mr. Wolf. And then we can chat.
    Mr. Bean. I welcome your comments.
    Mr. Wolf. But it is gambling. Gaming is Monopoly, what I 
play with my grandkids. Gambling is what is going on in those 
casinos.
    Mr. Bean. Yes, sir.
    Mr. Wolf. But thanks for taking the time.
    Mr. Bean. Yes, sir. We have been historically underfunded.
    Mr. Wolf. You have been. I agree.
    Mr. Bean. So I appreciate and I welcome the opportunity to 
speak with you further.
    Mr. Wolf. Okay. The staff will tell you how to reach me 
next week.
    Mr. Bean. Thank you again.
    Mr. Wolf. Okay. Thanks.
    Gary Mills, national legislative coordinator of the AFGE 
Council of Prison Locals.
    Thanks again. Call me next week. He will give you the 
number.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                     AFGE COUNCIL OF PRISON LOCALS


                                WITNESS

GARY MILLS, NATIONAL LEGISLATIVE COORDINATOR, AFGE COUNCIL OF PRISON 
    LOCALS
    Mr. Mills. Good morning, Chairman Wolf, Ranking Member 
Fattah. My name is Gary Mills. I am the national legislative 
coordinator for the American Federation of Government Employees 
Council of Prison Locals.
    And on behalf of the over 36,000 federal correctional 
workers who operate 117 Bureau of Prisons' correctional 
facilities, I would like to thank you today for the opportunity 
to testify in front of the subcommittee.
    AFGE strongly urges the subcommittee to provide 
$187,055,000 above the President's fiscal year 2013 budget 
request for BOP salary and expenses account to allow BOP to 
hire an additional 1,969 correctional workers in fiscal year 
2013.
    This would allow the BOP to return to 95 percent base 
staffing level of the mid-1990s at existing BOP-operated 
institutions.
    Today more than 217,000 prison inmates are incarcerated in 
BOP correctional institutions. That is up from 25,000 in fiscal 
year 1980, 58,000 in fiscal year 1990, and 145,000 in fiscal 
year 2000.
    About 81 percent of the inmate population is now confined 
in BOP-operated facilities, 19 are managed in residential 
reentry centers and private prisons. And by the end of fiscal 
year 2013, it is expected there will be over 229,000 prison 
inmates incarcerated in BOP correctional institutions.
    However, the number of federal correctional workers who 
work in BOP-operated prisons is failing to keep pace with the 
tremendous growth in the inmate prison population.
    As of December 31st, 2011, the BOP operated institutions 
were staffed at an 88 percent level as contrasted with the 95 
percent staffing level of the mid-1990s. This 88 percent 
staffing level is below the 90 percent staffing level that the 
BOP believes to be the minimum level for maintaining the safety 
and security of BOP prisons.
    In addition, while the number of prison inmates in the 117 
BOP-operated institutions has grown from 125,560 in fiscal year 
2000 to 176,540 now, the number of BOP correctional workers has 
only increased from 30,382 to 36,172.
    As a result, the BOP inmate to worker ratio has increased 
from 4.13 to one in fiscal year 2000 to 4.96 to one now. This 
significant increase in the inmate to worker ratio adversely 
impacts BOP's ability to effectively supervise prison inmates.
    The serious correctional worker under-staffing problem 
along with the prison inmate overcrowding problem is resulting 
in significant increases in prison inmate assault against 
correctional workers. Hundreds of inmate on worker assaults 
have occurred at various BOP prisons since the brutal murder of 
correctional officer Jose Rivera on June 20th, 2008 by two 
prison inmates at the United States Penitentiary in Atwater, 
California.
    The President's fiscal year 2013 budget provides 
$6,820,217,000 for the BOP salaries and expenses account, a 
$268 million increase above fiscal year 2012. According to the 
fiscal year 2013 request, the President is requesting 37,839 
correctional workers and 41,904 authorized positions. That is 
an increase of 1,667 correctional workers and 800 authorized 
positions for a 90.3 staffing level.
    AFGE is pleased that the President's budget provides enough 
additional funding so that the BOP can achieve a 90 percent 
minimum staffing level for maintaining the safety and security 
of BOP operated institutions. However, years of chronic under-
funding in the salaries and expenses account have left the BOP 
workforce spread dangerously thin, compromising BOP's ability 
to operate in a safe and efficient manner.
    And so AFGE strongly urges the subcommittee to provide 
$187,055,000 above the President's fiscal year 2013 budget for 
the BOP salaries and expenses account to allow BOP to hire an 
additional 1,969 correctional officers in fiscal year 2013, 
thereby achieving a 95 percent base staffing level at existing 
BOP operated institutions.
    This concludes my oral statement. Thank you for your 
attention. We will be happy to answer any questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you.
    Mr. Wolf. Next witness, Ann Harkins, National Crime 
Prevention Council.
    Go ahead.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                   NATIONAL CRIME PREVENTION COUNCIL


                                WITNESS

ANN M. HARKINS, CHIEF EXECUTIVE OFFICER, NATIONAL CRIME PREVENTION 
    COUNCIL
    Ms. Harkins. Thank you, Mr. Chairman, and good morning to 
you and to Ranking Member Fattah, for the opportunity to 
testify before the subcommittee today, for your continuing to 
hold these public hearings and for your support for crime 
prevention over the years.
    I am Ann Harkins, born in Fishtown, now the president of 
the National Crime Prevention Council, home of McGruff, the 
crime dog.
    McGruff, when he started his take a bite out of crime 
campaign, Americans did not think there were things they could 
do to prevent crime. It is hard to believe today when McGruff 
enjoys 83 percent recognition, when 75 percent of Americans 
know there are positive steps they can take to keep themselves, 
their families, and their communities safe from crime, when 90 
plus of Americans think that McGruff is trustworthy and 
informative and 72 percent think he is cool.
    And we at NCPC are very proud that more than 80 percent of 
kids would follow McGruff's advice on crime prevention and 
keeping themselves safe and that the national citizens crime 
prevention campaign has garnered more than $1.4 billion in 
donated media over the years.
    Today the National Crime Prevention Council engages the 
public in crime prevention through public education, outreach, 
evidence-based programs, and training. We address every crime 
from burglary to mortgage fraud, from gang violence to cyber 
bullying, and most recently intellectual property crime.
    We address every demographic. We have McGruff clubs for 
young children and readers. We have school safety programs and 
training and campus crime prevention for programs from 
kindergarten through university, and we are protecting seniors 
from both physical abuse and financial fraud.
    We use every medium available to us because to be 
effective, public education programs have to reach people where 
they are. Today that means on-line videos, social media, and 
training in addition to traditional public service radio and TV 
advertising.
    We at the National Crime Prevention Council represent 
thousands of crime prevention practitioners nationwide. These 
are the crime prevention officers, the victim witness 
coordinators, the Child Protective Service workers, the 
community volunteers and community leaders who give their time 
and talent to help keep communities safe.
    They work with kids. They work with the elderly and they 
often do it on shoestring budgets. Their work in communities 
and your investment in solid crime prevention programs pay off 
in fewer crimes and more importantly fewer crime victims.
    It reduces the need for government spending on treatment, 
arrests, prosecutions, and incarceration. That is why we 
respectfully request that in fiscal year 2013, the subcommittee 
continue its historic support for crime prevention by funding 
the Byrne Competitive Grants Program at $25 million or more and 
funding the Economic High Technology Cyber Crime Prevention 
Programs at $15 million.
    Especially in these times of tightening budgets, these 
programs enhance and expand your investment in Byrne JAG.
    In closing, I want to thank you, Chairman Wolf and Mr. 
Fattah, for your personal commitment to crime prevention, to 
thank the Justice Department for a successful 30 years of 
public/private partnership, and to thank the subcommittee for 
helping us take a bite out of crime.
    And I would be happy to answer any questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much. I appreciate the testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you. And I notice these Philadelphia 
connections. This could be a major breakthrough in these 
national organizations. Thank you.
    Ms. Harkins. I think it is about community. That is what we 
learned.
    Mr. Wolf. Next, Jodina Hicks, Urban Promise Ministries.
    Go ahead. Welcome.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                        URBANPROMISE MINISTRIES


                                WITNESS

JODINA HICKS, EXECUTIVE DIRECTOR, URBANPROMISE MINISTRIES
    Ms. Hicks. Thank you.
    Good morning and thank you, Mr. Chairman and Mr. Fattah. I 
appreciate the opportunity to testify in support of fiscal year 
2013 funding for Department of Justice grant programs that 
support prevention and no entry to prison.
    UrbanPromise is a faith-based, nonprofit child and youth 
development organization in Camden, New Jersey. The FBI, BJS, 
and Census Bureau all consistently list Camden as one of the 
poorest and most violent cities in the United States. We know 
that from firsthand experience.
    Poverty and lack of access to quality education are 
pervasive problems in Camden. Without intervention, dropout, 
gangs, and detention are often the path our young people take.
    UrbanPromise is locally grown, born out of our community's 
need to address the problems of inter-generational poverty and 
cyclical incarceration of our youth.
    The majority of children in Camden are either high- or at-
risk. UrbanPromise's alternative schools, especially our 
academy high school, services some of the highest risk youth in 
the city, students with present or past involvement in the 
juvenile justice system.
    Nevertheless, last year, our elementary and middle school 
boasted a 98 percent attendance rate and 100 percent of our 
high school seniors graduated on time. Ninety-three percent of 
them went on to college.
    Perhaps our most innovative prevention model is our Street 
Leader Program, a combination of youth mentoring and teen job 
training. Camden teens are hired as role models, tutors, and 
mentors for children in our after school programs and summer 
camps. They are employed. They are paid and are required to 
stay in school. Many of them come back as graduates and work as 
staff for us.
    Our programming is geared towards the hours of the highest 
violence, three and nine p.m., bringing children and youth off 
the streets to a safe place and refocusing their energies, 
paying teens rather than them going to the alternative route.
    We were reminded of the danger that arises at this time a 
couple weeks ago. Two days in a row, shootings occurred 
directly outside the doors of our program in north Camden 
between three and four p.m. Thankfully none of our youth were 
harmed. We are very fortunate that in almost 25 years, no 
active UrbanPromise young person has been lost to street 
violence.
    Our street leaders are encouraged to avoid negative 
influences and focus on school.
    Based on our last 25 years in one of the country's most 
violent and dangerous cities, UrbanPromise would urge the 
subcommittee to continue to invest in two critical competitive 
grant programs and expand them, the youth mentoring grants and 
the Second Chance Act juvenile mentoring. These are more 
effective uses of dollars than incarceration and it is what our 
community would like.
    This past year, one of our young people, a student at our 
alternative high school and a street leader, demonstrated the 
power of relational programming. Before UrbanPromise, he had 
been incarcerated for several years. He had not been in school 
and both his parents were incarcerated. His only family member 
who was able to take him when he came out of detention was his 
aging, ill grandmother.
    One of our volunteers became aware of the need for him to 
have extra support and dedicated himself to ensuring Louis did 
not return back to jail. When Louis got into some additional 
trouble, the Sell family attended several court dates for Louis 
with us and took him into their home. Because of the commitment 
of this family, the judge reduced Louis' sentence to an 
alternative to incarceration and allowed UrbanPromise to be his 
detention.
    Louis went from struggling in school to a straight A and B 
student and the Sells became his legal guardian. They treat him 
as one of his family.
    Congress cannot legislate such strong families, but it can 
support organizations like ours to fill the gap.
    In closing, we encourage funding for alternatives and 
prevention such as our Street Leader model which prevent young 
youth detention and stop the cycle of incarceration. Our city 
needs your help.
    We thank you for your time and for your service.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you very much.
    Ms. Hicks. Thank you. Thank you both.
    Mr. Wolf. Stephen Saloom, policy director, Innocence 
Project.
                              ----------                              

                                          Thursday, March 22, 2012.

                           INNOCENCE PROJECT


                                WITNESS

STEPHEN SALOOM, POLICY DIRECTOR, INNOCENCE PROJECT
    Mr. Saloom. Good morning.
    Thank you, Mr. Chairman, Mr. Ranking Member.
    My name is Stephen Saloom. I am the policy director of the 
Innocence Project. Thank you for allowing me to testify today 
on the fiscal year 2013 funding for federal innocence programs.
    The Innocence Project is a national litigation and public 
policy organization dedicated to exonerating wrongfully 
convicted people through DNA testing and reforming the criminal 
justice system to prevent future injustice.
    We are also part of the national innocence network which 
consists of 55 organizations covering all 50 states that work 
to identify and exonerate wrongfully convicted individuals and 
reform the system to prevent future wrongful convictions.
    Freeing innocent individuals and preventing wrongful 
convictions through reform greatly benefits public safety. 
Every time DNA identifies a wrongful conviction, it enables the 
identification of the real perpetrator. This has been the case 
in 45 percent of the Nation's 289 wrongful convictions proven 
by DNA testing.
    Not only does our work help to free innocent people who 
have been wrongfully convicted but by examining every case 
where a post-conviction DNA testing reveals that the system got 
it wrong and convicted an innocent person, we can understand 
what it was that led police, prosecutors, judges, and juries to 
think that an innocent person was guilty. Eyewitness 
identification, false confessions, forensic problems have been 
those major contributors. By identifying those and 
understanding how those mislead the system, we have also been 
able to identify the reforms that improve the accuracy of 
criminal investigations and strengthen criminal prosecutions.
    I appear today to request continued funding for three 
federal innocence programs including the Paul Coverdell 
Forensic Science Improvement Program which supports both the 
capacity of public crime labs to process forensic evidence and 
provides the essential function of requiring independent 
investigations upon allegations of serious forensic negligence 
or misconduct.
    Helping state and local crime labs process a significant 
amount of forensic evidence is critical to solving active and 
cold cases and helps ensure the public safety. For this reason, 
we ask that you fund the Coverdell Program at $20 million.
    The Kirk Bloodsworth Post-Conviction DNA Testing Program 
provides hope to innocent inmates who might otherwise have none 
by helping states more actively pursue post-conviction DNA 
testing in appropriate situations.
    The Bloodsworth Program, as you may know, has fostered the 
cooperation of innocence projects and state agencies. For 
example, the Arizona Justice Project in conjunction with the 
Arizona AG's Office canvassed the Arizona inmate population, 
reviewed cases, located evidence, and filed joint requests with 
the court to have evidence released for DNA testing.
    Arizona Attorney General Terry Goddard has noted that, 
quote, this grant enables his office to support local 
prosecutors and ensure that those who have committed violent 
crimes are identified and behind bars.
    The Bloodsworth Program has resulted in the exonerations of 
nine wrongfully convicted persons in six states and the true 
perpetrator was identified in three of those cases.
    For instance, in Virginia, Thomas Haynesworth was freed in 
part thanks to Bloodsworth-funded DNA testing that also 
revealed the real perpetrator.
    For this reason, we ask that you fund the Bloodsworth 
Program at the fiscal year 2012 level of $4 million.
    Expert representation is required to navigate the complex 
issues that arise when trying to prove one's innocence post 
conviction. The Wrongful Conviction Review Program helps to 
support that legal expert representation as a way to both give 
innocence an opportunity to effectively achieve exoneration and 
to save court and law enforcement resources by more efficiently 
and often cooperatively pursuing post conviction relief.
    Numerous projects have been able to enhance their abilities 
through this funding. And I want to cut to the chase. And there 
have been exonerations through this funding in Florida, also in 
Virginia with Mr. Haynesworth, Minnesota, and three 
exonerations in California.
    We ask that you fund this program which is part of the 
Capital Litigation Improvement Program at $2.5 million for a 
total Capital Litigation Improvement Program allocation of $5 
million.
    I see I am out of time. Thank you very much.
    [The information follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you very much.
    Mr. Saloom. We appreciate the committee's support. Thank 
you very much.
    Mr. Wolf. Carole Sherman, Families and Friends of Care 
Facility Residents.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

            FAMILIES AND FRIENDS OF CARE FACILITY RESIDENTS


                                WITNESS

CAROLE L. SHERMAN, PUBLIC AFFAIRS CHAIRMAN, FAMILIES AND FRIENDS OF 
    CARE FACILITY RESIDENTS
    Ms. Sherman. Chairman Wolf, Mr. Fattah, thank you for this 
opportunity.
    I am Carole Sherman and I represent Arkansas' Parent 
Guardian Association. My testimony explains why we oppose 
additional funding that allows the Department of Justice, under 
the guise of civil rights, to force the closure of safe homes 
for our most vulnerable citizens.
    I have read the department's description of its request for 
additional funds for its Civil Rights Division and its 
description does not match our families' experiences.
    To understand my interest, you must understand my son, age 
43, who suffered severe brain injuries at birth. Mentally he is 
a young toddler, but he is otherwise a strong middle-age, 
mobile man.
    John has the judgment of a one-and-a-half-year-old. John's 
safe home for many years has been a Medicaid-certified 
congregate care facility in Arkansas which sits in a protected 
park-like setting.
    To be federally funded, certified through CMS, his center 
must meet eight major criteria on management, client 
protection, facility staffing, active treatment, client 
behaviors and facility practices, healthcare services, physical 
environment, and dietetic services.
    The center has many eyes on the grounds and this is 
important because our son cannot report if things go wrong.
    The Civil Rights Division's ADA and Olmstead enforcement 
activities are closing places like John's home and moving 
residents into community care. Olmstead is a Supreme Court 
decision which DOJ misconstrues to pursue a 
deinstitutionalization agenda. Through costly litigation and 
arbitration, the division is removing the most vulnerable among 
us from their homes without respect for the wishes of their 
legal guardians and with no clear underlying rationale.
    Peer review studies show that deaths from preventable 
causes rise from those who transition from facilities. DOJ 
recently brought two federal lawsuits in our state, one against 
the Conway Center and another against all of the state's 
licensed facilities including our son's home.
    During the eight years of the DOJ investigation of the 
Conway Center, it was at all times in compliance with federal 
Medicaid certification regulations. And during the six weeks 
trial which began in September of 2010, not one family from the 
over 400 residents supported the department's claims that their 
family member's civil rights were being violated and not one 
medical provider or hospital representative familiar with the 
center's complex medical care testified to support DOJ's claims 
of poor care.
    Our state defended the Conway Center and the federal court 
denied the substantive DOJ claims and dismissed the case last 
year in June of 2011. This victory did not come without a high 
cost. The state spent $4.3 million in legal fees and costs 
which may not seem like much here, but to a small state like 
ours and to us, it is a lot of money.
    Part of the costs were paid by the state. Part came from 
the sale of timber and mineral rights and part came from gifts 
and bequests meant to provide improvement for residents' lives.
    Let me reiterate to defend our Medicaid certified state-run 
facility against a federal lawsuit, we sold timber and mineral 
rights and used funds that were meant to enhance the lives of 
residents.
    Constrained by budgets, other states have settled with DOJ 
rather than spend the millions it would cost to defend. And 
Justice Kennedy anticipated this very thing in his Olmstead 
writing. He said it would be a tragic event were the Americans 
With Disabilities Act to be interpreted so that states had some 
incentive for fear of litigation to drive those in need of 
medical care and treatment out of appropriate care into 
settings with too little assistance and supervisions. Justice 
Kennedy's fear is a reality today.
    In my written statement, I have given you our request. 
Thank you very much for this opportunity.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you for your testimony.
    What I am going to ask the staff to do is to get your 
testimony and send it to the Attorney General Holder so he can 
see and hear and ask them for the comments for them to comment 
back that we can share with you.
    Mr. Fattah.
    Mr. Fattah. I want to thank you for your appearance.
    And I share the chairman's desire that we provide this to 
the Justice Department. And it would seem to me that having 
won, the Justice Department should have been responsible for 
covering the legal fees of the state for bringing this action 
that they were not successful in. But we do not have a lot of 
time today.
    I want to thank you for following through. And I read 
through your bio and about your service in the Peace Corps and 
all that you have done and I am amazed that such a case was 
brought. Thank you.
    Ms. Sherman. Thank you.
    Mr. Wolf. Thank you very much.
    Michael Durant, Peace Officers Research Association of 
California.
    Your full statement will appear in the record.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

           PEACE OFFICERS RESEARCH ASSOCIATION OF CALIFORNIA


                                WITNESS

MICHAEL DURANT, VICE PRESIDENT, PEACE OFFICERS RESEARCH ASSOCIATION OF 
    CALIFORNIA
    Mr. Durant. Good morning, Chairman Wolf, Ranking Member 
Fattah. It is my privilege and honor to be here before you this 
morning.
    If I may also say hello to the record to my fellow 
Californians Congressmen Schiff and Honda.
    My name is Mike Durant. I am the senior deputy with Santa 
Barbara County Sheriff's Department. I am here today to 
represent the Peace Officers Research Association of California 
which represents more than 63,000 police officers throughout 
California and Nevada.
    We are the largest statewide public safety organization in 
the country. I am here today to testify about the importance of 
public safety in California and around our country of the 
Department of Justice COPS and Edward Byrne Justice Assistance 
Grant programs.
    I want to do that by providing some real-life examples of 
how the COPS and Byrne-JAG programs have helped deter crime and 
apprehend criminals in California including by keeping officers 
on the street.
    I am not here to lecture about the possible cuts to the 
COPS and the Byrne-JAG programs or to claim that other 
programs, as we just heard, are less worthy of your attention 
and support.
    Our organization simply wishes to provide you with as much 
information as possible about our experiences with real-world 
merits of these programs as you make your decision regarding 
fiscal year 2013.
    Let me start with an example from Los Angeles County. Their 
Byrne-JAG funds are focused on the following elements of LA 
County's Anti Drug Abuse Enforcement Team Program.
    First the clearinghouse electronic surveillance system 
known as CHESS. This system is a full-time wire tap unit within 
the major narcotics division of the LA County District 
Attorney's Office. The unit focuses on high-level drug dealers 
and traffickers.
    Next the Los Angeles regional criminal information 
clearinghouse, CLEAR. This clearinghouse is an intelligence 
gathering entity linked with state and national networks to 
support all law enforcement agencies in Los Angeles counties 
and far beyond in coordinating investigations and targeting 
drug traffic organizations.
    Lastly, the Los Angeles Regional Gang Information Network, 
LARGIN, this network is a multi-jurisdictional project that 
integrates federal, state, and local law enforcement agencies 
and prosecutors for the purpose of enhancing interagency 
coordination, intelligence, investigations related to gangs.
    As you can see, while these anti drug programs are all 
based in Los Angeles, PORAC believes that they have beneficial 
regional, national, and even international effects.
    Moreover, without federal support, it is hard to see how we 
can maintain these efforts given California's ongoing state and 
local fiscal crisis.
    On a smaller scale, California has received $300,000 in 
Byrne-JAG funding for a one-time statewide pilot program for 
the purchase of laser equipment for tattoo removal of gang 
affiliated members who have now changed.
    As for COPS grants, I first would like to mention an 
example from Colton, California near San Bernardino. In 2010, 
COPS hiring grants saved three officers' positions for the 
Colton Police Department which had already had to lay off nine 
officers that year in an area experiencing rapid population 
growth and significantly higher than average crime rate. That 
kind of support helped the Colton Police Department to make the 
best of a very challenging situation.
    And last, similarly, the Sacramento Police Department last 
year was able to save 35 officers out of 41 that had been laid 
off. These positions were gone. They were brought back by the 
COPS Program.
    Simply put, PORAC used the COPS program as a life-saving 
line for fiscally strapped California.
    From talking to our law enforcement colleagues around the 
country, not to mention the people in our communities who we 
serve and protect each day, my fellow PORAC officers and I know 
that the others strongly share that sentiment as well.
    Thank you both very much for your time and if I may answer 
any questions, I would be happy to. I appreciate the privilege 
of speaking in front of you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you for your testimony and taking the time. 
Appreciate it.
    Mr. Fattah. Even though you said you were not attempting to 
persuade us one way or the other, you wanted to give us the 
facts, I think the facts were quite persuasive. Thank you.
    Mr. Durant. Thank you very much for your time.
    Mr. Wolf. Thank you.
    Is Congressman Ramstad here?
    Hi, Jim. How are you? Welcome, Jim.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

            NATIONAL ASSOCIATION OF DRUG COURT PROFESSIONALS


                                WITNESS

JIM RAMSTAD, SENIOR POLICY CONSULTANT--FORMER CONGRESSMAN, NATIONAL 
    ASSOCIATION OF DRUG COURT PROFESSIONALS
    Mr. Ramstad. Thank you, Mr. Chairman, Ranking Member 
Fattah.
    It is nice to see you both again. It is good to be back 
among friends. It is good to be back among friends to talk 
about the most cost-effective and successful justice reform in 
our lifetime as one judge put it. I am referring, of course, to 
drug courts.
    An investment of $40 million for the Drug Court 
Discretionary Grant Program at DOJ will save approximately $134 
million in criminal justice and victimization costs alone 
according to a recent study.
    Another study showed that for every dollar invested in drug 
courts, $27.00 is saved on fewer emergency room visits, other 
healthcare, foster care, and welfare costs, property losses, 
criminal justice, and incarceration costs.
    Law enforcement prosecutors and governors agree that 
substance abuse is a national concern with shared 
responsibilities among federal, state, and local government. 
That is why governors across the Nation, democrats and 
republicans alike, have made drugs courts a priority.
    New Jersey governor Chris Christie who is expanding drug 
courts in New Jersey to serve every nonviolent drug addicted 
offender in his state said recently, and I quote, experience 
has shown that drug courts are two-thirds less expensive than 
prison, two-thirds less expensive than prison, Governor Chris 
Christie said.
    In addition to a proven cost-effective budget solution, 
drug courts promote public safety and address the alarming 
number of addicted veterans returning from Iraq and 
Afghanistan. It is no wonder drug courts have such widespread 
bipartisan support. When was the last time that Al Franken and 
Bill Bennett agreed on anything while both support drug courts?
    Former drug czar Bill Bennett summed it up by saying, 
quote, in drug courts, America has found not only a solution to 
an important public policy problem, it has hit again upon an 
essential truth, the power of personal responsibility and 
accountability.
    Drug courts save lives, reunite broken families, and 
resurrect shattered careers and lost jobs. Remarkably, 
remarkably 75 percent of drug court graduates remain arrest 
free compared to 30 percent of offenders released from prison. 
That study was done over a ten-year period.
    Mr. Chairman, Congress and this committee in particular 
have seen drug courts as a cost-saving and proven public safety 
solution that works. Over 2,600 communities have now 
established drug courts because they work better than 
incarceration and treatment alone for addicted nonviolent 
offenders.
    Drug courts reduce drug abuse and crime more cost 
effectively than any other justice strategy and I would cite 
the GAO study done last year which was quite comprehensive 
reviewing all of the research in the area.
    But, once again, Mr. Chairman, the Administration has 
unfortunately proposed combined funding for drug courts with an 
unauthorized problem solving court initiative. With all 
respect, the Administration, I believe, is turning a blind eye 
to the evidence and attempting to dilute drug court funding.
    Fortunately this committee and Congress had the wisdom in 
fiscal year 2012 funding to dedicate drug court funding for the 
Drug Court Discretionary Grant Program so our Nation can 
continue to benefit from this proven program.
    Continued federal investments in drug courts coupled with 
state led initiatives are the first step towards serving the 
1,200,000 people in the criminal justice system identified by 
DOJ as being eligible for drug court but unable to gain access.
    Expanding drug courts to reach these 1.2 million nonviolent 
addicted offenders will save over $30 billion a year.
    I want to thank Members of this committee on both sides of 
the aisle for supporting $40 million for drug courts in fiscal 
year 2012 and I respectfully request that you fund drug courts 
at least at the same level in fiscal year 2013.
    Now, I fully realize having served here for 18 years and 
having just recently left, I fully realize the monumental task 
before you with the huge deficit and the mind-boggling debt. 
That is why I ask the fundamental question. How much longer can 
this Nation continue spending $60 billion a year building new 
prison cells, $60 billion a year building more prison cells 
with minimal return on investment compared to drug courts?
    That is also why it is imperative to support drug courts 
and the cost savings they generate.
    Let me close, Mr. Chairman, by telling you how I know that 
drug courts work. I know because I woke up in a jail cell 31 
years ago in Sioux Falls, South Dakota under arrest for 
disorderly conduct, resisting arrest, and failure to vacate the 
premises. It was my last, I am grateful to say, alcoholic 
blackout.
    But for the grace of God and the access I had to treatment, 
I would be dead by now from my alcoholism. Thankfully I had the 
same access to treatment, the same access that drug courts 
provide every single day across America, treatment that saved 
my life and allowed me to serve 28 years in public office and 
stay sober every day for 31 years.
    Thank you, Mr. Chairman, for the privilege of testifying 
before you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you, Jim, I appreciate your testimony, and 
I think you make a very powerful case and it is good to see 
you.
    Mr. Ramstad. Well, it is certainly good to see you and my 
friend Ranking Member Fattah, I appreciate the good work that 
you do and the way you do it in a bipartisan way as much as 
possible, I admire that very much.
    Just one briefly comment further, Mr. Chairman, if I may, 
and I will keep it very brief.
    Unfortunately a group, the Drug Policy Alliance has 
apparently made numerous claims about drug courts before this 
subcommittee that simply are not true, and again, I would 
reference the GAO study last year which refutes much of the 
testimony they submitted.
    So I would ask if it is appropriate for a witness to submit 
for the record a----
    Mr. Wolf. Sure, without objection that would be fine, Jim.
    Mr. Ramstad [continuing]. A position paper from the 
National Association of Drug Court Professionals----
    Mr. Wolf. Sure.
    Mr. Ramstad [continuing]. In opposition to that testimony.
    Mr. Wolf. Sure.
    Mr. Ramstad. Thank you.
    Mr. Fattah. Thank you very much and keep up the good work. 
Always good to see you.
    Mr. Ramstad. Always good to see you. I appreciate your good 
work as well. Thank you.
    Mr. Wolf. Thank you, Jim.
    Mr. Ramstad. Thank you, Mr. Chairman.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Ted Qualli of Big Brothers Big Sisters of 
America. All these Pennsylvania people.
    Mr. Qualli. I was born in South Philadelphia at St. Agnes.
    Mr. Wolf. St. Agnes.
    Mr. Qualli. In the congressman's district.
    Mr. Wolf. I had my tonsils taken out in St. Agnes, and used 
to watch the Mummers Day Parade from the window there. That 
goes right down----
    Mr. Qualli. And sadly my answer to the previous question is 
cheesesteaks and hoagies, guys.
                              ----------                              

                                          Thursday, March 22, 2012.

         BIG BROTHERS BIG SISTERS OF SOUTHEASTERN PENNSYLVANIA


                                WITNESS

TED QUALLI, VICE PRESIDENT, EXTERNAL AFFAIRS AND MARKETING--BIG 
    BROTHERS BIG SISTERS OF SOUTHEASTERN PENNSYLVANIA, BIG BROTHERS BIG 
    SISTERS OF AMERICA
    Mr. Qualli. Thank you, Chairman Wolf and Ranking Member 
Fattah for inviting Big Brothers Big Sisters to testify in 
support of fiscal year 2013 funding for the Office of Juvenile 
Justice and Delinquency Prevention.
    I do work for the Philadelphia agency, but today I am here 
on behalf of the more than 400,000 mentors and mentees--or bigs 
and littles as we call them--in our network of 355 local 
affiliates.
    We are the Nation's only scientific evidence-based 
mentoring program and we have been doing this work for more 
than a century.
    Beyond the human cost mass of incarceration especially in a 
strained economic environment is just not fiscally viable.
    As a Nation we need to take a hard look at how we spend and 
how we invest. We need to reduce the number of individuals 
entering the criminal justice system and that means investing 
in youth development.
    We join with our Act 4 Juvenile Justice Campaign colleagues 
in requesting adequate funding for critical juvenile justice 
and delinquency prevention programs, and we also recognize the 
challenges that Congress has especially this year given the 
discretionary spending caps contained in the Budget Control Act 
of 2011; however, we do urge the committee to continue to be 
thoughtful and invest in prevention and intervention, 
especially in those programs with a proven track record and 
that scientific body of evidence.
    OJJDP's Youth Mentoring Grants Program is an up front and 
forward thinking investment that diverts at-risk and high-risk 
youth away from the criminal justice system. Investing in youth 
mentoring could be considered insignificant when compared to 
the alternative downstream costs of arrests, prosecution, and 
incarceration.
    It requires approximately $88,000 a year to incarcerate a 
juvenile offender, but Big Brothers Big Sisters on the other 
hand needs just $1,220 a year to mentor a child. And while 
states bear the entire cost of that incarceration funds 
appropriated for youth mentoring can and should be used to 
leverage hundreds of millions in private and foundation 
donations, thereby multiplying the effect of public investment.
    With competitively awarded grant funding the Big Brothers 
Big Sisters network launched a three-year juvenile justice 
initiative in fiscal year 2010 to reduce the incidents of 
juvenile crime in under served communities across the country. 
Ten pilot sites were established and I am proud to say that my 
agency was one of them.
    Collectively we are directing Big Brothers Big Sisters 
learning around how to effectively establish relationships with 
the juvenile justice system nationwide. We are studying which 
segments of youth we can most positively impact and effectively 
serve, and we are figuring out how to effectively navigate the 
juvenile justice system as a youth service agency.
    Outcome data and assessments from all ten locations are 
reviewed and researched-based best practices are being 
extracted and broadly applied to the international network.
    We have discovered that some of the specific settings where 
high-risk youth could benefit from our mentoring model, include 
delinquency and dependency courts, probation, schools, 
detention and correction centers.
    In the second phase of this initiative we are enhancing its 
impact with an increased focus on truant youth, especially 
important in Philadelphia, and youth living with military or 
deployed parents.
    The work with my agency and the nine other pilot sites 
continues with an increased emphasis on extracting that truancy 
prevention and intervention best practices so that in the final 
phase we can expand this to all 355 agencies across the 
country.
    The vision for our future work in the juvenile justice 
arena is for our efforts to progress beyond this initiative and 
we aim to become both a preferred alternative to youth 
incarceration as well as a critical prevention-based partner to 
the exceptionally vulnerable youth in the child welfare system.
    Big Brothers Big Sisters network will need to continue to 
develop innovative trainings, research, partnerships, and 
models to accomplish these ambitious goals.
    And so in closing we understand the pressures to reduce the 
scope, the size, and the cost of government, and we urge the 
committee to continue to view juvenile justice programs in 
general and the youth mentoring grants and triable youth 
programs in particular as small investments with big dividends.
    We ask that you keep in mind that the children we are 
mentoring today are the future parents of our grandchildren, 
and if we are to be serious about the long-term fiscal and 
social discuss of our Nation we need to insure the success of 
your children today.
    We thank committee for this opportunity and I am happy to 
answer any questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much. Is St. Agnes still on Broad 
Street?
    Mr. Qualli. It is still on Broad Street, but it is no 
longer delivering babies, I know that much.
    Mr. Wolf. Yeah. Well, the other thing is I think I learned 
to swim at the big brothers in--it was on 22nd----
    Mr. Qualli. Van Pelt.
    Mr. Wolf. No, it was like 22nd and Walnut or--I forget. I 
mean it is blurry now, but it was--anyway.
    No, I know you do a good job, I know it is a good program 
with that. But I thank you for your testimony.
    Mr. Qualli. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. It was probably the Y at 20th and Chestnut.
    Mr. Wolf. No, it wasn't the Y. No, it was a Big Brothers. 
You were probably not----
    Mr. Fattah. The chairman and I have been the very focus you 
mentioned. I can't imagine a more important priority and we 
appreciate the work you do for Brothers and Sisters. Thank you.
    Mr. Qualli. Thank you, sir.
    Mr. Wolf. Thank you very much.
    Mr. Qualli. Thank you.
    Mr. Wolf. Jan Fortney, Conway Human Development Center 
Parent/Guardian Group, and there is another one, you might want 
to come up together, Alan Fortney, Past President. Do all three 
of you want to come up together? And Patricia Borrelli. No. 
Okay, the two. Are you related?
    Mr. Fortney. Yes.
    Mr. Wolf. Okay. Yeah, good. Well, I think you can sit 
together then. Welcome.
    Ms. Fortney. I will go first.
    Mr. Wolf. Okay.
                              ----------                              

                                          Thursday, March 22, 2012.

         CONWAY HUMAN DEVELOPMENT CENTER PARENT/GUARDIAN GROUP


                                WITNESS

JAN FORTNEY, VICE-PRESIDENT, AND ALAN FORTNEY, PAST PRESIDENT, CONWAY 
    HUMAN DEVELOPMENT CENTER PARENT/GUARDIAN GROUP
    Ms. Fortney. I am Jan Fortney, I am the vice president of 
our Conway Human Development Center Parent Group.
    This is my daughter, Kim. She has severe handicapping 
conditions and she is profoundly intellectually disabled. This 
is Kim at 17 months old. This is Kim last week turned 37. She 
is still mentally 17 months old and always will be.
    Kim spent her first 18 years at our home, and at that time 
she seemed to be wanting something different, some independence 
from mom and dad. She didn't want to be at home anymore, which 
broke my heart, but you know, after that time she had gone to 
special camps and all different things, training programs, 
schools. She has been in school since she was 11 months old and 
I have been with her the whole time. So we were like almost 
joined at the hip, you know, just taking care of her life.
    But at that point I made the most difficult decision of my 
life for her to go away from us, and for the past 18 years she 
has had a wonderful living at the Conway Human Development 
Center.
    The Conway Center is an intermediate care facility for 
people with intellectual disabilities. It is Medicaid 
certified, it is licensed, and it is certified by CARF, which 
is an accreditation--nationally known accreditation 
rehabilitation group.
    Kim has thrived at the CHDC. That is her home. She comes 
home and spends time with us weekly, but she wants to go to her 
home. That is her independence. And when I take her through the 
door she is like bye mom, you know, this is my house, you know.
    She goes to class, she is very active, she goes to the gym, 
the pool, church, she even takes some horseback riding therapy 
each week. Kim is very physically involved so that is a hard 
thing for them to be able to do, but this is her home and she 
loves it and she is more active than she could be if she were 
with me.
    I have taken great offense to the Department of Justice's 
aggressive efforts to close my daughter's home. For eight years 
we worried and cried and prayed that the justice would come and 
it did. They were vindicated and Arkansas prevailed in that 
lawsuit against DOJ.
    But I can tell you that I sat through that courtroom and I 
did not testify, but I could have, I was called to testify if 
need be. As you can see it is probably a good thing I didn't. 
But I sat through that courtroom day after day, and the 
multitude of lawyers, there were 15 lawyers from DOJ that day, 
the very first day to our four lawyers that defended our state 
center.
    It was grueling, the attorneys were very disrespectful. Two 
DOJ attorneys actually passed notes, laughed, and giggled at 
one of the people that testified, and it disrupted her 
testimony. She began to cry, they had to stop court.
    I just can't tell you how arrogant and embarrassing to 
watch that was for our federal government to come in and act 
that way and be there under the presumption that they knew what 
was best for my child.
    The Olmstead decision says that Kim has the right to live 
where she wants to live, and I have checked out so many 
different community programs over the years, I have not lived 
with my head stuck in the sand. She has--there is no 
comparison. There is no comparison for her.
    So my request for you today would be to help DOJ not have 
their strong arm swinging around this nation trying to tell us 
what we need to do.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well, what we will do is--did you want to 
comment?--I don't know that you have to, it is up to you, but 
what we are going to do is we are going to get your testimony 
and now we will put two of them together. We will ask the staff 
to have a meeting with the Justice Department, and I don't know 
if you all would like to come to the meeting or not.
    Ms. Fortney. We have been requesting to meet with----
    Mr. Wolf. Well, we will set up a meeting----
    Ms. Fortney [continuing]. The President.
    Mr. Wolf [continuing]. For the three of you. Well, I don't 
know that we can get you--and I am not sure that that will 
either going to hurt one way or the other, but I think we can 
work together, Mr. Fattah, if you can, and get maybe the 
Justice Department----
    Mr. Fattah. When was this case first filed against the 
State of Arkansas?
    Mr. Fortney. It was filed in January 2009. They started 
investigating the center.
    Mr. Fattah. Do you know what day in January?
    Ms. Fortney. The 16th.
    Mr. Fattah. The 16th. Who was the president of the United 
States at that time?
    Mr. Wolf. Well, I am not trying to----
    Mr. Fattah. We are not into politics, this is outrageous.
    Mr. Wolf. Yeah.
    Mr. Fattah. This suit was filed, we agree with you, all 
right. So just so we are clear about the politics, this is not 
about politics, this is about appropriate placement for young 
people.
    Mr. Fortney. That is correct.
    Mr. Fattah. And I agree with you, that the issues here rise 
to a level where we should find out why this effort was 
brought.
    Ms. Fortney. Abuse of power, really.
    Mr. Fattah. Absolutely.
    Ms. Fortney. Abuse of power.
    Mr. Fattah. But let us leave the President out of this, all 
right? Thank you.
    Ms. Fortney. Oh, well, yes. I don't----
    Mr. Wolf. No, I don't think she--I think she met it as an 
appointment.
    Ms. Fortney. Oh, no, no, no, we have been wanting to meet 
with----
    Mr. Wolf. Yeah.
    Ms. Fortney [continuing]. The administration to talk about 
our concerns.
    Mr. Fattah. The chairman and I agree.
    Ms. Fortney. Yeah.
    Mr. Fattah. We are going to try to get to the bottom of 
this. All right? Thank you.
    Mr. Wolf. Now if you can sort of give your--are you the 
same? You are the same, yeah. You should give it to Colin and 
then are you willing to come back into town?
    Ms. Fortney. We can, yes.
    Mr. Wolf. Well, I mean I don't want to put you to a lot of 
trouble. We will meet with them. It may be helpful. Again, I 
don't want to make you have to spend the money. You think about 
it and let us know. If one of you were there with--at the 
meeting, but we will get all three of the testimony and we will 
bring them up here working with Mr. Fattah and then we will try 
to get some conclusions to this. But I really appreciate the 
three of you coming.
    Mr. Fortney. I was actually deposed for three and a half 
hours by the Department of Justice for that lawsuit.
    Mr. Wolf. Yeah.
    Mr. Fortney. I gave them all of our information and they 
just simply ignored the parents.
    Mr. Wolf. Yeah.
    Mr. Fortney. They acted like we were stupid and didn't know 
what we were doing.
    Mr. Wolf. Well, we would like to--just give it to Colin and 
then we will call you, one of you. What one should we call?
    Ms. Fortney. It doesn't matter.
    Mr. Wolf. And then give you an opportunity, if you would 
like to come to the meeting, but we will set up a meeting and 
have the staff and I will go too with the Justice Department. I 
think it might be helpful if one of you were there, but if you 
weren't we can still pursue it.
    But thank you for taking the time.
    Ms. Fortney. We just don't want them to continually get 
more money. They are wanting 50 more----
    Mr. Wolf. No, I--believe me, we understand, and I think you 
make a very, very----
    Mr. Fortney. The latest lawsuit that was filed was in 
Virginia.
    Mr. Wolf. Yeah, really? Well, I didn't know about that, but 
we will look into that. But I just think we just don't want----
    Mr. Fortney. Right.
    Mr. Wolf [continuing]. But I am glad you took the time to 
come.
    Mr. Fortney. The latest one in Virginia is to close down 
four out of their five centers.
    Mr. Wolf. Right.
    Ms. Fortney. They are entering the settlement agreements on 
the same day they are filing lawsuits.
    Mr. Wolf. We will look into it, I assure you. Believe me. 
You have sensitized us to a very important issue, which I did 
not know about.
    Thank you very much.
    Ms. Fortney. Thank you.
    Mr. Wolf. Thanks.
    Ms. Fortney. Appreciate your time very much.
    Mr. Wolf. Sure, go ahead. Is it the same issue?
    Mr. Fortney. Yes.
    Mr. Wolf. Yeah. I think----
    Mr. Fortney. It was a little different part of it, but that 
is--it is a same.
    Mr. Wolf. Yeah, we are going to read it. Yeah, we are going 
to----
    Mr. Fortney. Okay.
    Mr. Wolf. You have our attention. I mean if you want to, 
fine----
    Mr. Fortney. Thank you.
    Mr. Wolf [continuing]. But I think we can just move on. 
Okay. Can you give Colin how we can reach you----
    Mr. Fortney. Absolutely.
    Mr. Wolf [continuing]. And we will try to do this 
relatively soon.
    Mr. Fortney. Thank you very much.
    Ms. Fortney. Thank you all very much.
    Mr. Wolf. In fact maybe, I don't know when are you leaving 
to go back?
    Ms. Fortney. I am not leaving until Monday.
    Mr. Wolf. Well, maybe you can call Justice and see if there 
is an opportunity for later on today when they are still here. 
Yeah, why don't you call. Somebody call down to Justice and 
see. Yeah. Maybe we can work it out this afternoon.
    Mr. Fortney. That would be great.
    Mr. Wolf. Okay, thank you.
    Next, Patricia Borrelli, Regional Information Sharing 
Systems. Your full statement will be in the record.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                  REGIONAL INFORMATION SHARING SYSTEMS


                                WITNESS

PATRICIA A. BORRELLI, CHAIR, REGIONAL INFORMATION SHARING SYSTEMS 
    (RISS) NATIONAL POLICY GROUP
    Ms. Borrelli. Good morning, Chairman Wolf and Ranking 
Member Fattah, I appreciate the opportunity to appear before 
you to discuss the Regional Information Sharing Systems or RISS 
Program.
    RISS is a proven, trusted, and innovative program that 
supports thousands of local, state, federal, and triable 
criminal justice agencies in their effort to successfully 
resolve criminal investigations and insure officer safety.
    Recently a West Virginia sheriff's office representative 
said, ``RISS is the most important working tool for law 
enforcement to combat criminal activity and terrorism.''
    RISS has spent nearly 40 years building a valuable and cost 
effective program that is used and trusted by hundreds of 
thousands of criminal justice professionals.
    RISS offers full service delivery from the beginning of an 
investigation to the ultimate prosecution and conviction of 
criminals. Without RISS's information sharing and investigative 
support services thousands of law enforcement agencies and 
hundreds of investigations would suffer.
    Since 2000 RISS has assisted in training more than 668,000 
officers, loaned almost 57,000 pieces of investigative 
equipment, and produced more than 290,000 analytical products. 
These statistics show RISS's impact, but the real success 
stories come directly from agencies in your jurisdictions.
    For example, a Virginia police department contacted RISS to 
assist in a first-degree murder and abduction case. RISS's 
analytical products helped convict the defendant who received a 
31-year sentence.
    A Kansas sheriff's office used RISS surveillance equipment 
to assist in a narcotic investigation. Three marijuana grows 
valued at $10 million were seized, and two individuals were 
arrested.
    These successes are happening across the country every day.
    RISS operates RISSNET, a secure law enforcement information 
sharing network and cloud provider. Agencies can easily connect 
to RISSNET, share information and intelligence in a secure 
environment, and query multiple systems simultaneously through 
a federated search. Currently 86 systems are connected or 
pending connection to RISSNET, and more than 400 resources are 
available via RISSNET to authorized users. The owners of those 
resources rely on RISS for its secure infrastructure. Users 
made more than 70 million transactions using RISSNET in 2011 
alone.
    Our Nation's public safety mission requires an 
interoperable information sharing environment to proactively 
solve crimes and protect our hometowns and homeland.
    RISSNET is one of four sensitive, but unclassified networks 
participating in the assured SBU, interoperability initiative 
under the White House and the office of the program manager 
information sharing environment.
    RISS represents the voice of local and state law 
enforcement in this initiative which will enable single sign on 
capabilities among partnering systems.
    In 2008 RISS deployed RISS SAFE, the only comprehensive and 
nationwide office safety deconfliction system that is 
accessible on a 24/7, 365 basis and is available to all law 
enforcement agencies. It is impossible to put a cost to the 
number of officers RISS SAFE has already prevented from harm or 
worse yet death.
    RISS SAFE and the RISS officer safety website are two 
important components of the United States Attorney General's 
law enforcement officer safety initiative.
    RISS partners with numerous nationwide programs and it has 
experienced successful partnerships with fusion centers across 
the country such as Alaska, Pennsylvania, and Vermont.
    Since 2000 agencies utilizing RISS made more than 57,000 
arrests and seized more than 942 million in narcotics, 
property, and currency.
    RISS is an excellent return on investment for our Nation.
    In fiscal year 2012 the RISS appropriation was severely 
decreased from $45 million to $27 million. Inadequate funding 
for RISS will hinder investigative efforts, may cost lives, and 
will impact the safety of our communities and our Nation.
    It is critical that fiscal year 2013 funding for RISS be 
restored to $45 million.
    I would like to end with a quote from a Pennsylvania police 
officer. RISS offers services and support that law enforcement 
cannot obtain anywhere else. Analytical products, equipment 
loans, and training are important tools for law enforcement. 
Productivity to RISSNET is absolutely critical to solving 
multi-jurisdictional crimes.
    On behalf of RISS I appreciate the support of this 
committee and thank you for the opportunity to present 
testimony.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Great. Thank you very much for your testimony.
    Mr. Schiff.
    Mr. Schiff. I don't have any questions.
    Mr. Wolf. Great. Okay. Thank you very much.
    Ms. Borrelli. I also have Pennsylvania roots, Southwest 
Pennsylvania.
    Mr. Wolf. Okay.
    Ms. Borrelli. Philadelphia I should say, Southwest 
Philadelphia, NBS Parrish.
    Mr. Wolf. Okay. Where in Southwest Philadelphia?
    Ms. Borrelli. 59th and Belmar.
    Mr. Wolf. I was 70th and Elmwood in Woodland.
    Ms. Borrelli. Oh, we are very close.
    Mr. Wolf. This is a Philadelphia crowd. Although I do 
represent Virginia now, so--which is the first state, and of 
course the best President we have ever had is on the head of 
Mr. Hyland's cane, George Washington, and we have a bill that 
we are moving through the Congress to celebrate George 
Washington's birthday on his real birthday. Would you celebrate 
your birthday on your real day----
    Ms. Borrelli. I do.
    Mr. Wolf [continuing]. Or the Monday after the third week 
in--do you pick the real day?
    Ms. Borrelli. Well, my oldest son was born on Presidents' 
Day, but that day changes, so.
    Mr. Wolf. But it is not Presidents' Day, it has never been 
Presidents' Day. They have called it--it is George Washington's 
birthday, but we are going to move it from--so your son, was he 
born on the 22nd?
    Ms. Borrelli. He was born on February 15th.
    Mr. Wolf. Oh, well now we are moving it to the 22nd, so you 
are going to--thank you for your testimony.
    Ms. Borrelli. Thank you, Chairman Wolf.
    Mr. Wolf. Okay.
    Ms. Borrelli. I also want to recognize that you had visited 
the McGlocklin Center.
    Mr. Wolf. Yes, I did.
    Ms. Borrelli. Several years back.
    Mr. Wolf. Yes, I did.
    Ms. Borrelli. I am the director of McGlocklin and I welcome 
you back to visit.
    Mr. Wolf. Thank you.
    Ms. Borrelli. Thank you.
    Mr. Wolf. Thank you. In Greater Bucks County if I recall.
    Ms. Borrelli. That is right.
    Mr. Wolf. That is right. Great.
    Hey Gerry, welcome, Supervisor Hyland from Fairfax County. 
Welcome, Gerry. And I see you do have George Washington there. 
You represent Mt. Vernon.
    Mr. Hyland. Yes, I do, Mr. Chairman.
    Mr. Chairman, Ranking Member Fattah, and other members of 
the committee, sitting for the hearing I was trying to figure 
out what my connection to Pennsylvania would be, and NACO is 
holding its annual meeting in Pittsburgh this year, so that is 
my only connection to----
    Mr. Wolf. Well, for the record I am a Virginian. And so 
those of us who came here without being born here--so I tell 
people who are here, I actually fell in love with Virginia and 
came here, so I selected Virginia. I love Pennsylvania, but I 
selected Virginia.
    Go ahead, Jerry.
    Mr. Hyland. Well, we are happy to have you come here to 
Virginia, Mr. Chairman.
    Mr. Wolf. Okay.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                        FAIRFAX COUNTY, VIRGINIA


                                WITNESS

GERALD W. HYLAND, SUPERVISOR, FAIRFAX COUNTY, VIRGINIA
    Mr. Hyland. Thank you for the opportunity to testify today 
to discuss fiscal year 2013 appropriations for the Department 
of Justice.
    On behalf of the National Association of Counties, NACO, we 
thank you for your leadership in addressing public safety 
issues in our communities throughout the United States.
    We particularly commend Chairman Wolf and Ranking Member 
Fattah for your bipartisan cooperation in helping our Nation 
create a smarter more effective criminal and juvenile justice 
system.
    I would also thank Chairman Wolf who represents my 
locality, Fairfax County, Virginia, for his help in supporting 
our many gang-related issues that are priorities in Fairfax 
County in Northern Virginia.
    I have submitted a longer written statement that addresses 
many of the public safety programs so essential to our Nation's 
communities, but today I would like to highlight two of these 
programs to illustrate their importance by discussing how we 
have been able to use federal funding in Fairfax County to 
improve outcomes for our at-risk youth, the Title II Formula 
Grants and Juvenile Accountability Block Grant.
    Concerning the Juvenile Justice and Delinquency Protection 
Act Title II Formula Grants Program, NACO is requesting a $37 
million increase for this important program. In Fairfax County, 
Title II funding has allowed us to implement innovative 
research-based programming, and while Title II funding has 
supported the development of numerous programs in Fairfax 
County, the most recent is our Evening Reporting Center which 
is located in the southern portion of Fairfax County, which 
includes the Mt. Vernon district which I represent.
    This program provides highly structured and well supervised 
group activities during the high risk time of day between 3 
p.m. and 7 p.m. It helps kids develop skills to support 
positive behaviors and encourages community service 
opportunities.
    At a cost of approximately $42 per day per child the 
program provides a community-based alternative for kids who 
might otherwise be in detention at a much higher cost of $270 
per day pending court action for violations or crimes committed 
while on probation.
    Fairfax County was awarded federal funding through a five-
year competitive grant to establish the Evening Reporting 
Center. The good news is is that during the grant period which 
ended in 2011 the Evening Reporting Center kept 250 youth out 
of detention. The even better news is is that approximately 90 
percent of these kids had no additional charges while 
participating in the ERC.
    I am pleased to report that programs like these do work and 
can make a difference in the lives of these children and in our 
communities where they live.
    Additional federal funding could increase the availability 
of such grants, it could help us to expand this successful 
program through other field probation offices.
    Second, concerning the Juvenile Accountability Block Grant 
Program, NACO is requesting level funding at $30 million for 
this program.
    Fairfax County has received a JABG allocation since 1999, 
and to 2005 these funds were used to establish and operate our 
intensive supervision program.
    This program provided intensive surveillance of high-risk 
youth on probation or parole in order to hold them accountable 
for their behavior while also protecting public safety. It was 
started as a way to keep young people in their community and 
out of detention facilities by using early intervention 
strategies.
    The staff would conduct unannounced face-to-face visits on 
evenings and weekends. Second, they administer frequent alcohol 
and drug tests. Three, they monitor curfews and special 
conditions of probation. Four, provide immediate sanctions for 
infractions. And five, contact parents at least three out of 
every seven days.
    Unfortunately this program was closed when the funding was 
reduced by 47 percent. This is a particularly discouraging 
loss.
    By 2003 we had served more than 300 juveniles and at that 
time more than 63 percent of cases on average were closed 
successfully meaning that the youth were not readmitted due to 
parole violations or new violations.
    It is important to understand that these were juveniles 
with criminal backgrounds determined to be high risk for 
reoffending, and without this program many of them without 
likely have been readmitted to a detention facility.
    Only recently the county has been able to restart this 
program with local funds, and any federal funding would help us 
to continue to move in the right direction improving outcomes 
for these at-risk kids while improving the safety of our 
communities.
    Finally, Mr. Chairman, NACO appreciates how difficult it 
will be for the subcommittee to prioritize the numerous 
important programs under your jurisdiction particularly in 
light of our Nation's ongoing fiscal challenges; however, the 
funding streams I have discussed today are critical to county 
governments nationwide and they help fight and reduce crime in 
criminal gang activity. This is essential as we seek to safely 
lower jail populations, decrease recidivism rates, combat drug 
trafficking, and improve public safety while providing 
prevention, treatment, and alternatives to incarceration where 
possible.
    Finally on a personal note, Mr. Chairman, I have been a 
local elected official for 25 years, and during that time I 
have repeatedly received letters, including information on 
subjects in which I have an interest, such as the Chesapeake 
Bay, the environment, and other issues concerning local 
government. I received those letters from a member of Congress 
in whose district I do not reside, and publicly I want to thank 
you, Mr. Chairman, because you are the member of Congress who 
has sent letters to me over these 25 years making sure that I 
was aware of items occurring at the federal level that would 
concern me as an elected official, and I want to publicly thank 
you for being so concerned and caring in terms of helping us 
represent our constituents.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well, thank you, Gerry, I appreciate your 
comments, and thank you for taking the time to testify. I 
appreciate it.
    Mr. Hyland. And one final note.
    Congressman Fattah is not here, but I want to thank him for 
his working with the large urban county caucus of NACO 
representing the largest counties in the country. He is been 
very instrumental in assisting us with federal issues.
    Mr. Wolf. Well, thank you. Mr. Schiff.
    Mr. Hyland. Thank you very much, Mr. Chairman.
    Mr. Schiff. Thank you, Mr. Chairman. I just want to thank 
you for your good work with at-risk youth and to let you know 
the first time I appeared in this subcommittee was as a witness 
like yourself with Mr. Wolf chairing and talking about many of 
the same issues in terms of trying to keep our young people out 
of trouble, so I appreciate the work that you are doing.
    Mr. Hyland. Thank you very much.
    Mr. Wolf. Thanks. Thomas Bogdan, President, University 
Corporation for Atmospheric Research.
    Thomas Jorling? Is there any witness out there? But if 
anyone is here let us just move on. Yeah.
    Are any of you--you are just spectators? You want to come 
and be a witness for somebody? Someone we can verify?
    Mr. Slazer. Let us see, my name is Frank Slazer.
    Mr. Wolf. Yeah, I am just teasing. Let us see, where are 
you? Number 12. Great. Welcome to the committee, we appreciate 
it. We are just trying to move on, that way we can save time 
for other people, but thank you.
    Mr. Slazer. Thank you.
    Mr. Wolf. For the record, Frank Slazer, Vice President, 
Space Systems, Aerospace Industries Association of America. 
Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

              AEROSPACE INDUSTRIES ASSOCIATION OF AMERICA


                                WITNESS

FRANK SLAZER, VICE PRESIDENT, SPACE SYSTEMS AND POLICY, AEROSPACE 
    INDUSTRIES ASSOCIATION OF AMERICA
    Mr. Slazer. Thank you very much. Chairman Wolf and Mr. 
Schiff, I appreciate greatly the opportunity to testify before 
the subcommittee today on behalf of the Aerospace Industries 
Association of America.
    We are an organization representing more than 90 percent of 
the U.S. industry that sustains nearly 11 million highly 
skilled jobs.
    I appreciate this opportunity to testify today on behalf of 
critical NASA and NOAA programs in the fiscal year 2013 budget 
request.
    We ask today for your support for the Administration's 
proposed budget of $17.8 billion for NASA and $2 billion for 
NOAA's National Environmental Satellite Data and Information 
Service, NESDIS. These programs are critical to maintaining our 
global leadership in space science, technology, and 
meteorology, directly contributing to your Nation's safety and 
quality of life.
    AIA understands the significant long-term budget pressures 
facing our Nation; however, we cannot solve these problems by 
savagely reducing vital discretionary spending such as NASA.
    AIA believes the current request provides a bare minimum 
for NASA's most critical programs, yet the total request for 
fiscal year 2013 is the same as was appropriated four years ago 
in fiscal year 2009.
    Mr. Chairman, the NASA Authorization Act of 2010 provided a 
comprehensive bipartisan plan to keep NASA on the cutting edge 
of exploration in science.
    AIA believes the fiscal year 2013 appropriation should 
adequately fund all the important programs included in this 
authorization.
    With that in mind, AIA believes the continuing progress in 
the Space Launch System and the Orion Multi-Purpose Crew 
Vehicle is critical to keeping the United States at the leading 
edge of human space flight. The SLS will send human crews and 
cargo to new destinations like the Moon, Mars, and asteroids, 
and Orion will be launched on the SLS as a crew capsule. 
Bringing the SLS and Orion MPCV online will keep U.S. human 
flight space on track towards new frontiers for the first time 
in 30 years.
    AIA supports the continued development of new American 
space flight systems to support the International Space Station 
ending the flow of millions of dollars to Russia while 
simultaneously having the potential to open up new markets. 
NASA's plan is to end U.S. dependence on Russia's Soyuz vehicle 
to trial time astronauts to the ISS with a commercial crew 
program.
    With major construction of the ISS now complete it is time 
we fully utilize the ISS as a premier national lab, one that is 
already pioneering important research on vaccines, molecular 
biology, and energy management research.
    Another critical element of NASA's budget is space science. 
NASA's science programs have been an awe-inspiring success 
story unvailing the mysteries of the universe. NASA's highest 
priority space science project, the James Webb Space Telescope 
is the next great space telescope and built on NASA's Hubble 
legacy.
    We recognize the difficult choices made by the 
Administration in rethink the Mars Exploration Program within 
the planetary science budget and we applaud NASA's approach to 
quickly replan for a new way forward which preserves science as 
the primary goal but also informs future human exploration 
efforts on Mars.
    AIA is hopeful this replan with continue to be guided by 
the decadal survey of the planetary science.
    Mr. Chairman, the environmental observations from space are 
vital to our Nation's health and safety. Today much of our 
prediction and forecasting capability comes from NOAA satellite 
programs which provide critical weather monitoring for all 
Americans.
    AIA supports the full fiscal year 2013 budget request for 
the Geostationary Operational Environmental Satellite-R Series 
goes next year. We are turning the program to its required 
budget profile and preserving the continuity of operations for 
this critical program.
    We also support fully funding the Joint Polar Satellite 
System Program to minimize the risk from a polar orbit coverage 
gap as we transition from the national polar orbiting 
partnership satellite by supporting the planned launch of the 
first JPSS in 2017.
    Finally, Mr. Chairman, I want to share a few thoughts about 
how the budget sequester could impact the civil space program. 
While NASA and industry are creating amazing new space systems 
another budget crisis is starting to develop, one that may 
prove to be even more difficult to resolve during a national 
political election campaign.
    As you know without action by the current president and 
Congress to resolve their deadlock over spending and revenues 
NASA and NOAA's ability to execute their demanding ambitious 
civil space program plans will be imperiled by federal budgets 
sequestered starting on January 2nd, 2013.
    Barring a deficit agreement, last year's Budget Control Act 
requires across the board cuts beginning in January 2013, less 
than 285 days from now. Sequestration is a problem beyond the 
Defense Department.
    CBO estimates that non-defense programs will be cut by 7.8 
percent while the Center for Budget and Policy Priorities 
estimates the cuts to be even higher, 9.1 percent.
    Thank you for this opportunity to provide the views of the 
U.S. Aerospace Industry and I welcome any questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Schiff.
    Mr. Schiff. No questions, Mr. Chairman, thank you.
    Mr. Wolf. Okay, thank you, sir.
    Mr. Slazer. Thank you.
    Mr. Wolf. Since you are the first guy in we will take you 
and we will go in that order.
    Could you tell us your name, please? Tell us your name, 
please.
    Mr. Cohen. Steven Cohen.
    Mr. Wolf. Okay. With Columbia University.
    Mr. Cohen. That is correct.
    Mr. Wolf. Okay. Welcome to the committee.
                              ----------                              

                                          Thursday, March 22, 2012.

                 COLUMBIA UNIVERSITY (EARTH INSTITUTE)


                                WITNESS

DR. STEVEN COHEN, EXECUTIVE DIRECTOR, COLUMBIA UNIVERSITY (EARTH 
    INSTITUTE)
    Mr. Cohen. Thank you.
    Mr. Chairman and members of the subcommittee thank you for 
the opportunity to voice my appreciation for the support this 
body has provided for basic science, particularly in the earth 
and environmental sciences.
    Through NSF, NOAA, and NASA about 75 percent of the total 
funding for basic science in earth and environmental sciences 
comes through this committee, and the results of that 
investment is both life saving and critical for our economy.
    In the 1960's when I was growing up there were three 
billion people on the planet, today there are seven billion 
people. When my 19-year-old daughter is my age there will be 
ten billion people, and the crucial question is, how do we 
extract our needs from this planet without destroying it?
    In an increasingly crowded planet the scale of production 
of everything has grown and the draw on the earth's resources 
has grown, and so if we do not develop an economic system less 
dependent on the one-time use of natural resources then energy, 
water, food, and critical raw materials are going to become 
more and more expensive.
    The development of a sustainable renewable resource-based 
economy is a necessity, and the species that needs this healthy 
ecosystem is not the sea turtle or the polar bear, but the one 
you and I belong to, the human species and the one my children 
belong to.
    To sustain and improve our standard of living here in the 
United States and those of the aspiring middle-class around the 
world we have to create a high throughput economy that manages 
our planet's resources and allows us to maintain the quality of 
our air, water, and land. If we allow those resources to 
degrade we will not be able to use them productively.
    To grow the global economy we need to manage the planet 
more creatively, and it is science that allows us to understand 
it well enough to make that happen.
    An example I give of this sometimes when I teach is here in 
my own city of New York. The water that we get in New York City 
comes from Upstate New York, we don't have to filter it, and we 
don't have to filter it because we have learned enough about 
our ecosystems to protect the water so that we don't have to 
use an expensive filtration system.
    Recently in order to deal with the problem of combined 
sewer overflow the city proposed what is called a green 
infrastructure plan where we are going to do plantings and 
things of that nature instead of building a lot of gray 
infrastructure and we are going to save about a billion and a 
half dollars.
    It is our knowledge of ecology that allows us to do that. 
And so understanding environmental sciences is not a luxury, it 
is not a theory, it actually now translates directly to the 
wealth and the well-being of our city in New York.
    And so the importance of the basic investment in science is 
absolutely essential. We need to learn more and more about the 
planet. Our level of ignorance about some of the fundamental 
facts about how this world works is sometimes startling.
    I am a political scientist, not an environmental scientist, 
and I have had to learn all of this after I got my Ph.D., and I 
have to say that our understanding of the economy and our 
understanding of political processes is actually greater than 
our understanding of how the planet works.
    So I want to thank the committee for the funding that you 
have given to basic science and encourage you to do even more.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you, Doctor, appreciate it.
    Next witness. Who is first? Okay. This was supposed to be a 
gap, but in the interest of time we thought the people--number 
two.
    Are you Mr. Jorling? National Ecological Observatory 
Network. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                NATIONAL ECOLOGICAL OBSERVATORY NETWORK


                                WITNESS

THOMAS JORLING, ACTING CHIEF EXECUTIVE OFFICER, NATIONAL ECOLOGICAL 
    OBSERVATORY NETWORK
    Mr. Jorling. All right, thank you, Mr. Chairman and members 
of the subcommittee, and I am also going to include staff out 
of respect since a very long time ago I served in the staff of 
the other chamber.
    Thank you very much for the opportunity to testify in 
support of the fiscal 2013 NSF budget request which includes 
funding for the National Ecological Observatory Network or 
NEON.
    My name is Tom Jorling and I am the interim CEO of NEON, 
Inc., which is an institution established to implement NEON on 
behalf of the science community and the NSF.
    The concept for NEON was initiated in 1998 by the National 
Science Board's task force on the environment. This was 
followed by a whole series of community workshops in succession 
of a competitive planning grant from NSF and the process 
culminated in a proposal to construct what was to become the 
NEON project.
    There followed a multi-year process involving more than a 
dozen outside expert review panels convened by NSF and these 
successful reviews led to approval by the National Science 
Board, and finally initial construction funding from Congress 
as part of the Major Research Equipment and Facilities 
Construction Program.
    The MREFC account is a vital link in the maintenance of 
this Nation's scientific leadership. It is a disciplined peer 
review process enabling construction of unique and cutting edge 
research infrastructure. The NSF MREFC request for 2013 is $196 
million, essentially level with the 2012 spending plan.
    This funding would support continuing construction of 
several very important research infrastructure projects, 
including NEON, as well as continue the disciplined process of 
planning and oversight that insures efficient and cost 
effective use of federal dollars.
    Acquisition of vital instrumentation and continued 
construction and installation of scientific equipment will 
continue in 2013 along with initial operations.
    When completed the project will fill a void in observing 
systems that collect data on the range of variables needed for 
a complete ecosystem response to environmental stressors; so 
essential if we are to maintain the ecosystems that support 
human and all life.
    We strongly support the NSF fiscal 2013 budget request 
including the MREFC account, not just because of our obvious 
interest, but because the MREFC account is an essential 
component in a national effort to keep scientific 
infrastructure at the leading edge; so vital for advancing 
science and maintaining the U.S. as a leader in understanding 
the natural world and all of the benefits that can flow from 
that understanding.
    Thank you for the opportunity to present these views and I 
will be happy to respond to questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much for your testimony, I 
appreciate it.
    Mr. Schiff.
    Mr. Schiff. No questions, Mr. Chairman.
    Mr. Wolf. Thank you.
    Are either of you witnesses? Okay. Why don't we take--you 
want to tell us who you are?
    Mr. White. What?
    Mr. Wolf. You want to tell us----
    Mr. White. I am Kasey White, Geological Societies of 
America.
    Mr. Wolf. Okay. You are welcome to come around here if you 
want to take a picture of her.
    Mr. White. It is not official unless there is a picture, 
right?
    Mr. Wolf. No, that is right, that is right. No, you can 
come around and take it. Go ahead.
    Mr. White. Thank you very much.
    Mr. Wolf. Sure, go ahead. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                     GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS

KASEY WHITE, DIRECTOR FOR GEOSCIENCE POLICY, GEOLOGICAL SOCIETY OF 
    AMERICA
    Mr. White. Thank you very much, good morning.
    My name is Kasey White and I am the director for Geoscience 
Policy for the Geological Societies of America.
    GSA is the oldest geoscience society in North America, we 
were founded in 1988 and have over 25,000 members from 
academia, government, and industry in all 50 states and more 
that 90 countries.
    I would like to take this opportunity to thank the 
committee for their strong support of NSF, especially Chairman 
Wolf for your recognition on the critical role that NSF plays 
in our future economy.
    We would urge the Congress to appropriate at least the 
President's request of $7.3 billion for NSF. This funding level 
is consistent with the vision to double the NSF budget 
specified in America Competes which recognize that science and 
technology are engines of economic growth, environmental 
quality, and national security.
    I would also encourage the committee to at least fully 
refund the request for the geosciences directorate. The earth 
sciences are a critical component of the overall science and 
technology enterprise and the NSF investment.
    I would like to highlight just a few of the important 
research areas in the geosciences directorate.
    Natural hazards remain a major cause of fatalities and 
economic losses worldwide as evidenced this week by Tuesday's 
earthquake in Mexico. The geologic record demonstrates that 
several areas in the U.S. will continue to experience major 
earthquakes and/or volcanos in the future. An improved 
scientific understanding of these hazards will reduce future 
losses through better forecast of their currents and magnitude 
and allow us to better plan and mitigate in these areas.
    We urge Congress to increase funding for NSF investment in 
fundamental earth science research that stimulate basic 
understanding of these hazards as well as innovations and 
monitoring and warning systems.
    On another subject energy and mineral resources are 
critical to economic growth and national security. To improve 
scientific understanding of these resources will allow for 
their better management and utilization in an environmentally 
sustainable manner.
    The division of earth sciences supports research geared 
toward improving the understanding of the structure composition 
and evolution of the earth and the processes that govern the 
formation behavior of these materials. This research 
contributes to a better understanding of the distribution of 
mineral and energy resources that we can use for future 
exploration and economic growth.
    One particular area of concern due to the concentration of 
materials in China is rare earth minerals, and we would 
encourage federal support for research on these rare earths, 
and NSF has an initiative in the sustainable energy pathways on 
this topic.
    The devastating droughts last year reminded us of our 
dependence on water. Greater scientific understanding is 
necessary to insure adequate and safe water resources for the 
future. NSF has a program solicitation on water sustainability 
and climate that is designed to address major gaps in our 
understanding on water availability, quality, and dynamics, and 
how changing and variable climate activity impact our water 
systems.
    Finally research in our science and education is 
fundamental to training and educating the next generation of 
earth science professionals.
    A recent study entitled status of the geoscience workforce 
2011 by the American Geosciences Institute found that the 
supply of newly trained geoscientists fall short of geoscience 
workforce demand and replacement needs, aggregate job 
projections are expected to increase 35 percent between 2008 
and 2018.
    Increased NSF investments in earth science education at all 
levels is needed both to meet the future demand for earth 
science professionals, but also because knowledge of the 
earth's sciences is essential to science literacy and to 
meeting the environmental and resource challenges of the 21st 
century.
    We support NSF research that improves the way we teach and 
learn about science and NSF's support for student research and 
fellowship opportunities that encourage students to continue in 
the sciences.
    Thank you for the opportunity to testify today.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well, thank you very much for your testimony, I 
appreciate it.
    Mr. Schiff, anything? Thank you.
    Tom Bogdan with University Corporation for Atmospheric 
Research. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

            UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH


                                WITNESS

THOMAS BOGDAN, PRESIDENT, UNIVERSITY CORPORATION FOR ATMOSPHERIC 
    RESEARCH
    Mr. Bogden. Mr. Chairman, on behalf of the University 
Corporation for Atmospheric Research or UCAR, I appreciate this 
opportunity to present this testimony regarding the fiscal year 
2013 funding for the National Science Foundation.
    I am Tom Bogden, President of UCAR, a consortium of over 
100 universities which manages and operates the National Center 
for Atmospheric Research or NCAR on behalf of the National 
Science Foundation.
    As you know research founded by the NSF has indispensable 
basis for two key long-term drivers of our economy. Technology 
development and innovation. However, I have a serious concern 
with the NSF fiscal year 2013 budget request, specifically the 
proposed decrease in funding for the National Center for 
Atmospheric Research within the geosciences directorate.
    We exist to extend the capacity of the university community 
to produce the basic and applied research that enables us to 
understand the behavior of the atmosphere and the earth. For 
example, things that contribute to citizen safety, the 
management of natural resources, agriculture, transportation, 
troop movement, bacteria borne diseases, access to water, and 
indeed even the effects of space weather on the Nation's energy 
communications infrastructure.
    We provide the research infrastructure. Tools such as high 
performance computing, modeling, and research aircraft to 
assist our over 100 member universities in their cutting edge 
science endeavors.
    An investment in NCAR is an investment in the health of our 
Nation through the enhanced research of those over 100 
universities across the country, yet as NSF's budget is 
increased in the President's request NCAR's is decreased by an 
amount that would cause layoffs of up to 10 percent of our 
technical staff.
    I understand that a cut to one laboratory might not seem of 
much consequence when you are truly balancing the Nation's 
multi-billion dollar portfolio, but NCAR scientists and 
facilities serving this country's academic community provide 
end to end results, pay real dividends for our economy and our 
Nation's competitiveness.
    Let me illustrate. This device here that I hold in my hand 
knows where I am. It can tell me if I am in the path of a 
tornado with lead time of say 10 to 30 minutes. It also is able 
to access what is happening around me in terms of traffic, 
congestion, and it can tell me when and where I need to go to 
get out of harms way, and it will only bother me if that 
tornado is going to affect me, so we don't have the false 
alarms that have been so costly for us in Joplin and other 
places.
    In a real sense this is what NCAR is about, harnessing the 
power of science and service to society so that we can save 
lives and protect livelihood.
    Mr. Chairman, given the severe weather challenges 
confronting this Nation as well as the external challenges to 
our status as a global scientific and technological leader this 
is really no time to back off investment in institutions such 
as the National Center for Atmospheric Research.
    I urge the committee to support additional funding for 
NSF's geo directorate to allow the fiscal year of 2013 funding 
of $106.6 million for NCAR.
    I thank you very much for this opportunity to appear before 
you.
    [The information follows:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well, thank you for your testimony, I appreciate 
it.
    Mr. Schiff.
    Thank you. Next, Tom Skalak, University of Virginia. Your 
full statement will appear in the record.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                         UNIVERSITY OF VIRGINIA


                                WITNESS

THOMAS SKALAK, VICE PRESIDENT FOR RESEARCH, UNIVERSITY OF VIRGINIA
    Mr. Skalak. Thank you, Chairman Wolf and members of the 
subcommittee thank you for the opportunity to speak today.
    I offer this testimony on behalf of the University of 
Virginia which sustains the ideal of developing leaders who are 
well prepared to shape the future of this Nation.
    I am also the past president of the America Institute of 
Medical and Biological Engineering which respects over 50,000 
working professionals in one of America's greatest knowledge-
based industries.
    UVA conducts scientific and engineering research that helps 
maintain our national economic strength.
    In 2011 the university received over $240 million in 
federal funding for research, 71 percent of its research 
dollars.
    Because of the importance of this federal funding I urge 
this committee to support the President's requested funding 
levels for federal science agencies in fiscal year 2013, 
including for NSF space technology and aeronautics at NASA and 
manufacturing programs at NSF and in Commerce.
    I also want to urge you to support specifically the 
Hypersonics Program at NASA and flat funding at the fiscal year 
2012 level for NASA science and EDA.
    UVA is aware of the very difficult budgetary decisions 
facing the Congress, and yet I want to emphasize that 
investments in these agencies will help universities make the 
discoveries at the frontiers of knowledge, design new 
technologies that solve national challenges, and power our 
innovation-based economy.
    Last year researchers at UVA received $26 million in NSF 
grants to conduct a variety of research. This includes 
improving our Nation's wireless networks, developing cutting 
edge heating and cools technologies, and revolutionizing tissue 
regeneration of nerves and ligaments which helps our citizens 
as well as returning veterans.
    Funding has also supported efforts to increase the number 
of women and minority students in STEM fields.
    NSF as well is at the forefront of efforts to insure that 
basic research is transformed into products that enhance our 
innovation economy.
    UVA has utilized NSF funding. For example, in my own 
partnership for innovation grant to create improved networks 
between universities and industries in fields such as 
bioengineering, one of the great American industries in which 
exports lead imports by a large margin which enhances 
innovation.
    Independent audits have shown that proof of concept funds 
at UVA leading basic discovery to market applications have led 
to a 7 to 1 return on investment after five years, and a 42 to 
1 return on investment for the top 10 percent of portfolio 
projects. These kinds of returns are hard to get even in 
private sector funds. So universities are really doing the job 
of building the innovation economy for the U.S.
    A new program to support proof of concept research was 
authorized at NIH last year, it was part of the 2011 SBIR 
reauthorization, and we would recommend expansion of proof of 
concept funding at other federal research agencies as well 
because it will help them also catalyze the transition to 
innovation oriented products with similar levels of return on 
the federal investment.
    UVA supports manufacturing programs proposed in the budget 
at NIST, EDA, and NSF to power our manufacturing base. UVA is 
partnering with Virginia Tech and Virginia State University as 
well as with private partners such as Rolls Royce North 
America, Siemens, and Canon to create the Commonwealth Center 
for Advanced Manufacturing.
    Earlier this month, President Obama visited CCAM and 
highlighted it as a model for public private partnerships that 
are needed to spur advanced manufacturing that will bring jobs 
back to the United States.
    I would like to thank you, Chairman Wolf and the committee 
for your championship of the federal science agencies in these 
tough budgetary times, and we urge you to support these 
strategic increases for the science agencies.
    The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. All right, thank you very much for your 
testimony.
    Mr. Schiff.
    Mr. Schiff. I have no questions.
    Mr. Wolf. Great, thank you.
    Mr. Skalak. Thank you.
    Mr. Wolf. Congressman Posey from Florida. Welcome.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                                FLORIDA


                                WITNESS

HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    Mr. Posey. Thank you, Mr. Chairman and ranking member, I 
appreciate the opportunity to come before you and respectfully 
urge you to restore and preserve NASA's core mission, which is 
human space flight.
    Our investments in NASA's Human Space Flight Program are a 
matter of economic and national security. We were reminded of 
this just a few weeks ago when the director of Defense 
Intelligence Agency, General Burgess, highlighted the risk 
posed by China through their investments in human space flight. 
In testifying before the Senate Armed Services Committee he 
said, ``the space program, including ostensible civil projects, 
supports China's growing ability to deny or degrade the space 
assets of potential adversaries and enhances China's 
conventional military capabilities.''
    He went on to add that China has successfully tested a 
direct ascent anti-satellite weapon, ASAT as we call it, and is 
developing jammers and directed energy weapons for ASAT 
missions.
    A prerequisite for ASAT attacks, China's ability to track 
and identify satellites, is enhanced by technologies from 
China's manned and lunar programs as well as technologies and 
methods developed to detect and track space debris.
    You may recall the day after the presidential debate in 
Florida when a couple of the candidates joked about our 
activities in space. They had to literally turn on the motors--
the rockets on the space station and move it out of the way the 
day after they were joking about it to avoid flying space 
debris, which as you know and I know and most of the people in 
this room know came from China taking target practice on its 
own satellites.
    China's military advances are a direct result of China's 
manned and lunar space program.
    And Mr. Chairman and Mr. Schiff, I don't want to beat a 
dead horse, but you know, just again I have to state on the 
record the fact that space is the world's military high ground, 
at least the free world's, it is to the United States in the 
free world what the Golan Heights is to Israel, it is 
potentially the difference between life and death of this 
country and free countries. And China is now on track to launch 
100 satellites between 2011 and 2015. On average China will 
complete about 20 missions a year by 2015. Last year China 
surpassed the United States with 19 satellite missions. We only 
had 18. And China still is only second to Russia who launched 
36. So we are third in the satellite launching business right 
now too.
    For 2012 China is planning 30 launches, including their 
first manned space rendezvous and docking between June and 
August.
    According to China Daily in 2011 China generated $15.8 
billion--$15.8 billion in operating revenue from launching 
satellites alone. That is an amount just shy of our entire NASA 
budget. And that is what you can do without a lot of red tape 
and government interference.
    Abdicating space leadership will compromise our economic 
competitiveness. It can't be overstated how our investments in 
human space flight have helped us economically, on the 
battlefield, and contributed to the endless products that we 
have improved, and improves every aspect of your daily lives.
    As one planetary scientist who supervised the missions of 
the Mars Rovers and now chairs the NASA Advisory Council stated 
in a 2009 interview, ``I am a robot guy, that is what I have 
spent most of my career doing, but I am actually a very strong 
supporter of human space flight. I believe that the most 
successful exploration is going to be carried out by humans, 
not by robots.''
    I appreciate very much your leadership and giving me the 
opportunity to go on record with you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you, Mr. Posey, I appreciate your testimony 
and I appreciate your support for the NASA budget too.
    Mr. Schiff.
    Mr. Schiff. Thanks, Mr. Chairman.
    The only comment I have, and thank you for your testimony, 
is I think both the manned space flight and the robotic 
exploration are very complimentary and sometimes robotic 
missions are a very helpful precursor to the human exploration 
and sometimes they are able to go places where we can't get 
humans to yet, but very much appreciate your testimony and your 
thoughts on the subject and just wanted to add my own.
    Mr. Posey. Yes, and I sure hope I didn't leave the 
impression I don't favor robotic exploration, because I really 
do. I am an enthusiastic supporter. I just don't want us to 
lose our human space flight focus and mission too.
    Mr. Schiff. No, I hear you. Thank you.
    Mr. Posey. Thank you.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Posey.
    We have a series of votes coming up so we are going to try 
to--I will stay, I have about three minutes left.
    Dr. Debra Elmegreen, American Astronomical Society, and 
then I don't know how long the break will be. Yeah, okay. Well, 
I will come back as soon as we can.
                              ----------                              

                                          Thursday, March 22, 2012.

                     AMERICAN ASTRONOMICAL SOCIETY


                                WITNESS

DR. DEBRA ELMEGREEN, PRESIDENT, AMERICAN ASTRONOMICAL SOCIETY
    Ms. Elmegreen. Chairman Wolf and Representative Schiff, 
thank you for the opportunity to comment on astronomy in the 
fiscal year 2013 budget.
    I am Debra Elmegreen, President of the American 
Astronomical Society and Maria Mitchell Professor of Astronomy 
at Vassar College.
    The AAS, the world's largest organization for professional 
astronomers supports the NSF and NASA's astronomy budget 
request while noting concern for NASA's planetary science 
division.
    The American Astronomical Society lauds the federal 
commitment to STEM research.
    For decades the U.S. has been preeminent in research of the 
sun, solar system, and universe. Healthy research and analysis 
in technology development budgets in NASA and NSF plus a 
balance among small, medium, and large projects as recommended 
in the heliophysics planetary and astronomy and astrophysics 
decadal surveys are critical to sustain a vibrant astronomical 
community that fuels our Nation's economic, scientific, and 
technological well being.
    Support for astronomy provides inspiration to the public 
and America's next scientists, engineers, and educators--from 
Nobel prize winning Hubble Space telescope discoveries of the 
universe's acceleration, detection of thousands of planets 
orbiting other stars, the Mars Science Laboratory robotic 
mission, and the solar dynamic observatory studying the sun's 
variability.
    We thank Congress and the Administration for funding NASA's 
James Webb Space Telescope, a 2001 top decadal priority. With a 
reach 100 times greater than Hubble, JWST will revolutionize 
our understanding of newly forming planets, black holes, and 
the first stars in galaxies less than a billion years after the 
big bang.
    The AAS is deeply concerned that the significant cuts to 
NASA's planetary science division will preclude development of 
large projects in the planetary sciences decadal survey, 
curtail planned international collaborations, and threaten 
national leadership in planetary research at all levels.
    Some key science goals can only be addressed through large 
missions as underscored by Hubble's paradigm shifting 
discoveries. Future Mars missions are on hold and the Wide 
Field Infrared Telescope is delayed.
    We urge Congress to support the balance of NASA activities 
by ensuring an affordable progression of large missions across 
the planetary science, astrophysics, and heliophysics 
divisions.
    We stress the importance of a regular launch cadence of the 
high priority and highly successful medium class planetary 
discovery in new frontiers missions in astrophysics and 
heliophysics explorers which are vital to development knowledge 
and new mission concepts and train young scientists and 
instrument builders.
    We appreciate support in NASA's technology program for the 
critical restart production of Plutonium-238 which is the only 
energy source to powering deep space missions such as Cassini 
Saturn.
    We support the increases to NSF's astronomical sciences and 
related programs while noting that new starts on astronomy 
decadal priorities will be difficult with the current budget.
    We appreciate funds for planning the top priority large and 
optical survey telescope which will rapidly scan the sky and 
detect near-Earth asteroids, image billions of stars and 
galaxies, and map the universe's acceleration. Its nightly data 
rate of 10,000 gigabytes will drive innovations in high-tech 
data mining.
    A strong major research equipment and facilities 
construction line is critical to enable projects such as LSST 
to follow previous top projects, probing disforming planets 
around sun-like stars and gas in distant young galaxies, and 
the world's largest advanced technology solar telescope to 
study magnetic fields that can impact earth and orbiting 
spacecraft.
    A mid scale innovations program augmentation is also 
important to enable highly ranked projects such as the 
revolutionary CKAT telescope that will complement surveys of 
dusty regions in protostars, stars and galaxies.
    Publicly funded programs help us develop and operate world-
class facilities, support research, and enhance our 
understanding of the universe, enable us to educate and inspire 
students and fellow citizens, and maintain U.S. leadership in 
science, engineering, and technology.
    We thank you and your committee for your bipartisan 
leadership and your strong support of science. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. All right, thank you very much for your great 
testimony, I appreciate it.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Ms. Elmegreen. Thank you.
    Mr. Wolf. I think we are down to five minutes. We are going 
to recess and hopefully come back. I don't think it is to be 
that long. You will be able to see, but hopefully we will be 
back. But we will recess and be back shortly.
    (Recess)
    Mr. Wolf. And we are going to have another vote, so we are 
going to--the faster we can because we are going to be bouncing 
back and forth.
    Go ahead, Doctor, your full statement will appear in the 
record.
                              ----------                              

                                          Thursday, March 22, 2012.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

DR. STEVEN J. BRECKLER, EXECUTIVE DIRECTOR FOR SCIENCE, AMERICAN 
    PSYCHOLOGICAL ASSOCIATION
    Mr. Breckler. Thank you, Mr. Chairman.
    My name is Steve Breckler, I am Executive Director for 
Science at the American Psychological Association.
    APA is a scientific and professional organization of more 
than 154,000 psychologists and affiliates.
    Psychologists across the Nation play vital roles in 
supporting the missions of the National Science Foundation, the 
National Aeronautics and Space Administration, and the 
Department of Justice.
    As scientists and as practitioners psychologists support 
the creation, communication, application of knowledge to 
benefit society and to improve people's lives.
    I would like to address the proposed fiscal year 2013 
research budgets for NSF, NASA, and DOJ, but first I want to 
thank you on behalf of our science community for your strong 
and unwavering championing of NSF in particular during a very 
difficult appropriations process in fiscal year 2012. Your 
stewardship and commitment were extraordinary.
    APA recommends that the subcommittee support the 
President's fiscal year 2013 request of $7.37 billion for NSF. 
As you know NSF is the only federal agency whose primary 
mission is to support basic research in education in 
mathematics, engineering, and science, including the behavorial 
and social sciences.
    NSF's investment in basic research across these disciplines 
has produced astonishing scientific and technological progess 
ensuring continued economic growth, improvements in the design, 
implementation, and evaluation of public education, 
strengthening national security, and the creation of new 
knowledge.
    We applaud the Administration and Congress for your 
continued commitment for NSF in fiscal year 2013.
    Science is needed to address critical national challenges 
and many of those challenges require a better understanding of 
human behavior. This is why APA supports a strong investment in 
psychological research across the research in education 
directorates of NSF.
    The America COMPETES Act specifically noted the importance 
of funding the social sciences and this must be reflected in an 
increase for NSF's behavioral and social science research 
portfolio that is comparable to proposed increases for other 
sciences supported by NSF.
    APA recommends funding NASA at the President's fiscal year 
2013 request of $17.7 billion. This will allow for continued 
growth of the human research program and the expansion of human 
factors research within the aviation safety and integrated 
systems research programs.
    Psychological research has played a critical role in the 
evolution of the human research program within the human 
exploration and operations mission directorate and the aviation 
safety and integrated systems research programs of the 
aeronautics research mission directorate. These research 
programs have produced knowledge crucial to mission success and 
for improving both the safety and the efficiency of our current 
and future aerospace systems.
    Longer space missions place increasing demands on 
psychological health and performance in space. Psychological 
scientists are meeting these challenges head on by extending 
the information management capacity of individuals through 
computational systems, systems that can sense when the user is 
overloaded or determine what needs to be done next and to 
automatically adjust. Such systems improve human decision 
making and allow people to function in extremely challenging 
environments such as space flight.
    The need for science-based practical principles to enhance 
systems is deserving of a continued investment in research.
    And APA recommends the subcommittee include adequate 
funding for the Juvenile Justice and Delinquency Prevention Act 
or JJDPA. This includes $80 million for the Title II State 
Formula Grants Program, $65 million for the Title V Delinquency 
Prevention Program, and $30 million for the Juvenile 
Accountability Block Grant.
    Federal investments in state juvenile justice efforts are 
essential for youth and community safety, yet appropriations 
for JJDPA programs have declined by more than 50 percent and 
are now at their lowest levels in more than ten years. Funding 
must be sufficient to ensure that states can comply with 
federal mandates and invest in cost effective reforms.
    Mr. Chairman, the restoration of the Title II Grant for 
Virginia would constitute the only funds in your state to make 
sure that juveniles are protected in the justice system in 
compliance with JJDPA.
    Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much. I have no questions.
    Mr. Breckler. Thank you.
    Mr. Wolf. Thank you, I appreciate it. Judith Bond, 
Federation of American Societies for Experimental Biology. Ms. 
Bond, welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

       FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL BIOLOGY


                                WITNESS

JUDITH S. BOND, PHD, PRESIDENT-ELECT, FEDERATION OF AMERICAN SOCIETIES 
    FOR EXPERIMENTAL BIOLOGY
    Ms. Bond. Chairman Wolf, members of the subcommittee, thank 
you for the opportunity to testify.
    My name is Judith Bond, for the last 20 years I have been 
professor and chair of biochemistry and molecular biology at 
Penn State University's College of Medicine in Hershey, 
Pennsylvania.
    I am here today in my role as the president-elect of the 
Federation of American Societies for Experimental Biology, 
FASEB, an organization representing 26 biomedical research 
societies with a combined membership of over 100,000 individual 
scientists and engineers.
    On their behalf I request the fiscal year 2013 budget of at 
least $7.3 billion for the NSF. This funding level matches the 
recommendation made by the President's fiscal year 2013 budget 
request.
    Our broader goal is to support sustainable growth and 
funding trajectory requested of the American COMPETES 
reauthorization.
    At a time when the U.S. faces many challenges scientific 
and technological advances are key to keeping our Nation 
globally competitive and protecting our standard of living.
    The broad portfolio of fundamental research supported by 
NSF expands the frontiers of knowledge, fuels future 
innovation, and creates a well-developed research 
infrastructure capable of supporting groundbreaking projects.
    NSF research is a primary source of scientific 
breakthroughs and the agency makes the kind of investment that 
no individual or private business could afford to make. If the 
public did not support it it would not be done.
    Failure to build on prior investments in NSF would slow the 
pace of discovery, sacrifice our position as the global leader 
in innovation, and discourage young scientists and engineers.
    Strong sustained NSF appropriations enable the research and 
training crucial to the future success and prosperity of the 
United States.
    Research in the life sciences is tremendously enriched by 
discoveries in physics, mathematics, chemistry, and 
engineering, fields supported by NSF.
    NSF sponsors 40 percent of the federally-funded basic 
academic research in the physical sciences, it also serves as 
the primary funding agency for research and discipline such as 
computer science, non-health related biology, and social 
sciences.
    I am proud to say that my first source of external funding 
was in an NSF grant, it started me off.
    NSF grants awarded to projects of the highest quality and 
greatest significance in all 50 states are selected using 
rigorous merit review processes that evaluates proposals on 
both scientific and societal value.
    For example, one recent NSF project utilized mathematics in 
computer modeling to improve structure characteristics of 
stints used to treat coronary artery disease.
    In addition to the innovative research NSF supports 
education and training initiatives to insure the development of 
a workforce well prepared to advance knowledge and achieve new 
breakthroughs in science and engineering.
    As someone who has mentored over 40 researchers and 
strongly believes in the importance of training the next 
generation of scientists I deeply value NSF's critical mission 
to strengthen science, technology, engineering, and mathematics 
education nationwide.
    Thank you for the opportunity to offer FASEB's support for 
NSF.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Thank you for your testimony. My only question 
is, if somebody were to say ``we are'', what would you say?
    Ms. Bond. Penn State.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you for your appearance.
    Ms. Bond. Thank you.
    Mr. Wolf. Thank you very much.
    Congressman Lipinski, you want to come in? And then I am 
going to let you take over.
    Mr. Schiff [presiding]. Good morning.
    Mr. Lipinski. Good morning.
    Mr. Schiff. Thanks for joining us. Feel free to go ahead.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                                ILLINOIS


                                WITNESS

HON. DANIEL LIPINSKI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Lipinski. Thank you.
    I want to thank the subcommittee for allowing me to speak 
today about leveraging the federal government's investment in 
basic research to boost economic growth and job creation.
    Before I start I want to thank everyone on the 
subcommittee, I know Chairman Wolf led the charge on this to 
include report language in last year's final CJS appropriations 
bill requiring the Commerce Department to update its 2004 
national manufacturing strategy. This is a topic I have been 
working on for some time because America needs a comprehensive 
plan for supporting manufacturing.
    Today I would like to highlight two programs at the 
National Science Foundation that deal with innovation and 
manufacturing.
    The first is the Innovation Corps, or iCorps, which is 
helping academic scientists who have received NSF grants to 
commercialize their technology. The total cost is small, $7.5 
million this year, and $18.8 million requested for fiscal year 
2013, but the potential value is enormous.
    Over the decades NSF funded researchers have made a massive 
contribution to domestic economic growth, but given the size of 
the federal investment in research, $60 billion annually, the 
American people should be getting even more new companies and 
new jobs for their money. The problem is that academics often 
have little idea how to translate their groundbreaking 
technology into a product that needs a specific customer need 
and conform the basis for a profitable company.
    If we fail to provide researchers with the skills needed to 
commercialize their research we are limiting the potential 
return that taxpayers receive on their investment.
    That is where iCorps comes in. iCorps has recruited 
experienced and highly regarded Silicon Valley entrepreneurs 
are venture capitalists to teach academics the lean launch pad 
method to starting a business. This method which draws on 
decades of experience in Silicon Valley focuses on talking to 
as many potential customers as possible, building low cost 
prototypes to get customer feed back, and quickly responding to 
the resulting insights. It represents the closest thing we have 
to a scientific method for building a successful start-up 
company.
    The early results are very promising. Out of the first 21 
teams to complete the course 19 are pursuing commercialization 
of their technology.
    Many describe the eight-week iCorps program as a 
revelation. These teams are developing products such as a 
robotic weed killer for organic farms, technology that more 
efficiently cools electronic devices, and a better procedure 
for perusing graphene, which is a new material which pioneers 
and recently won a Nobel prize for.
    The bottom line is that iCorps represents a low cost way to 
get us across the much discussed valley of death that separates 
laboratory discoveries from profit making companies that boost 
economic growth, job creation, and America competitiveness.
    The other program I would like to highlight is NSF's 
Advanced Manufacturing Program. I have a special interest in 
this program because I wrote language that was included in the 
America COMPETES Act to authorize research that leads to 
transformative advances in U.S. manufacturing.
    The Advanced Manufacturing program is focused on overcoming 
barriers to efficient manufacturing of high-tech products like 
nano materials and semiconductors. It aims not to refine 
traditional manufacturing processes but to achieve production 
of an entirely new types of products with previously 
unattainable capabilities.
    The President's budget request includes $68 million for 
advanced manufacturing research.
    An example of the kind of initiative made possible by this 
program is the center for nano scale chemical electrical 
mechanical manufacturing systems, a partnership including the 
University of Illinois at Urbana-Champaign, Northwestern 
University, and four other academic institutions.
    Nano technology research being conducted there has a wide 
variety of potential applications in energy, medical, 
electronics, and securities industries.
    The nano tech industry is growing by leaps and bounds with 
worldwide revenues expected to exceed a trillion dollars a year 
within this decade.
    By assisting industry with the basic research needed for 
manufacturing breakthroughs we can greatly increase the 
likelihood that new jobs will be created in America and that 
American manufacturers get a leg up on their international 
competitors.
    These are the types of smart investments the federal 
government should be focused on. By harnessing the full power 
of American ingenuity we can help the private sector create new 
jobs, it will grow our economy, and reduce our budget deficits.
    I want to thank you for the opportunity to speak before you 
today and for your time and consideration of these important 
programs.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Schiff. Thank you, Congressman, I appreciate your 
passion for manufacturing. It is one I have as well.
    Mr. Fattah.
    Mr. Fattah. Thank you. And not to prolong this, but I also 
assume that you agree that for federally funded research that 
leads to new widgets being manufactured, that manufacturing 
should take place in the United States of America.
    Mr. Lipinski. That is part of the whole push here, is 
that----
    Mr. Fattah. No, that we should require it. I guess my point 
is that we should actually require it----
    Mr. Lipinski. Yes, I think we should----
    Mr. Fattah [continuing]. As a condition of utilitizing 
fellow funded research.
    Mr. Lipinski. I think there should be a requirement that if 
you are receiving federal funding that you then manufacture 
that in the United States.
    Mr. Fattah. Okay, I have legislation in that regard and I 
will be glad to talk to you about that.
    Thank you very much.
    Mr. Lipinski. It took me a couple seconds to remember that.
    Mr. Schiff. He is tricky. He is tricky. Thank you, 
Congressman.
    Mr. Lipinski. Thank you very much.
    Mr. Schiff. Thank you.
    All right, next we have Dr. Pomponi. Thank you for joining 
us today, look forward to hearing your remarks.
    Ms. Pomponi. Thank you, good afternoon.
    Mr. Schiff. Go ahead.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

              NATIONAL ASSOCIATION OF MARINE LABORATORIES


                                WITNESS

DR. SHIRLEY POMPONI, SR. RESEARCH PROFESSOR, NATIONAL ASSOCIATION OF 
    MARINE LABORATORIES
    Ms. Pomponi. Members of the subcommittee, well, my name is 
Shirley Pomponi, I am appearing on behalf of the National 
Association of Marine Laboratories or NAML, and on behalf of 
our network of more than 100 marine labs I want to thank this 
subcommittee for the support its provided for ocean, costal, 
and great lakes research and education through NSF, NOAA, and 
NASA.
    One of NAML's priorities relevant to this subcommittee is 
to maintain strong support for extramural marine research and 
education programs at NOAA and NSF.
    The President's fiscal year 2013 budget plan with terminate 
funding for many of these programs, including NOAA's National 
Undersea Research Program, or NURP, the National Estuarine 
Research Reserve Construction Program, the Marine Santuaries 
Construction, the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program, Ocean Education Partnerships, and 
Competitive Education Grants.
    Reductions proposed to other NOAA extramural programs 
include the Integrated Ocean Observing System, the Coastal 
Services Center, the Center for Sponsored Coastal Ocean 
Research, and the National Estuarine Research Reserve Program.
    NOAA has benefited enormously from it extramural 
partnerships engaging hundreds of scientists in issues of 
direct and critical relevance to the Nation at remarkably low 
cost.
    In 2004 the NOAA Science Advisory Board's research review 
team concluded, ``NOAA cannot accomplish its goals without the 
extramural community, specifically the universities and 
institutions that represent the broad range of expertise and 
resources across the physical, biological, and social sciences. 
Moreover, there is the important issue of maintaining a 
scientific and technologically competent workforce in NOAA, and 
this workforce is another product of the extramural research 
community.''
    NAML recognizes the constraints facing the Congress and the 
necessary spending limitations. It is for that reason that NAML 
believes extramural programs ought to be given high priority 
because they afford the agency a higher degree of flexibility 
while enhancing its mission in a cost effective and highly 
efficient manner.
    Through engagement with the academic and non-profit 
extramural research community NOAA can more effectively address 
the Nation's critical scientific problems.
    The place-based extramural programs contribute to local and 
regional economic development and engage our citizens in wise 
use of coastal and ocean resources. They expand the impact of 
federal dollars towards building a globally competitive STEM 
workforce.
    Thank you for the opportunity to appear before you today. 
My written testimony contains additional details on the impact 
of NOAA and NSF extramural research and education programs on 
the Nation's science and technology readiness, on wise use of 
our ocean and coastal resources, on our local economies, and on 
education of a globally competitive workforce.
    I would be happy to answer any questions you may have.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Graves. Thank you, doctor. My nine-year-old daughter 
has a passion to be a marine biologist. So she would have 
enjoyed your comments, I am sure.
    Ms. Pomponi. Have her contact me.
    Mr. Fattah. Thank you very much.
    Ms. Pomponi. You are quite welcome.
    Mr. Graves. Okay next, Irving, is that right?
    Mr. McPhail. McPhail.
    Mr. Graves. Yes, sir. Yes, sir. Okay. Sorry. I am still new 
here.
    Mr. McPhail. Thank you. Thank you. No problem.
    Mr. Graves. I only have 11 minutes of experience here, so I 
am still new too, so. Thank you for joining us.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                             STEM EDUCATION


                                WITNESS

IRVING McPHAIL, PRESIDENT AND CEO, NATIONAL ACTION COUNCIL FOR 
    MINORITIES IN ENGINEERING, INC.
    Mr. McPhail. Thank you. Mr. Chairman, Mr. Fattah, good to 
see you again, sir. And members of the committee, my name is 
Dr. Irving Preston McPhail and I am the President and Chief 
Executive Officer of the National Action Council for Minorities 
in Engineering, Inc., NACME. I would like to start off by 
thanking you for the opportunity to share my thoughts and 
insights regarding the need to increase the number of highly 
qualified African American, American Indian, and Latino women 
and men in science, technology, engineering, and mathematics, 
or STEM, careers. We also want to comment on how federal 
funding can be used to help increase the present of 
underrepresented minority students in the STEM space.
    Our mission at NACME is to ensure American competitiveness 
in a flat world by leading and supporting the national effort 
to expand U.S. capability through increasing the number of 
successful African American, American Indian, and Latino women 
and men in STEM education and careers. We would like to partner 
with the federal government, sharing what we have learned over 
the past almost four decades. We strongly support the need for 
continued funding for scholarships and encourage the 
subcommittee to fund education and training efforts at the 
National Science Foundation, the National Oceanic and 
Atmospheric Administration, and the National Aeronautics and 
Space Administration. In addition to our overall support for 
those programs, we would especially highlight programs such as 
the STEM education and accountability programs at NASA, NSF's 
WIDER program, NSF's Broadening Participation in STEM program, 
and proposals that fund informal science education.
    NACME's partners include 50 of the nation's top educational 
institutions. We are led by a blue ribbon board of directors 
that is made up of more than 40 top executives from world class 
Fortune 500 companies, all of which are leaders in technology 
and innovation. Our model of public/private partnership is one 
that also would well serve federal purposes.
    For nearly four decades we have focused on the needs and 
interests of underrepresented minorities in the STEM fields. We 
are the largest private provider of scholarships in engineering 
for underrepresented minority students. We are also the leading 
source of research information on the status of 
underrepresented minorities in engineering education and 
employment. We are now taking an active role in the formulation 
of federal policy positions for increasing the opportunities 
for underrepresented minorities in STEM education and careers.
    With funding from individual and corporate donors, 
including some of the biggest and most influential companies in 
the world, NACME has supported more than 24,000 students with 
more than $124 million in scholarships and other support. We 
currently have more than 1,300 scholars at 50 partners 
institutions across the U.S.
    Our vision is an engineering workforce that looks like 
America. If we are to achieve this vision more must be done to 
substantially increase the number of underrepresented 
minorities pursuing college degrees in the STEM fields. 
Underrepresented minorities account for approximately 13 
percent of new engineers each year, yet account for 34 percent 
of all 18 to 24 year olds. This statistic alone is one of the 
driving factors to why a greater emphasis must be placed on 
increasing the opportunities available for these students but 
also improving the performance of those completing the 
baccalaureate degree in engineering.
    As you know, this is a critical time for our nation. 
Whereas 30 years ago American corporations competed with one 
another, today's competition is on a global scale. Among other 
things, corporations wishing to secure their status as leaders 
in research and development in STEM must confront the reality 
that the talent sources critical for maintaining their 
preeminence are changing. New and creative approaches will be 
required to ensure an adequate talent pool in the future.
    Given the tremendous progress in technology and innovation 
that is taking place in developing countries, the shortcomings 
of our public education systems, and the historic 
underrepresentation of sizable elements of our population, our 
nation must act quickly if we are to maintain a strong 
leadership position in STEM. The unfortunate reality is that 
there are many in the United States for whom participation in 
science and engineering has been and continues to be unlikely. 
And despite tremendous milestones and decades of progress their 
numbers continue to grow. In order to reverse this trend 
immediate, strong, and broad action must be taken. This dilemma 
is one that has been unaddressed for too long.
    Over the decades NACME has learned that increasing 
underrepresented minority participation in STEM study requires 
a multifaceted strategy. Scholarship support is critical, but a 
comprehensive engineering student support strategy that creates 
a supportive academic community while promoting a high level of 
collaborative learning and group study is also needed. Through 
our partnerships with colleges and universities from around the 
country we have leveraged our scholarship grants with 
institutional activities that promote academic and intellectual 
support, including mentoring, peer tutoring, internship 
experiences, supplemental instruction, and bridge programs that 
improve students' preparation for prerequisite mathematics and 
science courses prior to enrolling. This is the kind of 
training continuum that must be included in all federal plans 
and policies for increasing the STEM workforce.
    The February, 2012 PCAST report to the President includes a 
recommendation to launch a national experiment in post-
secondary mathematics education to address the math preparation 
gap. The gap in math is particularly onerous in our nation's 
community colleges that enroll 45 percent of African American, 
53 percent of Latino, and 52 percent of American Indian 
undergraduates. I ask that the subcommittee encourage that 
National Science Foundation to support efforts that address the 
need to bring research based solutions at community colleges to 
address the challenge of moving more underrepresented minority 
students from pre-calculus and pre-algebra to high level math 
en route to successful completion of bachelor degrees in 
engineering. Just under 12 million students are currently 
enrolled in the nation's 1,173 community colleges. These 
students represent a significant pool of talent for the 
nation's four-year engineering colleges. I would encourage the 
subcommittee to provide funding for the administration's 
proposed NSF/Department of Education mathematics education 
initiative to support early research, development, validation, 
and scale up of effective practices.
    NACME also recognizes the necessity for recruiting students 
along the STEM pathway. That is why NACME partnered with the 
National Academy Foundation and Project Lead The Way to launch 
a national network of urban centered, open enrollment, high 
school level engineering academies that will provide students 
with a strong science and math education in order to better 
prepare them for college level STEM courses. By involving 
parents, community resources, local corporations, and higher 
education institutions, two-year and four-year, in the 
activities of the academies, it is expected that they will have 
the potential of dramatically increasing the numbers of 
underrepresented minorities who will be prepared to engage in 
engineering education.
    I understand the budget pressures that the subcommittee 
faces as you put together this year's bill. I urge you to 
ensure that the government continues to be an integral partner 
with corporations and nonprofit organizations like NACME in 
addressing many of the challenges I have identified in my 
testimony. Many of these public/private partnerships are 
driving initiatives across the country to recruit and train 
teachers, spur curriculum improvements, and increase the ranks 
of students studying STEM from grade school to graduate school. 
By putting in place the appropriate funding and programs that 
provide STEM education and training for our underserved talent 
pool we ensure that we will have the intellectual capital to 
reinforce our nation's position as the world's strongest 
economy and source of innovation.
    Again, I thank you Mr. Chairman, Ranking Member Fattah, and 
members of the subcommittee for the opportunity to testify 
before you today and look forward to any comments or questions 
that you may have.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Graves. Thank you, Mr. McPhail. Thank you very much. 
Mr. Fattah, any comments?
    Mr. Fattah. Thank you. I am quite familiar with you and the 
great work that you are doing. But we are out of time. Thank 
you very much.
    Mr. McPhail. Thank you.
    Mr. Graves. Thank you. And I guess this is a good time to 
recess the subcommittee for, what? Three votes, yeah. Okay. And 
then, all right. So we have got a few more votes. So we will 
stand in recess and we will see if I am the next chairman in 
the chair or a new one shows up, right?
    [Recess.]
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                        FUNDING FOR NIST AND NSF


                                WITNESS

ELIZABETH ROGAN, CHIEF EXECUTIVE OFFICER, OPTICAL SOCIETY
    Ms. Rogan. The Optical Society supports the optics 
community through our programs and initiatives. Optics is a 
highly specialized branch of physics. It is known as the 
science of light. Many people here in the room work in that 
area. But it has made possible everything from LEDs, medical 
imaging, the internet, solar energy, and laser cutting for 
manufacturing.
    Mr. Chairman, I will say, strongly supports the President's 
budget for NSF and NIST. There are three fundamental reasons 
for this support. The first is these federal investments in R&D 
ensure this country's economic long term prosperity and 
competitiveness. Americans' leadership in science and 
technology is largely due to investments in long term basic and 
applied science research in the decades that followed World War 
II. In the most recent decades as a percentage of GDP that 
federal funding is declining. If you compare our funding to 
countries like China, German, Japan, and Korea, their growth is 
expanding tremendously.
    Second, these agencies will have revitalize and engage the 
U.S. leadership in advanced manufacturing. Our nation's 
leadership in manufacturing has been declining over the last 
decade. We have lost over 28 percent of the high tech 
manufacturing jobs in this country. These two agencies in their 
proposed budget have made advanced manufacturing a top 
priority. Their investments will lead to key areas of advancing 
speed and efficiency of the manufacturing, producing new state 
of the art cyber and communications technologies, and improving 
automation and reliability.
    Third, our researchers need sustained funding in order to 
deliver the results that we think are most important, major 
scientific breakthroughs, new discoveries, and cutting edge 
technologies that fuel our economy, it takes many, many years 
to get into fruition.
    I want to give you a couple of examples. In 2010 we 
celebrated the 50th anniversary of the laser. Using federal 
funding, Ted Maiman created the first ruby red laser at Hughes 
Research Labs in 1960. Though at the time of its creation it 
had no known applications. It was known as a problem looking 
for a solution. Now the laser touches everything that we do in 
our world. Bar code scanning, fiber optics, high speed 
internet, life enhancing 3-D imaging, and if we all live long 
enough retina surgery for our eyes.
    NSF has funded transformation of the iPhone into a medical 
quality imaging and chemical detection device. With these 
devices doctors and nurses in very rural areas can diagnose 
blood diseases which will help many, many of our citizens. NSF 
also has supported transformative research in manufacturing 
processing, making manufacturing faster, cheaper, and more 
efficient. NIST has helped fuel the creation of everything from 
mammograms, semiconductors, power computers, as well as laser 
tracking.
    Mr. Chairman, these are difficult economic times and I 
appreciate you and the subcommittee's investment in these long 
term activities. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you. I have no questions. And I was going 
to say this so many times but I did not because we are running 
out of time. The problem is though--I agree with everything you 
said, probably feel maybe even stronger than you feel about it. 
But here is the problem. We are a nation today where the great 
leaders have left the field. The business community has been 
silent. The scientific community has been silent. The 
fundamental problem in this country is we have to reform the 
entitlements and we have to close the tax loopholes. General 
Electric paid no taxes in 2010, filed 57,000 pages of 
electronic tax forms, and paid no taxes, and yet they are one 
of the largest taxpayers in China the same year.
    We have got to reform the entitlements. Nobody today has 
come up and said, ``we have to reform the entitlements.'' I did 
not hear one witness say that. Nobody has said, ``we have got 
to close these tax loopholes.'' And the Obama administration 
has failed. He walked away from the Simpson-Bowles Commission, 
and the Congress, the Republican Congress, has failed. Both 
have failed. So until you deal with the entitlement issue and 
closing these tax loopholes you will not literally be able to 
deal with the problem. The problem will be worse next year, 
worse the year after that, and the year after that.
    So we have got to come together and we are not doing it. 
And it is the Simon and Garfunkel song, ``a man hears what he 
wants to hear and disregards the rest.'' Every witness has 
disregarded the entitlements. No one will say a word about it. 
Nobody will talk about the tax earmarks. GE has their lobbyists 
all over this town looking for every potential earmark they 
possibly can. The President's jobs guy, Jeff Immelt, has 
created thousands of jobs but they have all been in China. They 
have not been here in the United States.
    So until we, to the audience too, until we deal and pass a 
Simpson-Bowles Commission, put everything on the table, reform 
the entitlements, close these tax loopholes, all of you, all of 
your organizations are going to have the same problem year 
after year after year. And so I support all these programs. I 
mean, I completely, strongly, because I am worried that America 
will fall behind. I want the 21st Century to be the American 
Century, not the Chinese Century.
    But I would just say though the business community, the 
scientific community, the university community, everyone is 
going to have to come together to put pressure on this 
administration or the next administration and on this Congress, 
this Congress if you can do it before the end of this year, or 
the next Congress, to come together in a bipartisan way similar 
to what Simpson-Bowles did by putting everything on the table, 
looking at everything. It was not a perfect plan, but you could 
have tinkered and changed or whatever, and everyone would have 
had the opportunity. But until we do that, I gave a speech the 
other day, in 2021 we will pay per day, if I remember the notes 
that I wrote out, $2.7 billion in interest. $2.7 billion a day 
in interest. Can you imagine what we could do for math, and 
science, and physics, and space, with the National Science 
Foundation?
    And also, listen, and I am going to get to places I should 
not go. This Congress just, have you all changed your spending 
habits because they gave you your payroll tax cut that cost $93 
billion? Do you all know about that? That was your Social 
Security tax. Now I think you are all going to want your Social 
Security when you come up to it. But for the second year 
straight they just gave back, and they are literally 
undermining the Social Security system. So it is a 
dysfunctional thing. We have got to get control of the 
entitlements and close these tax loopholes, and then we should 
be funding more than we are going to be funding. So we, if the 
21st Century is the Chinese Century it will be a very dangerous 
century. Very, very dangerous.
    Ms. Rogan. I spent a lot of time in the labs in China and 
it is shocking what they are doing in terms of their 
investments.
    Mr. Wolf. It is scary. And you know they are the same ones 
that have Catholic bishops in jail, Protestant pastors in jail, 
are forcing Buddhist monks and nuns to set themselves aflame, 
are funding the weapons that are being used in Southern Sudan 
to kill the people from the Nuba Mountains. Chinese weapons. 
They are the same ones who are spying against us. But they are 
the same people that we are borrowing money from to fund the 
government. So we have got to get control of the entitlements. 
We have got to get, close these tax loopholes. But I appreciate 
your testimony and I completely agree with you, but thank you.
    Ms. Rogan. Thank you.
    Mr. Wolf. Next witness, Congresswoman Judy Chu. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                     NASA'S FISCAL YEAR 2013 BUDGET


                                WITNESS

HON. JUDY CHU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Chu. Thank you, Mr. Chair. Thank you for the 
opportunity to testify on the National Aeronautics and Space 
Administration's fiscal year 2013 budget. I am here because I 
strongly support the NASA Mars program and I am very concerned 
about the cuts to this program proposed in the President's 
fiscal year 2013 budget.
    I represent a district in the San Gabriel Valley in Los 
Angeles County, California. In the San Gabriel Valley is 
CalTech's Jet Propulsion Laboratory, which manages the NASA 
Mars program. JPL provides almost 5,000 jobs, very significant 
considering the fact that L.A. County has one of the highest 
unemployment rates in the country, 11.8 percent compared to the 
national rate of 8.3 percent.
    To the people of my district and throughout the region the 
high-skilled, cutting-edge work provided by the NASA Mars 
program means investment in the economy and thousands of jobs, 
not only at JPL but in spinoff industries and businesses, and 
throughout the community. But the benefits do not stop there.
    The technologies discovered at JPL do not just benefit the 
aerospace industry. The technology developed at JPL for Mars 
mapping is now used to conduct high resolution, 3-D mapping 
here on Earth by businesses, emergency managers, and policy 
makers. And the Mars rovers built at JPL led to the creation of 
military robots used in Iraq and Afghanistan to search 
buildings and clear caves and bunkers while keeping American 
troops out of harm's way. Many of these spinoffs support small 
businesses, which are the backbone of America's economic 
growth.
    JPL is the only place in the world that has successfully 
landed a mission on Mars. But this unique capability to perform 
high end entry, descent, and landing on another planetary body 
is at risk. In the President's budget for fiscal year 2013 the 
Mars exploration program would receive an irrevocably damaging 
cut of nearly 40 percent, down from $587 million in fiscal year 
2012 to $360.8 million. The proposed cuts to NASA's budget 
would devastate JPL's workforce and require our nation's 
brightest to look elsewhere for work, having a ripple effect 
throughout the region, the state, and the country.
    These cuts also are disproportionately deep despite its 
track record of success. With a dramatically reduced Mars 
exploration program the U.S. is in danger of losing its 
investment as well as critical intellectual capital. We simply 
cannot afford it.
    That is why the National Research Council's decadal survey 
for planetary science released last year made a Mars rover 
mission in 2018 their highest priority, especially since it 
would lead to bringing back rock and dust samples to Earth. It 
is clear that with such a devastating cut to this program we 
will no longer be able to meet this goal.
    I understand that we need to set priorities and we all need 
to make difficult choices. But we should not disproportionately 
cut a program that has been so successful, has stayed on time 
and on budget, and has created game-changing technologies. 
Finding the right balance must be our top priority.
    For these reasons I respectfully request that this 
committee support planetary sciences at NASA at the level of 
$1.44 billion, providing $510.8 million in funding for the Mars 
exploration program. This will allow us to advance the mission 
of returning rock and dust samples from Mars back to Earth in 
the next few years and keep this critical technological and 
scientific leadership right here in the United States. We must 
protect programs like Mars exploration that advance job 
opportunities and economic growth. It does not make sense to 
cut one of our most promising and successful NASA programs. 
Even though painful decisions must be made I urge the committee 
to work hard to find the right balance to help preserve this 
very important program. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much. I appreciate your testimony. 
Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. I want you to know 
we are all on this committee strong supporters of NASA, the 
planetary program. We all recognize the just unacceptable 
devastating cuts the President's budget would make to the 
planetary program, essentially shutting it down. And do not 
forget Europa. JPL has done a spectacular job in leading the 
way and the mission to Europa is also a top priority of the 
decadal survey. So Chairman Wolf personally protected last 
year, and I know he is going to do his best this year to 
protect, no matter what the budget number is. And we are 
undoubtedly going to get a significantly reduced allocation for 
the subcommittee. And his commitment to the sciences, law 
enforcement, NASA is truly extraordinary.
    Ms. Chu. I truly appreciate it.
    Mr. Culberson. You are talking to a real friend, right 
here.
    Mr. Wolf. Yeah, good, thank you for your testimony. Thanks. 
The next, Felice Levine, Executive Director, American 
Educational Research Association. Thank you.
                              ----------                              

                                          Thursday, March 22, 2012.

                   NATIONAL SCIENCE FOUNDATION BUDGET


                                WITNESS

FELICE LEVINE, EXECUTIVE DIRECTOR, AMERICAN EDUCATIONAL RESEARCH 
    ASSOCIATION
    Ms. Levine. Thank you, Chairman Wolf, and other members of 
the subcommittee. And I especially want to thank Chairman Wolf 
for his leadership role in science and this passion and 
perseverance that you have for really advancing the federal 
investment in science. And as Mr. Culberson so eloquently 
underscored, it is of great value.
    I am here today to speak on behalf of the National Science 
Foundation budget. I am Executive Director of the American 
Educational Research Association, the major national scientific 
association of 25,000 scholars engaged in scientific research 
across the life span about education and learning, including 
prominently STEM education. My testimony today specifically 
focuses on the $875.6 million request for the National Science 
Foundation's Education and Human Resources Directorate, warmly 
called EHR. While we welcome and fully support the President's 
request for an increase in the budget we are particularly 
enthusiastic and really want to underscore how the directorate 
plans to use this money to advance sustained and significant 
STEM research.
    I wish to call the attention of the committee to four 
points in considering the fiscal year 2013 budget for EHR. A 
laudable change, rather understated, but laudable change; a 
sensible and strategic R&D plan; EHR and the culture of 
science; and NSF and EHR as prudent stewards of resources. Just 
as we recognize the significance and the importance of science 
investments for other areas of innovation and invention, there 
is no area perhaps more central to R&D investments in education 
research and learning sciences in STEM education so that we 
indeed can be innovative in our educational programs across 
STEM.
    The EHR plan sets four important priorities and directions 
that show laudable ambition to advance STEM education and 
learning. There was mention of the importance, I think by a 
prior witness, of the important collaboration between EHR and 
the Institute of the Education Sciences in the Department of 
Education to establish standards of evidence for STEM education 
innovations and research. EHR is also a very important player 
in the five-year interagency plan for federal STEM investments.
    Even more important than the size of the request, which is 
an appropriate request, is the new framing of the EHR 
investment portfolio into three categories, core R&D, 
leadership, and expeditions. The plan recognizes that 
meaningful change in the scientific workforce capacity and in 
public literacy requires sustained and cumulative investment 
and research, and a staged development and planning for such 
investments. So we see this as a very sensible and strategic 
R&D plan. The core R&D investment emphasis as proposed is in 
four areas: STEM learning, STEM learning environments, 
broadening participation and institutional capacity in STEM, 
and STEM professional workforce preparation. These core R&D 
areas evolved and were crafted based on national studies and 
reports and wide consultation across the education research in 
science and education communities.
    As importantly as you examine the budget plan and request, 
R&D is not isolated in one budget, in one division, but is 
integrated across all four divisions. As set forth in the 
proposed EHR budget each of the four divisions will receive $5 
million for a newly established core launch fund. In fiscal 
year 2013 EHR will commence a year of dialogue with key 
stakeholders. They are going to make important investments in 
2013 and then reexamine and do any kind of clarification and 
realignment that may be necessary.
    NSF and EHR have been very prudent stewards of these 
resources. EHR's request constitutes 5.6 percent over the 2012 
request. But most important is the rethinking within EHR and 
NSF about how to use the funds and reframe the investment in an 
effort to build the scientific knowledge base that can 
reestablish the U.S. preeminence in science education and 
workforce development. In constant dollars the budget request 
is, in comparison to 2006, actually a decrease of 2.3 percent. 
And I think what is most important, and perhaps why we want to 
urge the committee to take a strong look at this request and 
the components of it, is that this request now has a very 
strong backbone in investment in R&D to build STEM education 
programs based on investment in an R&D set of priorities that 
can provide the backbone for innovation in education.
    I want to thank the committee.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you for your testimony. Mr. Fattah.
    Mr. Fattah. Let me thank you for your testimony.
    Ms. Levine. Thank you.
    Mr. Wolf. Thank you.
    Mr. Culberson. If I may?
    Mr. Wolf. Sure, yes sir. Absolutely.
    Mr. Culberson. Ms. Levine, you are, several years ago, and 
I am not sure whether President Bush had a bill that would have 
transferred responsibility for designing, leading the way on 
STEM education curriculum from the National Science Foundation 
to the Department of Education. I do not know that that ever 
passed. NSF still has the lead, do they not?
    Ms. Levine. Yes.
    Mr. Culberson. On STEM education?
    Ms. Levine. Yes. Absolutely. I think there is very 
effective partnerships and communication now----
    Mr. Culberson. It is a natural.
    Ms. Levine [continuing]. Between U.S. Department of 
Education and EHR. But the science leadership role----
    Mr. Culberson. Sure.
    Ms. Levine [continuing]. In science education----
    Mr. Culberson. NSF is the right place for it. I am glad the 
bill did not finally pass, because it needs to be at NSF. My 
question is, and I have sent this to the subcommittee, Mr. 
Chairman, and I want to get your comment on it, it seems to me 
a natural for NSF to develop the creation of STEM high schools. 
I suggested, Mr. Chairman, that NSF create a competitive peer 
review grant program that would be aimed at cooperative 
research projects between STEM high schools and university 
research or research institutions, so that you have got 
partnerships. Thomas Jefferson High School here in Northern 
Virginia, which Chairman Wolf helped to create along with Tom 
Davis and the Fairfax County School Board, they have created 
the best high school in America and it is focused on of course 
science and technology education. What would, what is your 
reaction to the idea of creating a collaborative grant process 
where a school like TJ could work in conjunction with a 
research institution or a university research lab on projects 
that would then of course encourage the kids to focus in a 
particular area and go on to maybe go to the university?
    Ms. Levine. Well I think that, I mean, I think that NSF 
really both in its education research programs and in its 
education innovation really plays a lead in competitive peer 
review and scientific review, and is really very well situated 
to let me say make those kinds of partnerships possible. And 
indeed, many of their programs have been based on that kind of 
premise. And I think when you look at the core R&D investment 
aspirations across all four divisions I think you will see that 
as the backbone in the planning. So I support what you have 
said.
    Mr. Culberson. Okay, thank you.
    Ms. Levine. Without supporting any specific project or 
program.
    Mr. Culberson. I understand. But the whole idea of 
collaboration----
    Ms. Levine. But the philosophy underlying that is I think 
is fundamental to the culture of science at NSF and the 
aspirations of EHR to build evidence based programs and 
innovations to strengthen the pipeline at all levels.
    Mr. Culberson. Thank you.
    Mr. Wolf. I just want to state for the record that I cannot 
take any credit for starting Thomas Jefferson.
    Ms. Levine. But it is nice.
    Mr. Wolf. But it is a great school, and I think it is an 
interesting idea. And the committee will take a look----
    Mr. Culberson. It occurred to me in visiting with the 
principal out there, Mr. Chairman, that to encourage more 
collaboration because the universities, and of course we have 
got to get more kids more into the sciences and mathematics----
    Ms. Levine. Absolutely.
    Mr. Culberson [continuing]. And engineering, et cetera. If 
I could ask quickly?
    Mr. Wolf. Sure.
    Mr. Culberson. What exactly does the American Education 
Research Association do?
    Ms. Levine. It is----
    Mr. Culberson. I am not familiar with you.
    Ms. Levine. Ah, well, you should be. We will get together. 
It is the national scientific society of researchers across all 
fields of the study of education and learning. Most of our 
members are in research universities, colleges and 
universities, faculty who do research on these issues. And----
    Mr. Culberson. But researching?
    Ms. Levine. Education, education and learning issues 
throughout the life cycle.
    Mr. Culberson. Okay.
    Ms. Levine. So it is a scientific society in the field.
    Mr. Culberson. Educational professionals studying what 
education techniques work best?
    Ms. Levine. Well education and learning from fundamental 
and basic research on cognition and early childhood development 
through workforce development.
    Mr. Culberson. Ah, okay. There we go. That is what I was 
looking for. Thank you very much.
    Ms. Levine. We will follow up.
    Mr. Culberson. Thank you.
    Ms. Levine. Thank you.
    Mr. Wolf. Great. Thank you. Thank you, ma'am. I appreciate 
your testimony. Paul Schechter, WFIRST Science Definition Team. 
Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                                 WFIRST


                                WITNESS

PAUL SCHECHTER, CO-CHAIR, WFIRST SCIENCE DEFINITION TEAM
    Mr. Schechter. Good afternoon. Chairman Wolf, Ranking 
Member Fattah, Mr. Culberson, thank you for giving me the 
opportunity to testify about WFIRST, the Wide Field Infra-Red 
Survey Telescope.
    In 2010 the National Academy of Sciences published New 
Worlds, New Horizons, its decadal survey of astronomy and 
astrophysics, giving guidance to government agencies on funding 
priorities for the coming decade. WFIRST was the highest 
priority for a space mission.
    WFIRST is made possible by recent advances in infrared 
detector technology, something in which the U.S. is the 
undisputed world leader. The James Webb Space Telescope also 
exploits this technological advantage but WFIRST and Webb are 
otherwise very different. Where JWST is like a telephoto lens, 
WFIRST is like a wide-angle lens.
    They have very different purposes. JWST will provide high 
resolution images of the most distant objects while WFIRST 
permits surveys for the rare and most interesting objects in 
the universe. Webb has 18 primary mirror segments, each of 
which is as big as WFIRST's primary mirror. But where Webb has 
an 8 million pixel imager, WFIRST has 144 million pixels.
    WFIRST will observe 100 times the area that can be observed 
with Webb in a single pointing. This wide field capability 
would be used to complete the statistical census of extrasolar 
planets, to study the formation of massive black holes when the 
universe was only 10 percent of its present age, and to 
determine the cause of cosmic acceleration for the discovery of 
which three American astronomers were awarded the 2011 Nobel 
Prize.
    In fiscal year 2012 NASA will spend a total of $5.7 million 
on the WFIRST project, for the project study and science 
definition teams. This effort has produced simpler and less 
costly designs. Some of these include the newest generation of 
infrared detectors which would both increase the pixel count 
and reduce the cost. But the proposed NASA budget for fiscal 
year 2013 has zeroed out WFIRST.
    I am here to request the restoration of funds so that the 
new designs and the new generation of infrared detectors can be 
brought to an appropriate level of technical readiness for a 
new start.
    NASA is currently negotiating with the European Space 
Agency to provide advanced infrared detectors for a less 
capable wide field satellite called Euclid. A January, 2012 
National Academy Committee report endorsed this action saying, 
``NASA should make a hardware contribution of approximately $20 
million to the Euclid mission to enable U.S. participation. 
This investment should be made in the context of a strong U.S. 
commitment to move forward with the full implementation of 
WFIRST in order to fully realize the decadal science priorities 
of the New Worlds, New Horizon report.'' I am happy to see NASA 
make this important yet relatively modest contribution to the 
Euclid mission. But I would hope NASA can also muster the 
resources to make the ``strong commitment'' to WFIRST also 
called for in the National Academy of Sciences report.
    Thank you again for the opportunity to address the 
committee. I hope my testimony proves helpful.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much. Mr. Fattah.
    Mr. Fattah. Thank you very much.
    Mr. Culberson. Can I just ask a quick question?
    Mr. Wolf. Sure.
    Mr. Culberson. I am sorry. Very quickly, what are you all 
going to do with the telescope is to, will you be able to match 
up the observations of the microwave background radiation to 
the infrared? Is that what you are doing? Looking for the edge 
of the universe essentially, is that part of this?
    Mr. Schechter. This is not a single purpose telescope. It 
does many things. So my colleague Dave Bennett here is looking 
for exoplanets around other stars. We have Kepler, that gives 
us the hot exoplanets inside the Earth's orbit. But there are 
all those exoplanets outside the Earth's orbit and it will see 
those.
    Mr. Culberson. I will visit with you afterwards. I do not 
want to postpone.
    Mr. Schechter. Yes.
    Mr. Culberson. You just know you have got great friends on 
this committee that are all devoted to the sciences. And this 
was the top priority of the decadal survey in the category of 
telescopes, astronomy and telescopes?
    Mr. Schechter. Oh this was astronomy and astrophysics.
    Mr. Fattah. Astrophysics, right.
    Mr. Culberson. Astrophysics, excuse me.
    Mr. Schechter. So this is one of the four science mission 
directorates.
    Mr. Culberson. Okay, this was the top priority?
    Mr. Schechter. Yes.
    Mr. Culberson. Thank you, sir. Sorry. I will ask after.
    Mr. Wolf. Dr. Gary Coleman, American Society of Plant 
Biologists.
                              ----------                              

                                          Thursday, March 22, 2012.

          NATIONAL SCIENCE FOUNDATION FISCAL YEAR 2013 BUDGET


                                WITNESS

GARY COLEMAN, AMERICAN SOCIETY OF PLANT BIOLOGISTS
    Mr. Coleman. Chairman Wolf and members of the subcommittee, 
thank you for inviting me to testify on the National Science 
Foundation fiscal year 2013 budget. My name is Gary Coleman. I 
am an Associate Professor in the Department of Plant Science 
and Landscape Architecture at the University of Maryland. I 
appear before you today on behalf of the American Society of 
Plant Biologists and its approximately 5,000 members 
researchers and educators from across the United States and 
around the world. Our mission is to promote the growth of plant 
biology, communicate research in plant biology, and promote the 
interests of plant scientists.
    ASPB, or the American Society of Plant Biologists, 
recognizes the difficult economic environment that our nation 
faces but believe that investments in scientific research will 
be a critical step towards economic recovery and continued 
global competitiveness. Research in plant biology supported by 
National Science Foundation is helping to make fundamental 
contributions to the sustainable development of better foods, 
fibers, and fuel security, and environmental stewardship, and 
also enhancing the understanding of basic biological principles 
to underpin improvements and health and nutrition for all 
Americans.
    Because of this, ASPB supports the request at the level of 
$7.37 billion for the National Science Foundation in fiscal 
year 2013 and we believe these investments will help build a 
better future for our nation.
    I would like to take just a moment to comment on my 
experience of how NSF funding can impact human capital. As part 
of a grant I have with NSF myself and colleagues have developed 
a summer training program for high school students and 
underrepresented students in the plant biology field. One of 
these participants who participated two years ago in this 
program, Ms. Chioma Ebiringa, is a young, articulate African 
American woman who I am proud to say is now a Ph.D. student 
working at the University of Maryland in my laboratory on 
developing sustainable methods for biofuel crop production. 
This is just one example of how NSF and the programs that NSF 
supports can impact the development and training of aspiring 
young scientists.
    The National Science Foundation Directorate in Biological 
Sciences, also known as BIO, is a critical resource and 
provides 62 percent of the federal support for nonmedical basic 
life science research at U.S. academic institutions. Within BIO 
the plant genome research program has profoundly deepened our 
understanding of plant biology, biofuel crops, human nutrition, 
and the roles of plants in ecosystems, as well as investing in 
human capital. ASPB asks that the plant genome program be 
supported at the highest possible level.
    Without significant and increased support for BIO and NSF 
as a whole promising fundamental research discoveries will be 
delayed and vital contributions across scientific disciplines 
will be postponed, thus limiting the nation's ability to 
respond to the pressing scientific problems that exist today 
and the challenges that are on the horizon. Additionally, the 
National Science Foundation is a major source of funding for 
education and training of the American scientific workforce and 
understanding how educational innovations can be most 
effectively implemented. ASPB encourages the subcommittee to 
support expansion of NSF's fellowship and career development 
programs, such as the postdoctoral research fellowships in 
biology, the graduate research fellowships, and the faculty 
early career development programs, and thereby provide 
continuity and funding opportunities for the country's most 
promising early career scientists.
    America's challenges in agriculture, energy, and health 
cannot be fully resolved in a few years. They need continued 
attention and robust investment at federal research agencies. 
Despite the economic climate of today these investments will 
make an impact in our daily lives now and in the distant 
future. We cannot afford to delay these investments.
    I thank you for considering my testimony on behalf of the 
American Society of Plant Biologists, and I will be happy to 
answer any questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. I thank you for your testimony. Mr. Fattah.
    Mr. Fattah. Thank you for your testimony.
    Mr. Wolf. Jane Hawkins, with the American Mathematical 
Society.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

          NATIONAL SCIENCE FOUNDATION FISCAL YEAR 2013 BUDGET


                                WITNESS

JANE HAWKINS, AMERICAN MATHEMATICAL SOCIETY
    Ms. Hawkins. Chairman Wolf, Ranking Member Fattah, Mr. 
Culberson, and members, I am Jane Hawkins, member of the board 
of trustees and Treasurer of the American Mathematical Society. 
I am also professor of mathematics at the University of North 
Carolina at Chapel Hill. AMS is a member organization of over 
30,000 professional mathematicians. I am here today to request 
an fiscal year 2013 budget of $7.37 billion for the National 
Science Foundation.
    This investment will allow the NSF to continue to support 
innovative and transformational scientific research that fuels 
the American economy, upholds our national security, maintains 
our global competitiveness, and improves health and quality of 
life for millions of Americans. I would like to thank, first of 
all, the committee and especially the Chairman, Mr. Wolf, and 
Ranking Member Fattah, for past support of NSF. This support 
has been very important for maintaining our nation's scientific 
enterprise, which is critical for continued innovation and 
technological development.
    Mr. Chairman, your efforts on behalf of NSF's budget during 
the conference for the fiscal year 2012 minibus appropriations 
bill was greatly appreciated.
    Society has benefitted from many products, procedures, and 
methods resulting from NSF's supported research. I will give 
just one small illustration here. The study of partial 
differential equations, PDEs, is a field of mathematics that 
was born from attempts to understand physical problems such as 
a vibrating string or the spread of heat through material. It 
goes back to the 1700s and has developed into an extremely 
broad area of mathematics, with applications emerging each 
decade that are much more sophisticated than could have been 
imagined ten years earlier. Mathematicians were pushing their 
ideas into unknown territory when they came up with the 
underpinnings of many of today's applications.
    At my home institution, the University of North Carolina 
Chapel Hill, NSF has played a large role in the development of 
students in PDEs on both the undergraduate and graduate levels. 
Professor Jason Metcalfe is a young research faculty member 
there, who recently won an NSF career award to train 
undergraduates throughout the academic year and to run a small 
summer school in special relativity, a field studied by 
Einstein 200 years after PDEs were first discovered. The 
research of this group is fundamental to the understanding of 
the stability of our universe and future space exploration.
    Recent Ph.D. Benjamin Dodson works in Berkeley, California 
using PDEs to detect hidden objects. These results are used in 
medical imaging, oil exploration, and have military uses for 
detecting invisible objects with properties different from 
their surrounding medium. Modern studies of fluid flow, at 
first thought to be too difficult to study using PDEs, have led 
to much deeper understanding of weather prediction, water flow, 
and environmental clean up.
    Nathan Pennington was supported at UNC on an NSF grant 
awarded to his advisor. In turn he is employed by the Eye 
Center at Kansas State University, which is funded by NSF 
money, and enables Nathan to train undergraduates alongside 
faculty and grads in an interdisciplinary environment studying 
properties of fluids of varying viscosities.
    Anna Mazzucato, also a UNC/NSF supported Ph.D., is 
currently at Penn State University in an applied math group 
where she is deeply involved in applications of PDEs to answer 
questions about hidden objects when the boundaries are rough. 
So the object is difficult to disentangle from its surrounding 
environment. Her work has many potential applications.
    This is just a small sample of three NSF-funded Ph.D. 
students in North Carolina who now train undergraduates and 
graduate students at large state universities in California, 
Pennsylvania, and Kansas in a field of fundamental importance 
to science and society.
    As all the people who have testified before me have said, 
these are extremely difficult economic times and Congress 
continues to face the arduous task of reducing the federal 
budget. However, even in this fiscal environment we must 
continue to make investments in the future of our country and 
sustained federal support for scientific research and education 
is one of these investments. Thank you very much.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much for your testimony. Mr. 
Fattah.
    Mr. Fattah. Thank you very much.
    Mr. Wolf. Thank you. The next witness will be Christopher 
Lawson, Alabama EPSCoR.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                                 EPSCOR


                                WITNESS

CHRISTOPHER LAWSON, PH.D., EXECUTIVE DIRECTOR, ALABAMA EPSCOR
    Mr. Lawson. Mr. Chairman and members of the subcommittee, 
my name is Chris Lawson and I am a physics professor and also 
the Executive Director of Alabama EPSCoR, the Experimental 
Program to Stimulate Competitive Research. Thank you for this 
opportunity testify about NSF EPSCoR and NASA EPSCoR.
    For fiscal year 2013 we respectfully request that you fund 
the administration's NSF EPSCoR budget request for $158 million 
and NASA EPSCoR at the authorized amount, $25 million.
    Congress established the EPSCoR program to ensure that 
research universities in all states participate in and benefit 
from federal science and technology activities. Although EPSCoR 
states have 20 percent of the nation's population, and close to 
25 percent of their doctoral research universities, these 
states only receive about 10 percent of federal research 
outlays. EPSCoR provides a mechanism to address those 
geographical imbalances.
    The program has been a huge success. Investments have 
generated growth in state economies, attracted students in the 
STEM fields, and created a broader base of high tech research 
expertise.
    NSF EPSCoR provides cofunding for meritorious proposed 
research in EPSCoR states and by infrastructure improvement 
awards that support academic research infrastructure and 
cyberinfrastructure improvements in areas critical to the 
state's high tech economic development. NSF EPSCoR 
infrastructure funding is matched by the states to leverage the 
federal investments.
    In my home state of Alabama NSF EPSCoR funding has 
generated revolutionary advancements in science and engineering 
that have led to new business growth and high paying jobs. NSF 
EPSCoR funding has been vital for connecting students to STEM 
ideas and research and introduced more than 2,000 students 
across Alabama to these science, technology, and engineering 
concepts in one year alone.
    In a time when the President and Congress are working to 
engage students in STEM fields it only makes sense to build on 
this success and continue to fund the NSF EPSCoR program at the 
administration's budget request of $158 million. This will 
ensure that states such as Alabama continue to develop a robust 
research infrastructure so they can compete for federal 
research grants and continue to prepare a skilled high tech 
workforce capable of delivering innovation in the future.
    Congress designed NASA EPSCoR to increase the research 
capacity of states with limited NASA R&D funding in areas 
related to NASA's mission. NASA EPSCoR funds both grants for 
research infrastructure development and to seed research in 
critical research areas. Together they attract students in the 
STEM fields, allow more states to participate in NASA research 
enterprise, and provide opportunities for high tech economic 
growth in local communities nationwide. Like the NSF EPSCoR 
program, states help increase the federal benefit by matching 
funds.
    Funding the NASA EPSCoR program at the congressionally 
authorized level of $25 million is truly a win-win program for 
states in our nation. At a time of economic challenges and 
tight budgets, programs like EPSCoR that seek a broader 
distribution of research funding make solid fiscal sense. 
Limiting these resources to a few states and institutions is 
self-defeating for our nation in the long run. NSF and NASA 
EPSCoR help all states to benefit from taxpayer investments and 
federal research and development, and they generate long term 
growth and a skilled workforce for the future. NSF and NASA 
EPSCoR stretch limited federal dollars further through state 
matching. Not only do states benefit from increased research 
capacity and growth, but our nation benefits from the rich and 
diverse pool of talent that our entire country can provide.
    In a time that 33 percent of all bachelors degrees in China 
are in engineering, compared to 4.5 percent in the U.S., if we 
are going to remain globally competitive instead of restricting 
ourselves to a few states and institutions we need to be 
training and harnessing all of our nation's brainpower and 
EPSCoR is working to achieve this goal. Thank you for inviting 
me.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Culberson [presiding]. Thank you very much, Mr. Lawson.
    Mr. Fattah. Let me also thank you and again mention that 
even though we are not dealing with a lot of questioning right 
now we will obviously follow up. Thank you.
    Mr. Lawson. I will be happy to answer your questions.
    Mr. Culberson. I am going to reiterate this to everybody 
here, you are talking to friends here. This committee strongly 
supports the sciences. We are delighted to have you, and we 
know how much time and difficult it took out of your schedule 
to get here. We are happy to welcome James Brown, the Executive 
Director of the STEM Education Coalition. Thank you, sir.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

          NATIONAL SCIENCE FOUNDATION FISCAL YEAR 2013 BUDGET


                                WITNESS

JAMES BROWN, EXECUTIVE DIRECTOR, STEM EDUCATION COALITION
    Mr. Brown. Thank you, Mr. Culberson, Mr. Fattah. And thank 
you for the opportunity to testify here today. Our coalition of 
more than 500 education, business, and professional 
organizations is a broad and unified voice in advocating for 
policies to promote STEM education at all levels, from 
kindergarten to career and in school and out of school. It is 
our pleasure to offer views on the fiscal year 2013 
appropriation for the National Science Foundation and its 
Education and Human Resources Directorate.
    As we have talked about already, STEM education is closely 
linked with our nation's economic prosperity. We all know this. 
Strong STEM skills are also essential to a well rounded 
education for those who do not work in STEM fields, and it is 
an essential part of effective citizenship in the 21st Century. 
We strongly advocate that STEM education must be elevated as a 
national priority as reflected through education reforms, 
policies to drive innovation, and federal and state spending 
priorities.
    Our coalition has always looked at the NSF, to your point 
Mr. Culberson, as the lead agency in the federal government to 
develop the tools and educational innovations that will address 
challenges in STEM education. It is the one agency that brings 
together the research basis of the STEM fields and educational 
practice. NSF is also the premier agency for support of 
research on learning and curriculum development at the 
undergraduate and graduate levels.
    One of the longstanding concerns of our coalition has been 
that some on Capitol Hill seem to regard the educational 
mission of NSF as being secondary to its research mission. We 
do not see it that way at all. Education, research, and 
innovation are intimately connected. To this end we strongly 
support NSF's efforts to integrate STEM research in education. 
In fact, without a well education cadre of students who will 
become the future scientists, engineers, and principal 
investigators, research investments will not reach their full 
potential.
    Let me briefly outline several specific observations on the 
budget request for EHR. Overall, we support the 
administration's proposed funding level of $875 million for the 
EHR Directorate, an increase of about 5.6 percent over last 
year. This funding level would help reverse a recent trend to 
underfund EHR vis-a-vis the other NSF directorates. Our 
coalition has long supported the math and science partnerships 
and Noyce Teacher Scholarship Program as integral parts of 
EHR's mission to support research into best practices and 
professional development and teacher education. We hope these 
programs continue intact.
    We strongly support efforts to more closely integrate the 
work EHR with related programs at the Department of Education. 
Effective coordination between these two agencies is critical. 
In particular we support joint initiatives between the two 
agencies that are focused on developing, evaluating, and 
scaling up proven practices to improve learning in STEM 
subjects.
    We also support expanding efforts to effectively 
disseminate and share the proceeds of EHR's research into STEM 
best practices more broadly, especially with state and local 
entities. And we appreciate the subcommittee's ongoing interest 
and leadership in this area.
    Turning to another matter, we hope that proposed changes to 
EHR's informal science programs will not compromise the 
Foundation's commitment to supporting innovation in the out of 
school space, an area for which EHR has long been a leader.
    Finally, we encourage the subcommittee's continuing efforts 
to ensure that STEM education programs across the federal 
agencies, including those at NSF, are focused on producing 
sound results that will contribute to student achievement and 
better preparation. In other words, we want you to take a close 
look at how these programs are spending their money in light of 
what you said, Mr. Wolf.
    We have also closely followed the efforts undertaken on 
this issue by GAO, the White House Office of Science and 
Technology Policy, and the Education and Workforce Committee, 
and will continue to do so.
    And finally, as a fellow Penn State alum thank you for the 
opportunity to address the committee.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Do you think there should be one central 
repository?
    I think, honestly I think that is not possible in the 
digital age that we live in. It does not make sense to 
centralize everything, or to sort of try and direct how to get 
one stop shopping in scientific research. Because you have got 
journals, you have got databases, you have got lots of ways to 
find out what is working. I guess that, maybe to find, like the 
NSF, and I do not want to take a lot of time. I am keeping 
people and they are lining up out there. But we had NSF do a 
study whereby why do young people, fifth grade and below, 
decided to go into sciences versus law. We do not need any more 
lawyers. We need the scientists. Young people intern in my 
office, they all want to be lawyers. So they have done this 
study and I do not know that it ever really got out. And I just 
wonder if there should be something, not one stop shopping, but 
what works and does not work, and something like that that they 
can go to. That every teacher can go to, every administrator 
can go to. That is what I was thinking of, more from that----
    Mr. Brown. Well truthfully ten or 15 years ago the NSF 
thought that this was a more important priority than it has 
been in the time since, and partially it is because of the 
budget pressures on NSF. If you talk to the program officers 
they are concerned about spending money on conferences and 
other things that will disseminate those things. I think you 
sort of sent the signal with the NRC study and other things 
that you want that to change and I think that is the signal 
that needs to be sent to NSF. I mean, it is really the 
subcommittee's purview to say, ``Spend your money making sure 
people know what you are doing.''
    Mr. Wolf. Well thank you very much. Mr. Fattah.
    Mr. Fattah. Thank you. And that then requires not to have 
the IG beating them up about how much they spent on coffee and 
donuts at conferences. But I agree. Thank you, Mr. Chairman.
    Mr. Culberson. Briefly? Another thing also is, we know what 
works. I mean, I always wonder how many times we are going to 
study this, to go out and do studies on what works. We really 
support what you are doing and are delighted that you are here, 
and of course are going to support NSF. But just for food for 
thought, we know what works. These programs are going on all 
over the country and Frank has got one right here in his 
backyard that works beautifully at Thomas Jefferson High 
School. But we really appreciate what you are doing. Thank you.
    Mr. Wolf. Thank you very much. The last witness in this 
round is Ford Bell, American Association of Museums. Welcome, 
sir.
                              ----------                              

                                          Thursday, March 22, 2012.

                             STEM EDUCATION


                                WITNESS

FORD BELL, PRESIDENT, AMERICAN ASSOCIATION OF MUSEUMS
    Mr. Bell. Thank you, Mr. Chairman. I am Ford Bell, the 
President of the American Association of Museums. And I am a 
veterinary oncologist by training, not a lawyer, Mr. Chairman. 
I just want you to know.
    The American Association of Museums represents museums of 
all kinds, including the Manassas Battlefield and Park in your 
own district.
    Mr. Wolf. I love museums.
    Mr. Bell. It is a great museum. The Academy of Natural 
Sciences in Ranking Member Fattah's district, and the Houston 
Museum of Natural Science in Representative Culberson's 
district, all great museums.
    Mr. Wolf. I used to go to the Franklin Institute about four 
or five times a year. I love museums. I go to all the 
Smithsonian ones.
    Mr. Bell. Right. Well museums are very much involved in 
STEM education, which is the point here today, and I am here on 
behalf of the larger museum community, which includes the 
Association of Zoos and Aquariums, the Association of 
Children's Museums, the Association of Science Museum 
Directors, and the Association of Science and Technology 
Centers to request that the subcommittee continue making the 
critical investment in the National Science Foundation's 
Information Science Education Program, soon to be renamed the 
Advancing Information STEM Learning Program.
    This important program received $61.4 million in fiscal 
year 2012 and the President has proposed a 22 percent reduction 
for fiscal year 2013, which would turn the clock back on the 
urgent need to get our kids hooked on science.
    Our public education system is undergoing massive change 
and the growing consensus is that the future of education will 
be about helping kids develop a core set of skills which are 
critical thinking, the ability to synthesize information, 
creativity, collaboration, and the ability to innovate. And 
visiting a museum offers the perfect opportunity to develop 
those skills. And what better way to bring science to life for 
our young people than visiting a science center, a public 
garden, a zoo, or aquarium.
    In 2009 the National Research Council of the National 
Academies explored whether people learn science in non-school 
settings and the answer was a clear yes. They found that 
museums, science centers, zoos, aquariums, and environmental 
centers are places where people can pursue and develop science 
interests and engage in science inquiry. The study also found 
that informal learning in museums can have a significant impact 
on the science learning outcomes for those who are historically 
underrepresented in science.
    So a few examples of STEM education, a $3 million ISE grant 
supports Urban Advantage, a five-year collaboration that brings 
that Denver Museum of Nature and Science, the Denver Botanic 
Gardens, and the Denver Zoo, all accredited institutions, 
together with three local school districts to improve science 
literacy among middle school students. It provides hands on 
experiences, makes expert scientists available to teachers, 
students, and parents, and gets families involved in the 
learning process.
    In Philadelphia the AMA accredited Franklin Institute, and 
the Free Library of Philadelphia got a $1 million ISE grant to 
develop an innovative afterschool program that engages children 
and families in science and literacy. This program, called Leap 
Into Science, uses hands on activities to introduce science to 
a whole new generation and to make it fun. The program reaches 
diverse audiences and underserved families and makes science 
accessible to thousands of Philadelphians.
    In California $1.2 million ISE grant allows the 
Exploratorium in San Francisco to work with UC Santa Cruz and 
Kings College in London on a five-year project to shape the 
future of informal science education and prepare science 
educators to maximize the link between formal and informal 
science learning.
    Once again, I appreciate the opportunity to testify today. 
I encourage you to support NSF's Information Science Education. 
And I encourage you to do some field research in your districts 
by visiting some of the wonderful museums that you represent. 
And I am more than happy to help arrange any of those visits 
for you. So thank you very much for the opportunity.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Well thank you very much for your testimony. We 
appreciate it.
    Mr. Fattah. It is good to see you again.
    Mr. Bell. It is good to see you again.
    Mr. Culberson. Dr. Bell.
    Mr. Bell. Yes?
    Mr. Culberson. I promise to be as quick as I can, Mr. 
Chairman. You, the money is for conferences, symposium 
workshops, etcetera, bringing kids into the schools?
    Mr. Bell. Into museums to participate in museum programs, 
and those are often collaborative programs. As I said for 
instance in Denver with the zoo, with the library----
    Mr. Culberson. Okay. I will ask it another way. It seems 
like the kids could just get on a bus and do it. I mean, you 
know how devoted we are to NSF. But why could the kids not just 
get on a bus and come to the museum?
    Mr. Bell. Well the problem there is that the money for 
field trips has just about vanished in school districts today, 
which is a challenge that we face. So many museums are finding 
ways to actually go the schools, either electronically or by 
having programs carried to the schools and finding ways to 
reach out to them when they cannot come to the schools.
    Mr. Culberson. So this money is used to buy equipment that 
would allow you to do that?
    Mr. Bell. It is used to support, everything, whatever is 
needed to support the educational experience.
    Mr. Culberson. Thank you very much.
    Mr. Bell. Thank you.
    Mr. Wolf. Thank you. We are going to take a three-minute 
recess to clear the room and bring in the next group. Thank 
you.
    [Recess.]
    Mr. Wolf. Welcome, sir. Your full statement will appear in 
the record.
    Mr. Bujalos. All I have done is put a synopsis together 
rather than the entire statement. Because it----
    Mr. Wolf. Sure, that would be fine. Sure, whatever you 
think.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                 TRADE ADJUSTMENT ASSISTANCE FOR FIRMS


                                WITNESS

WILLIAM BUJALOS, DIRECTOR, MIDATLANTIC TRADE ADJUSTMENT ASSISTANCE FOR 
    FIRMS CENTER
    Mr. Bujalos. Thank you, Mr. Chairman, for this opportunity. 
I am Director of the Mid-Atlantic Trade Adjustment Assistance 
Center, serving New Jersey, Pennsylvania, Virginia, West 
Virginia, Maryland, Delaware, and the District of Columbia. We 
are a nonprofit, one of 11 that contract with EDA to manage the 
TAA for Firms nationally. I ask that Congress appropriate $16 
million in fiscal year 2013 for the national program.
    TAA for Firms focuses exclusively on small firms under 
existential threats from imports. Small, family owned companies 
that have existed for generations are forced to burn working 
capital in a vain attempt to remain competitive. By the time we 
see them they are reduced to fighting for survival with price 
reduction as the only tool left in their bag. In the aggregate 
prior to program entry MATAAC clients experience 20 percent 
sales drop, 10 percent productivity decline, 60 percent fall in 
earnings, and a more than 12 percent of the employees had been 
laid off. In a previous life we had a term for that, death 
spiral.
    Following program entry aggregated results show the breadth 
of the turn around. Both sales and productivity grew by half, 
earnings had tripled, and not only had the decline in jobs been 
stopped but 1.4 percent jobs had been created.
    Some in this building have claimed that we are consultants 
and that we grossly overcharge companies and that we have been 
known to charge exorbitant overhead rates of 60 percent of 
grant funding. Or that a high percentage of the firms assisted 
wind up going out of business anyway. None of that is true.
    TAAF is not a consulting firm. It does not sell consulting 
time to keep its staff busy. It does not sell anything. We do 
not use the people's money to compete against the private 
sector. We do not pick up the pieces after catastrophic layoffs 
have already occurred and try to create new careers out of 
whole cloth. Our job is to prevent catastrophe in the first 
place. It is a lot cheaper.
    And as for overhead and sustainability issues, consider the 
following. One, rather than cover several counties with a staff 
of as many as ten or more MATAAC covers six states with a staff 
of four, resulting in an overhead rate of just 16 percent. In 
other words, 84 cents out of every dollar expended hits the 
street. And 98 percent of the firms assisted are still in 
business five years after program entry. And half of the ones 
not in business do not go out of business, but they are 
acquired.
    TAA for Firms is an accelerator, providing the wherewithal 
for small enterprises to do what they otherwise would have put 
off until tomorrow, namely upgrade their global competitiveness 
and do it now. And here is the kicker. Firms have considerable 
skin in the game, with a dollar for dollar match TAAF leverages 
their own investment in their own turn around. Private sector 
consultants are jointly hired to implement a chain of knowledge 
based projects to reverse weaknesses.
    Each firm is unique, but there are commonalities. The 
typical small business owner can be the firm's CEO, COO, CFO, 
and at times even its janitor. But their main concern is simply 
whether or not they will be able to make payroll by Thursday 
afternoon.
    During the past five years TAAF's total funding amounted to 
$71.2 million and we face a backlog of approved but unfunded 
assistance of $26 million.
    Program outcomes nationally speak for themselves. During 
the past five years 952 firms were assisted. Aggregate results 
since entry are 4 percent job growth, 26 percent sales growth, 
21 percent productivity growth, and the program returned more 
than $14 in tax receipts for each dollar invested.
    Mr. Chairman, I realize these numbers may seem heroic to 
some. That does not make them wrong. I believe they suggest 
that TAAF works. This program is small, agile, precise, and 
effective. Perhaps some day we can get serious about 
revitalizing the small business sector and when we do it could 
possibly be considered a model of choice. I thank the committee 
for giving me this opportunity.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much for your testimony. Mr. 
Fattah.
    Mr. Fattah. Thank you for your work, and thank you for your 
testimony.
    Mr. Bujalos. Thank you, sir.
    Mr. Culberson. Very quickly, I wanted to ask is the Trade 
Adjustment Assistance a direct grant to a company? Or it looks 
like you are saying here that the money is used to jointly hire 
third party private sector and consultants. Is it a cash grant 
to the company or to hire consultants?
    Mr. Bujalos. It is a cash grant credited to the company, 
but the actual physical money is used to pay the consultant, an 
arms length relationship consultant. The company pays half of 
that and I pay half of that.
    Mr. Culberson. Okay. And who picks the companies that 
participate in the Trade Adjustment Assistance program? Your 
organization does, for the states that you administer?
    Mr. Bujalos. No, we rely on word of mouth. We present a lot 
of what we do to banking consortiums, to consulting 
consortiums, to trade associations, that sort of thing. Word of 
mouth, and a lot of consultants, and former clients will call 
friends of theirs saying, you know, if you are having problems 
you might want to call MATAAC and get them to take a look at 
what----
    Mr. Culberson. Okay. And the program has been around, Trade 
Adjustment Assistance has been around for how long?
    Mr. Bujalos. Thirty-plus years.
    Mr. Culberson. Thirty-plus years.
    Mr. Bujalos. It was part of the Trade Act----
    Mr. Culberson. To hire consultants.
    Mr. Bujalos. See what we do is we use public money to hire 
private sector consultants. The client also hires, jointly with 
us, those same consultants. And those consultants then 
implement a chain of knowledge based projects over a period of 
years to reverse the weaknesses that we notice and increase 
their competitiveness.
    Mr. Culberson. Okay. I personally question whether that is 
a valid federal role. I would rather do it through the tax 
code, and through tariffs on Chinese dumping products, and 
protecting American intellectual property by hammering the 
communist Chinese for stealing every piece of intellectual 
property they can lay their hands on, and big tax breaks for 
small businesses. Thank you.
    Mr. Bujalos. Thank you.
    Mr. Wolf. Thank you, sir. Next witness, Kristen Fletcher, 
Coastal States Organization. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                            FUNDING FOR NOAA


                                WITNESS

KRISTEN FLETCHER, EXECUTIVE DIRECTOR, COASTAL STATES ORGANIZATION
    Ms. Fletcher. Thank you. Good afternoon, Mr. Chairman, and 
members of the subcommittee. My name is Kristen Fletcher and I 
am Executive Director of the Coastal States Organization. CSO 
represents the governors of the nation's 35 coastal states on 
the sustainable management of ocean, coastal, and Great Lakes 
resources. Thank you for the opportunity to testify today on 
behalf of the states on funding priorities for fiscal year 
2013.
    CSO supports the following funding levels within NOAA, our 
essential federal partner in the national effort to sustainably 
manage the coasts. CSO's requests for fiscal year 2013 are 
Coastal Zone Management Program at $67 million; the Coastal and 
Estuarine Land Conservation Program at $20 million; regional 
ocean partnerships at $10 million; and the National Estuarine 
Research Reserve System at $22.3 million.
    These programs are part of the critical framework for our 
coasts, upon which we rely for commerce, recreation, energy, 
and natural resources. They are a small portion of NOAA's 
overall budget but provide dramatic results in coastal 
communities. This is a good federal investment. These grants 
are matched by the states and they are leveraged with private 
and local funds.
    Of continuing concern to CSO for NOAA is the increasing 
budgetary demands of satellites and weather service taking 
priority over and essential funding from NOAA's other core 
missions, including marine and coastal resources, habitat 
protection, and the technical capacity to support these efforts 
on the ground. NOAA has a two-part responsibility. Part one is 
gathering the data, and part two is making this data relevant 
and usable for decision makers. These state-federal 
partnerships keep NOAA's valuable information systems relevant 
on the ground.
    Though federal funding does not reflect it, the oceans and 
coast provide an irreplaceable contribution to our nation's 
economy with sectors including transportation, tourism, 
aquiculture, energy, and living marine resources. The ocean 
based sector alone provides $138 billion to the U.S. GDP. It is 
estimated that the annual contribution of coastal counties is 
in the trillions of dollars.
    Today the demand on coastal resources, combined with an 
increase in natural hazards and more intense storms, means we 
are in danger of losing those resources. Failure to invest in 
these key programs now means a greater economic investment in 
the future, likely at a point of crisis.
    I want to offer a couple of examples of the difference that 
this federal funding makes to coastal communities and its 
citizens. In 1999 the Virginia coastal program initiated oyster 
restoration efforts using federal and state funds to construct 
more than 80 sanctuary reefs and 1,000 acres of harvest area. 
In 2007 as the oysters were recovering the program created an 
innovative rotational harvest and buy back program for large 
oysters. This investment provided a huge payoff, from 23,000 
bushels worth about half a million in 2001 to 236,000 bushels 
worth over $8 million in 2011. This could not have been 
possible without leveraging federal and state funds.
    In Pennsylvania the state continues to open its coastline 
to public access through federal coastal funding. In 
Philadelphia the previously dilapidated Race Street Pier was 
rehabilitated to provide a new public space which now hosts an 
average of 1,800 weekly visitors. In Pennsylvania's Lake Erie 
coastal zone the program is funding construction of the Liberty 
Park Fishing Pier in Presque Isle Bay. The new pier, deck, and 
walkway enhance Erie's $36 million sport fishing industry and 
provide new opportunities for local inner city youth.
    There are stories like this around the country, showing the 
on the ground investment these federal funds make possible. CSO 
appreciates the subcommittee's past support to care for the 
nation's coasts. We appreciate your consideration of our 
requests as you move forward in this fiscal year 2013 
appropriations process.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Thank you very much for your testimony. Mr. 
Fattah.
    Mr. Fattah. Thank you for your testimony.
    Ms. Fletcher. Okay, thank you.
    Mr. Wolf. Our next witness will be Billy Frank, Chairman of 
the Northwest Indian Fisheries Commission.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                            FUNDING FOR NOAA


                                WITNESS

BILLY FRANK, CHAIRMAN, NORTHWEST INDIAN FISHERIES COMMISSION
    Mr. Frank. Thank you, Mr. Chairman, for allowing us here in 
the subcommittee to make our testimony. My name is Billy Frank, 
Chairman of the Northwest Indian Fisheries Commission. The 
Northwest Indian Fisheries Commission comprises of 20 tribes 
that are part of the United States v. Washington and possess 
treaties that reserve fishing rights, hunting, and gathering 
rights. I am here today speaking on behalf of our member tribes 
that comanage a natural resource in Western Washington with the 
state and federal government.
    The tribes ceded millions of acres to the United States 
through treaties in which they reserved the right to fish, 
hunt, gather in traditional areas. These treaty rights are 
constitutionally protected and are the law of the land. Today 
we find that our treaty rights are at grave risk. They are at 
risk because of the diminishing salmon population which 
threatens to eliminate our right to harvest. All of this is due 
to the inability to restore salmon habitat faster than we are 
being destroyed.
    Our treaty rights require that there be fish available to 
harvest. We have respectfully called on the federal government 
to implement their fiduciary duties by better protecting salmon 
habitat. The federal government has no trust responsibility to 
tribes to protect these treaty rights by fulfilling these 
federal obligations and implementing requested changes. I have 
no doubt that we will recover the salmon population. It is 
imperative that we are successful with this initiative as 
salmon are critical to the tribal culture, tradition, and our 
economics.
    This leads to the full funding request that we wish to 
bring to your attention today. Number one is the request that 
NOAA's Pacific Coastal Salmon Recovery Fund be funded at $110 
million. These funds are critical for restoring salmon habitat 
and protecting our treaty rights. The Pacific Coastal Salmon 
Recovery Fund is a multistate, multitribe program established 
by Congress with the goal of recovering the salmon throughout 
the Pacific Northwest and Alaska. The tribe's objective is to 
protect and restore important habitat that promotes and 
recovers the endangered species as they are listed, and other 
salmon population in Puget Sound and other Pacific coast.
    Number two, we request that NOAA's regional partnership 
grants program be funded at $20 million. The Hoh Tribe, Makah 
Tribe, Quileute Tribe, and the Quinault Indian Nation have deep 
connections at the marine resource off the coast of Washington. 
They have pioneered cooperative partnerships with the State of 
Washington and the federal government in the effort to advance 
the management practice in the coastal waters.
    Number three, we request that NOAA's budget include $3 
million to support the Pacific Salmon Treaty. These funds are 
important for the implementation of our annex to meet the goals 
of the international treaty with Canada and to protect and 
restore our salmon resources. These funds would support the 
coast and coded water tagging and the Pacific salmon critical 
stock augmentation programs. Both of these programs are 
important.
    Number four, we request that $16 million be included in 
NOAA's budget for the Mitchell Act Hatchery Program. Salmon 
produced by the Mitchell Act hatcheries on the Lower Columbia 
River are critically important because they provide significant 
harvest opportunities for both Indian and non-Indian fisheries 
off the coast of Washington. The hatchery production is 
intended to mitigate for the lost production caused by the 
hydropowered dam system at the Columbia River. This hatchery 
production is also important in the impact of the Canadian 
fishery under the terms of the Pacific Salmon Treaty, Chinook 
Annex on Puget Sound, and coastal stocks.
    In conclusion, we again thank you for the opportunity to 
inform you of our priorities and discuss how the committee can 
help. We know that you are facing serious budget challenges but 
the issues we have brought before you today are vitally 
important to the tribes and their treaty rights, and require 
the partnerships with the federal government to protect and 
restore our great natural resource. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Culberson [presiding]. Thank you very much, Mr. Frank, 
and for your leadership, obviously, and protecting the rights 
of the people that you represent it looks like for many, many 
years. And thank you for being here with us today.
    Mr. Frank. Thank you.
    Mr. Fattah. Thank you. I am very concerned about the issues 
that you have raised and we are going to work hard to make sure 
that we can respond appropriately. Thank you.
    Mr. Culberson. We do appreciate it, sir. And particularly 
appreciate the time and trouble you took to be with us today. 
And we are all keenly interested in protecting the environment 
and fishery stocks. Thank you very much, sir.
    Mr. Frank. We come here every year.
    Mr. Culberson. Thank you. Thank you very much.
    Mr. Frank. I see my friends here.
    Mr. Culberson. We are delighted to have with us our friend 
from, representing one of those beautiful stretches of 
coastline of the United States, Congressman Sam Farr with whom 
I have the pleasure to serve on another subcommittee of this 
great committee.
    Mr. Farr. Well thank you, Mr. Chairman. I did not know you 
could be chairman of two committees. That is quite a treat.
    Mr. Culberson. If I could just figure out how they would 
also let me serve on one of the authorizing committees, like 
Judiciary.
                              ----------                              

                                          Thursday, March 22, 2012.

                            FUNDING FOR NOAA


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Farr. It is a pleasure to be with my colleagues on the 
Appropriations Committee. I come here every year, and I am sad 
that Chairman Mr. Wolf is not here. But I am glad that you are 
in his footsteps, and my friend Chaka Fattah. Let me start off. 
You have an enviable role. This committee has responsibility 
for essentially not only the space sciences but the global 
sciences, the Earth sciences. And if you look behind you at the 
map that is up there, 73 percent of that map is water, ocean 
water. And what nobody knows is that of all the countries, none 
has more responsibility for the oceans than the United States 
because of our exclusive economic zones. We have members of 
Congress that are representing the South Pacific Islands, and 
we have exclusive jurisdiction around those islands. If you add 
up all that territory in the Pacific that we are responsible 
for, plus our coastal jurisdictions of 200 miles, and compare 
it to any other country in the world, we have more area.
    The problem is, because we are so excited about our space 
travel and our space interests, when you compare the amount of 
money we are putting into NASA versus NOAA, and then what NOAA 
puts into weather versus ocean, the lowest priority in the 
pecking order is the ocean. And yet, our survival as human 
beings on this planet depends on the health of the oceans. And 
the people behind me know this better than I do, and still they 
come here every year. And they have said the oceans are dying. 
And the oceans are dying because we have dumped everything that 
we do not want into the oceans. At the same time we take things 
out to feed us. Now we are finding that the things that we are 
taking out to eat are contaminated by the things we have dumped 
in.
    So we have got to stop this process of killing the ocean. 
Because if we kill the ocean we kill mankind. NOAA will tell 
you, the weather folks, that the weather is initiated by ocean 
currents and atmospheric conditions, that is what creates the 
El Ninos and so on.
    So I am coming here to tell you that even the President's 
budget is not adequate. I know it is a zero sum game, you have 
to rob Peter to pay Paul, and you are probably going to be hit 
with a number that is lower than the President's request--I 
have to do the same thing on the committees that I am on and 
ranking, on Ag and FDA.
    I have made 31 requests. I am not going to go over the 
list. But it probably represents almost everybody who is 
sitting behind me. Essentially really asking that we put this 
budget back into a bigger perspective than it is in. The ocean 
is an economic engine. The great economic territory in 
California is the coastal zones. It is where most people live, 
it is where most industry does business. If you add all the 
shipping that comes from the seas you end up realizing that our 
coastal and ocean dependent industries--in construction and 
tourism, recreation, medical--depend on healthy oceans. 
Pharmaceutical research is going to the oceans to learn because 
the ocean is a lot older than terrestrial beings. Organisms 
have developed enzymes and immune systems that we have not 
discovered on land yet. Our national security, which obviously 
we are all interested in, is related to the oceans. 
Transportation, and other sectors.
    So I am here to just tell this committee that the continued 
cuts in NOAA are disproportionately higher than anyplace else. 
The one that shocks me most, which you both know well, is the 
NOAA's investment in education. If indeed we are going to show 
that the oceans are dying, and we have got this tsunami 
bringing--the Japanese tsunami bringing all this gear we have 
got to clean up, we have not figured out a way, we have not 
even authorized the Ocean Clean Up Bill.
    NOAA's cut to education has been 75 percent since 2010. 
Those are grants that go to the BWET program, the minority 
education programs.
    Mr. Culberson. Which category, Sam, has been cut by 75 
percent?
    Mr. Farr. NOAA's Office of Education.
    Mr. Culberson. Oh, okay.
    Mr. Farr. It has been cut by 75 percent since 1910, excuse 
me, 2010. Also, in the critical fisheries habitat, which is so 
important to the economy that you have been hearing about, 
salmon recovery and so on, restoration programs, they have been 
cut by 25 percent, 27 percent. And that is an industry that is 
dependent on healthy, abundant fish stocks, habitats and 
ecosystems. They support 1.5 million jobs, $183 billion in 
sales, and $79 billion in GDP in 2010 and we cut it 27 percent.
    Habitat Conservation should be part of the President's Jobs 
Bill, it supports jobs. Your committee has a tough job and I do 
not envy you in this. But I am just asking this committee to 
have some passion for the oceans. We put passion in space. And 
if we just had a, just think, it was $17 billion. I just, our 
Ag Committee, the whole responsibility for discretionary 
funding in agriculture is $20 billion. NASA gets $17 billion. I 
mean, it seems to me a little bit of NASA going into NOAA would 
help us a lot. Thank you very much.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Culberson. Thank you, Sam.
    Mr. Farr. Thank you.
    Mr. Fattah. Thank you, Sam.
    Mr. Farr. Call me if you have any questions.
    Mr. Culberson. Yes, we are going to also need your help 
with the sciences in general, protecting the sciences, NASA, 
NOAA, all of it. Because we are going to have to firewall all 
of them.
    Yes, sir. Mr. Pierluisi, please.
    Mr. Pierluisi. Thank you.
    Mr. Culberson. Delighted to have you with us. Thank you 
very much.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    Mr. Culberson. I look forward to your testimony.
                              ----------                              

                                          Thursday, March 22, 2012.

                              PUERTO RICO


                                WITNESS

HON. PEDRO PIERLUISI, A REPRESENTATIVE IN CONGRESS FROM PUERTO RICO
    Mr. Pierluisi. Mr. Chairman, Ranking Member Fattah, and 
members of the subcommittee. Thank you for giving me the 
opportunity to testify about the 2013 CJS Appropriations Bill. 
I have submitted a number of requests to the subcommittee. For 
example, under NOAA's ORF account I am asking the subcommittee 
to fund the National Tsunami Hazard Mitigation Program at the 
fiscal year 2012 enacted level.
    I want to thank the subcommittee, and especially Chairman 
Wolf, for including language last year that requires NOAA to 
prepare a report detailing its capacity to predict tsunamis in 
the Caribbean and that requires the agency to accelerate its 
Tsunami-Ready program in Puerto Rico and the U.S. Virgin 
Islands. Tsunamis pose a major threat to my constituents and I 
look forward to continuing to work with you to ensure that they 
are adequately protected.
    I am also asking the subcommittee to provide an additional 
$3 million above the President's request to enable the Coral 
Reef Conservation Program to continue its support for 
competitive applied research necessary to protect our coral 
reefs. If the subcommittee is unable to plus up the Coral Reef 
Conservation Program for this purpose, then I respectfully ask 
that as an alternative the subcommittee provide enough funding 
for the Cooperative Institute's budget line under OAR to enable 
NOAA to establish a cooperative institute dedicated to coral 
reef research.
    Notwithstanding the importance of these requests, Mr. 
Chairman, I want to focus my testimony on the public safety 
crisis in Puerto Rico and the U.S.V.I. and the important role 
this subcommittee can play in relieving that crisis.
    Violent crime in Puerto Rico and the U.S.V.I. has been on 
the rise since the year 2000 even as violent crime nationwide 
has decreased substantially. The homicide rate in each 
territory is approximately six times the national average and 
nearly three times higher than any state. To put this in stark 
terms, Puerto Rico has nearly the same number of annual murders 
that Texas does, even though Texas is home to 25 million people 
and Puerto Rico is home to fewer than 4 million people.
    There are a number of factors that have contributed to this 
spike in violence. But perhaps the most important is 
geopolitical. As the U.S. government has increased resources 
along the southwest border and provided substantial funding to 
Mexico and Central American nations through the Merida 
Initiative, drug trafficking organizations have returned to 
well established routes through the Caribbean to get their 
products to market. According to estimates, three-quarters of 
the murders in Puerto Rico and the U.S.V.I. are linked to the 
drug trade. This is a problem of national, not simply regional, 
scope. According to briefings provided to my office, 70 percent 
to 80 percent of the cocaine that enters Puerto Rico is then 
transported to the U.S. mainland. Because Puerto Rico is an 
American jurisdiction, once drugs enter the island they are 
easily delivered to the states through commercial airlines and 
container ships without having to clear customs or otherwise 
undergo heightened scrutiny. Once in the states those drugs 
destroy lives and communities, especially along our nation's 
eastern border.
    Indeed at a recent Judiciary Committee hearing, Attorney 
General Holder called drug related violence in Puerto Rico and 
the Virgin Islands a national security issue that we must 
confront.
    And Senator Rubio, at a December 15 hearing, stated that if 
Jacksonville, Florida, were experiencing the same level of 
violent crime as Puerto Rico, people would be screaming about 
it right now. Mr. Chairman, I believe the Federal government 
can work closely with its local partners to do more to reduce 
the supply of drugs that enter American jurisdictions in the 
Caribbean and to reduce the violence that accompanies those 
drugs. That is why Governor Luis Fortuno, a Republican, and I, 
a Democrat, have jointly proposed that the administration 
establish a Caribbean Border Initiative modeled on the 
successful Southwest Border Initiative.
    In light of the foregoing, my specific request for this 
year are the following. First, I ask the Subcommittee to fund 
the salaries and expense accounts for the FBI, DEA, and ATF at 
levels that will enable them to increase their resources and 
personnel in the U.S. jurisdictions in the Caribbean, at least 
on a temporary basis, but preferably on an enduring basis.
    Second, I ask the Subcommittee in its report to accompany 
the bill, to direct these DOJ component agencies to make the 
reduction of drug related violence in Puerto Rico and the 
U.S.V.I. a national priority, just as we have rightly made the 
reduction of drug related violence along our southwest border a 
national priority. It is my firm belief that these agencies 
require additional direction and resources from Congress to 
spur them into action.
    And, third, I ask the Committee to provide robust funding 
for the critical COPS and Byrne/JAG grant programs which have 
done so much to prevent and fight crime in Puerto Rico and 
other U.S. jurisdictions. That concludes my testimony. I know I 
have run out of time here and I appreciate the courtesy. Thank 
you very much for listening and I'll be glad to answer any 
questions you may have.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Culberson. I believe it would be the FBI to make sure 
that we've got adequate law enforcement, federal, ATF, DEA, 
FBI, tip of the spear law enforcement is where you really need 
the help.
    Mr. Pierluisi. Yeah. And it could be on a temporary basis. 
What I'm talking about is promoting special details. I mean, we 
are undergoing a crisis down there. As I said, Attorney General 
Holder has confirmed it, views it as a national security issue. 
Senator Rubio, Senator Menendez. It's bipartisan. Senator Rubio 
has basically said this is outrageous. We need to pay attention 
to this. This is a domestic responsibility. You're not talking 
about a foreign country. And even you're talking about American 
citizens for starters.
    But on top of it, it makes no sense. I am a former Attorney 
General of Puerto Rico. I was the Attorney General in the mid-
1990s when Puerto Rico got designated as a high intensity drug 
trafficking area. I was the one who requested it. And it's 
amazing that we are pretty much in the same place we were back 
then, even though crime went down.
    Somewhere in there, Puerto Rico lost priority in the 
Federal realm. We started looking at the Mexican border, which 
is fine. I'm not saying that we shouldn't be devoting attention 
to that border, but we lost sight of the fact that this is like 
a balloon effect. If you simply closed that border, they simply 
changed routes. It's a moving target.
    So it makes sense to make sure that we have an initiative 
for the Caribbean, that we encourage the agencies within their 
resources. I'm not talking about necessarily increasing the 
appropriations as a whole, but telling you need to prioritize. 
It is like any management decision.
    Mr. Culberson. Sure. I just want to reiterate for the 
chairman, in particular, you said right before you came in that 
you wanted to see more FBI, ATF, DEA. And, also, the murder 
rate, I was unaware of this in Puerto Rico, is equal to the 
State of Texas, which is extraordinary and really tragic that, 
I mean, 25 million people in Texas and we have concealed carry 
and deal with a lot of it ourselves and it keeps the murder 
rate down, in fact. And so it's a problem.
    Also, human smuggling is a terrible problem in Puerto Rico, 
Mr. Chairman. And something else that the smugglers have 
figured out is that they can sneak into the United States not 
only drugs, but people. And, potentially, terrorists coming 
through Puerto Rico, because when they land in Puerto Rico, 
they're in.
    Mr. Pierluisi. I tell you, I've had private briefings with 
all of the--the DEA administrator, the head of ATF. All of them 
have come to my office. And what I'm telling them is we need to 
do everything we can to seal Puerto Rico on the way in, as well 
as on the way out.
    The drugs come in. We have 300 miles of coast. We have a 
very busy port and a major airport, so we need to cover those. 
But, also, on the way out because the drugs come in and, 
basically, 70 to 80 percent of those drugs end up in the 
mainland. So we need to seal the airport and the seaports as 
much as we can on the way up to the U.S. mainland.
    If we do that, violence will come down. I guarantee it. And 
we're helping our own communities up in the mainland, as well, 
because these drugs end up in the markets on the eastern 
border, on the east coast of the U.S. primarily.
    Mr. Fattah. Thank you for your testimony. Let me say that 
I'm speaking for the Chairman. I know you will get some of the 
help that you need and I think it's reasonable because the 
Chairman will help direct some of our federal law enforcement 
agencies in your direction. Thank you very much.
    Mr. Pierluisi. Thank you.
    Mr. Wolf. Well, I apologize for not being here. I was 
outside with a group from my district. I'll take a look at your 
testimony, but we'll try to work together.
    Have they put together a task force? We had a major gang 
problem in my area. Major. We put together a task force, FBI, 
DEA, ATF, Marshals Service, all of the local police. They meet 
at one locality. Is there anything special being done?
    Mr. Pierluisi. Yes.
    Mr. Wolf. I mean, is there a federal coordinator? Have they 
said to you it's nice talking to you, I'll look at it? Or did 
they say, okay, we're going to come in for 90 days.
    We had a problem here in the District of Columbia about ten 
years ago. We called the FBI, the DEA, ATF, Marshals Service, 
the police chief and we had to put teams in. We just hit it and 
hit it and hit it and hit it. And it dramatically dropped it 
down. Now, you know, if you read the papers, unfortunately, 
it's beginning to come back.
    But is there anything special being done by the FBI, DEA, 
ATF?
    Mr. Pierluisi. There are multiple task forces. The latest 
one has to do with prosecuting individuals who commit crimes 
with illegal guns, violent crimes. In federal court, our local 
prosecutors are the ones acting as special assistant U.S. 
attorneys, so it's pretty creative. For investigative purposes, 
our local police is providing personnel to ATF, actually, to 
support what ATF is doing on those cases.
    But there are many examples. There's a High Intensity Drug 
Trafficking Area program, and there are other task forces. They 
are working well, but we cannot do simply more of the same. We 
need to come in with special details, like you just mentioned, 
Mr. Chairman, additional resources until this crisis----
    Mr. Wolf. Well, why don't you call us and we can set up a 
meeting. Probably get the FBI, DEA, ATF, and Marshals Service 
in and see if there are some creative thought or idea. So why 
don't you be in touch with the Committee and we can work it 
out.
    Mr. Pierluisi. I will.
    Mr. Wolf. Thank you very much.
    Mr. Pierluisi. Thank you so much.
    Mr. Wolf. Thank you. Jason Patlis, President and CEO, 
National Marine Sanctuary Foundation.
                              ----------                              

                                          Thursday, March 22, 2012.

                  NATIONAL MARINE SANCTUARY FOUNDATION


                                WITNESS

JASON M. PATLIS, PRESIDENT AND CEO, NATIONAL MARINE SANCTUARY 
    FOUNDATION
    Mr. Patlis. Good afternoon, Mr. Chairman and Ranking 
Member, and members of the Subcommittee. I thank you for the 
opportunity to testify today in support of a robust and capable 
National Marine Sanctuary System.
    My name is Jason Patlis and I'm here today on behalf of the 
National Marine Sanctuary Foundation. Our national marine 
sanctuaries, and I know this Subcommittee knows them well, are 
those places that define our American ocean. They include the 
wreck of the Civil War USS Monitor, which this year is 
celebrating its 150th anniversary off of the coast of North 
Carolina. They include the vibrant coasts, corals, and the Gulf 
of Mexico's flower garden banks off the coast of Texas, and 
they include traditional ocean recreation destinations like 
George's Graves Reef, Monterey Bay, represented by Congressman 
Sam Farr, and Washington's Olympic Coast. These are American 
icons. And they represent our national heritage at sea.
    If I may, I've got three points I'd like to make in this 
testimony. The first is that we are deeply, deeply concerned by 
the President's fiscal year 2013 proposal to terminate all 
funding, basically zero out the National Marine Sanctuaries, 
the PAC funds, the procurement line item which includes vessel 
acquisitions and visitor center construction.
    This would result in multiple unfinished construction 
projects all across the system, including one in the Presidio 
at Crissyfield, which is headquarters for Fairlawn's national 
marine sanctuary. And this year, in particular, in San 
Francisco, which will be hosting the America's Cup, the city 
expects to see more than five million people descend upon the 
San Francisco waterfront. The newest building in the Presidio 
is 74 years old, so you can imagine the renovation needs that 
are there, including for the site headquarters.
    An example to relate to that, imagine a building 
constructor, a building developer, having construction projects 
throughout a system, have all of that funding pulled out and 
housing in various stages of completion come to a grinding 
halt. That's what the sanctuary system is looking at by losing 
its PAC funding.
    At the same time, that termination would also prevent NOAA 
from acquiring vessels necessary for core research, education, 
and law enforcement missions within the sanctuary system. Those 
cannot be accomplished by land alone, and imagine, again, 
looking at a land example, a land manager not having vehicles, 
not having cars and trucks to conduct its business and do its 
enforcement. That's what the sanctuary program is looking at if 
PAC funding is zeroed out. PAC funds support direct job 
creation and economic growth through the construction and 
operation of vessels, incentives, and other facilities and I 
really urge you to oppose the President's request to zero out 
that line item.
    Second, experience shows that sanctuaries are vital to 
maintaining a healthy balance across our coasts and the return 
on the investment is huge. My written testimony includes a 
number of examples. I'll mention just a two here. Off of 
Massachusetts, Stowag and Bank, taxpayers put in $2 million 
annually and the return is $126 million through the tourist 
industry and commercial whale watching, which is the single 
biggest whale watching destination in the country. Down in 
Monterey Bay on the West Coast, taxpayers put in $3 million. 
The return on investment there for research and education 
industry along that coast of California, they see 2,100 people 
employed and a budget of $291 million. And that's 2012 figures.
    My third point is that I am representing these views not 
only on behalf of the National Marine Sanctuary Foundation, but 
on behalf of the national network of site based groups across 
the country that represent individual sanctuaries. Together we 
represent the national network in support of a robust sanctuary 
system, which really anchors the strength of the economy and 
the culture of our coastal communities across the country. 
Thank you very much.
    Mr. Wolf. Thank you very much for your testimony. Mr. 
Fattah.
    Mr. Fattah. Thank you for your testimony.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Next, William Chandler, National Marine 
Conservation Institute.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                 NATIONAL MARINE CONSERVATION INSTITUTE


                                WITNESS

WILLIAM CHANDLER, NATIONAL MARINE CONSERVATION INSTITUTE
    Mr. Chandler. Thank you, Mr. Chairman, Mr. Ranking Member, 
and members of the Subcommittee. My name is William Chandler. I 
represent Marine Conservation Institute, a nonprofit 
conservation organization based in Bellevue, Washington.
    First, I'd like to thank the Subcommittee for approving a 
$48 million increase for ocean conservation programs during the 
fiscal year 2012 process. I realize the Subcommittee faces 
another tough challenge this year, trying to fund both the 
increasingly expensive satellite program and NOAA's 
conservation programs.
    As budget cutting pressures continue, we, along with others 
in the conservation community, are frankly concerned and we do 
not want to see the satellite program basically displace other 
important needs within NOAA. So this is one problem I'd like to 
call to your attention. And I think this echoes remarks of Mr. 
Farr, the ones he made earlier today. We believe that, to cover 
all bases, if the Committee could see its way to put out a $5.3 
billion appropriation bill for NOAA, that would do that this 
year. And that is what we are recommending. This would pay for 
all of those things and restore the ocean and coastal programs 
to their 2010 level. Those programs, by the way, have been cut 
14 percent since then. They suffered a 14 percent decline.
    I'd now like to highlight a couple of NOAA's conservation 
programs that need and deserve more funding. You already heard 
about the marine sanctuaries. We recommend the program also be 
funded at $54.5 million, including $5 million for the 
construction account.
    I should note that NOAA proposed to merge the marine 
protected areas program into the sanctuaries program this year. 
If this merger were to occur, we recommend that a sum of money 
also go with that merger, which is not the case at the moment. 
They are only transferring the FTEs over to the sanctuary 
program with no additional budget.
    Second, the Hawaiian monk seal found only in Hawaii is one 
of the most endangered marine mammals in the world. As you 
know, I have testified on this before. It has been 
conservatively estimated that 30 percent of all the seals alive 
today are alive because of the actions of NOAA and its partners 
in Hawaii.
    We definitely appreciate the Subcommittee's past support 
for the seal recovery program and we are now asking for your 
help again. The recovery program has been severely cut from a 
level of about $5.5 million in the 2010, which you all 
approved, to $2.7 million in the 2013 request. This reduction 
has significantly reduced NOAA's capabilities to do management, 
public education, and outreach. It will also hold back an 
innovative program that they want to implement beginning this 
year to start moving seals around where they can get healthier 
in one place and then be moved back to another place. Its 
experimental, but it's very important for the survival of the 
species.
    We request that the Committee provide $5.5 million this 
year for the monk seal recovery program. And I should say that 
the Marine Mammal Commission and the monk seal recovery team 
have both expressed concerns about the inadequate funding the 
program is now suffering.
    Finally, marine debris, another subject we have discussed 
before before the Subcommittee. We support the President's 
request of $5 million for the program in 2013. NOAA proposes to 
relocate the debris program from NOS to the National Marine 
Fisheries Service.
    We recommend the program is best served staying within the 
National Ocean Service. Its current placement allows the 
program to leverage resources available to the Office of 
Response and Restoration. It also facilitates partnerships with 
fishermen in the fishing industry in a non-regulatory setting, 
which they have to face over in the National Marine Fisheries 
Service. That concludes my testimony, Mr. Chairman, and thank 
you for your time and I appreciate your continued interest in 
NOAA's conservation programs.
    Mr. Wolf. Thank you very much, Mr. Chandler. Mr. Fattah.
    Mr. Fattah. I want to thank you for your testimony, Mr. 
Chandler. I have to step outside and take a meeting, but if I 
could have the gentleman from Texas represent my side----
    Mr. Culberson. Sure.
    Mr. Fattah [continuing]. In my absence.
    Mr. Culberson. I'll look after you. I know that the press 
picks up any disagreement they perceive, but we agree 99 
percent of the time.
    Mr. Culberson. Especially on this.
    Mr. Wolf. That shows tremendous confidence. Or 
recklessness. One or the other.
    Mr. Culberson. Very quickly. The tsunami in Japan I 
understand has created a debris field the size of Delaware or 
some extraordinary massive route. But the debris is now north 
of Hawaii----
    Mr. Chandler. That's right.
    Mr. Culberson [continuing]. And heading towards the coast 
of California.
    Mr. Chandler. That's correct. I think they are predicting 
around a thousand tons of debris are eventually going to hit 
somebody's shore. I don't think it's quite arrived in the 
northwestern Hawaiian Islands at the moment, but there's a lot 
of stuff floating around out there.
    Mr. Culberson. I think there's far more than a thousand 
tons. The reason I mention it, Mr. Chairman, is because I think 
this is going to be a significant problem for the entire 
northwest, maybe for the people of Hawaii. A huge problem.
    Mr. Chandler. Absolutely.
    Mr. Culberson. Automobiles, houses, bodies. It's apparently 
an unbelievable, terrible ecological disaster headed towards 
us.
    Mr. Chandler. Absolutely. And that's another reason to fund 
the marine debris problem. Hawaii suffers terribly from marine 
debris because it sort of acts like a filter before the stuff 
gets across the Pacific. But it's quite possible some of that 
stuff will show up on west coast shores, as well.
    Mr. Culberson. Like within the next year or two.
    Mr. Chandler. Within the next year or two, sir.
    Mr. Culberson. Okay. Isn't it also true that part of the 
reason the salmon population hurt is there has been tremendous 
growth in marine mammal populations, the sea lions off the 
coast of California have been reproducing in great numbers, the 
sea lions, and nobody can hunt or do anything about it? They 
are eating salmon. And I see a head nodding behind you.
    Mr. Chandler. I'm not an expert on that issue, Mr. 
Culberson, but it is a fact that some sea lions will stake out 
places where they can eat fish. There's no doubt about that.
    Mr. Culberson. There are record populations of sea lions on 
the coast, maybe one of the things that's pertinent to you 
guys. Thank you very much.
    Mr. Chandler. Thank you, sir.
    Mr. Wolf. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Arturo Vargas, National Association of Latino 
Elected and Appointed Officials.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

     NATIONAL ASSOCIATION OF LATINO ELECTED AND APPOINTED OFFICIALS


                                WITNESS

ARTURO VARGAS, EXECUTIVE DIRECTOR OF THE NATIONAL ASSOCIATION LATINO 
    ELECTED AND APPOINTED OFFICIAL EDUCATIONAL FUND AND CO-CHAIR OF 
    CIVIL AND HUMAN RIGHTS CENSUS TASK FORCE
    Mr. Vargas. Thank you, Mr. Chairman and Mr. Culberson. I'm 
Arturo Vargas, Executive Director of the National Association 
of Latino Elected and Appointed Officials Educational Fund. I 
also serve as co-chair of the Civil and Human Rights Census 
Task Force.
    And thank you for the opportunity to appear before you 
today to express our support for the President's fiscal year 
2013 request of $274 million in discretionary funding for the 
United States Census Bureau. This budget request represents a 
three percent increase over fiscal year 2012 funding levels. 
The administration's request is necessary to maintain the 
reliability of the American Community Survey (ACS) data and 
begin planning for a cost effective 2020 Census and effectively 
meet the constitutional responsibilities of the Bureau.
    The president requested a decrease of $10.9 million for the 
ACS Program. The ACS is implementing several changes next year, 
including an internet response and a reduction in its scale of 
any followup operation. We believe the budget request 
sufficiently invests in the ACS program to ensure that the 
sample size is large enough to produce reliable and useful data 
for less populated geographic areas. This funding also will 
allow for improved telephone and field data collection, 
sufficient followup of unresponsive hostiles in remote areas, 
and a comprehensive review of three year and five year ACS 
estimates. Federal programs rely on the ACS for the 
implementation of the programs and priorities of the federal 
government.
    As 2010 Census activities wind down with final evaluations 
and data products to be released soon, planning for the next 
fiscal year is on a cyclical upswing. The President's 2013 
request for 2020 Census activities is nearly doubled, 
therefore, by 2012 funding level of $66.7 million. It's an 
increase to $131.4 million. We strongly support this important 
funding increase. As the GAO has consistently documented, 
reasonable investments and Census planning in the early part of 
the decade will help save millions in Census costs down the 
road.
    The 2013 budget also supports other critical Bureau central 
focus of the 2020 Census planning to design programs and 
operations for the 2020 Census, to have residual benefits for 
other Census Bureau data collections. Support for the full 
amount of Census activity is crucial in light of past 
experiences with Census expenditure reductions in post 
remuneration years.
    In fiscal year 2012, this Subcommittee recommended $855.4 
million to fund the Census Bureau's activities, which was 25 
percent below the Bureau's fiscal year 2011 spending level. In 
contrast, the Senate appropriations bill provided approximately 
$88 million more than the House version of the bill.
    Fortunately, the final appropriation legislation offered 
just enough funding for the Bureau to proceed with its core 
activities. We've shown caution in relying on money from the 
working capital to pay for ongoing core activities.
    As a result of fiscal year 2012 and fiscal year 2011 budget 
cuts and on its own accord, the Census Bureau has committed to 
reducing costs by taking bold steps to streamline operations. 
We understand the fiscal environment that Congress faces and is 
making difficult decisions to curtail current spending. We 
recognize that there are many worthy programs funded through 
the CJS appropriations bill, yet we believe that making cuts in 
the President's 2013 budget request for the Census Bureau would 
be counterproductive to an agency whose data are essential to 
running our government, informing our policies, and influencing 
economic productivity.
    Supporting the full level of the President's 2013 budget 
request is a necessary investment in the effective governance 
of our nation and preservation of our democratic ideals. I 
thank the Chairman and Mr. Culberson, for the opportunity to 
appear before you today.
    Mr. Wolf. Thank you very much for your testimony. We 
appreciate it very much.
    Mr. Culberson. If I could briefly----
    Mr. Wolf. Yes.
    Mr. Culberson. Mr. Vargas, in the American Community 
Survey, it's, like, 120 questions, very detailed.
    Mr. Vargas. Yes, sir.
    Mr. Culberson. A lengthy survey?
    Mr. Vargas. Yes, sir.
    Mr. Culberson. I've been getting a lot of complaints about 
this, Mr. Chairman, a lot of folks, as a Tenth Amendment 
Jeffersonian leave me alone Texan, it's nobody's business how 
much money my constituents earn or, you know, how many homes or 
how many rooms are in the house or how you spend your money. 
It's very invasive. Have you----
    Mr. Vargas. I received that form about five years ago 
myself and it took me about 45 minutes to complete. But the 
fact is that every question on the ACS questionnaire is 
authorized or it's related to some federal program that's tied 
then to funding formulas. So the ACS data is actually used to 
distribute federal funds based on federally authorized 
programs.
    Mr. Culberson. Sure. My point is, Mr. Chairman, I think 
people ought to be able to opt out of it. My complaints I've 
been receiving from constituents have been hounded mercilessly 
by Census takers threatening them with fines, criminal 
prosecution, for their refusal to answer. Quite reasonably. I 
mean, these are very intrusive questions I find. People ought 
to be able to opt out.
    Mr. Vargas. Right. Well, the issue that we have with making 
the ACS voluntary instead of mandatory is that then the bill 
would have to have a much broader sample size and it would be 
much more expensive for the Bureau to try to get the number of 
responses they need to have quality data if it's not mandatory 
and it's made voluntary.
    Mr. Culberson. Sure. If you think about it, one of our 
greatest and most important rights as Americans is to be left 
alone. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Steven Sciotto, Radionet Communications.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                         RADIONET COMMUNICATION


                                WITNESS

STEVEN SCIOTTO, RADIONET COMMUNICATION
    Mr. Sciotto. Mr. Chairman, members of Congress, 
distinguished guests, thank you for this opportunity to speak. 
I've amended my original text to include some salient points 
which I neglected and edited them for brevity so as to allow--
--
    Mr. Wolf. Your printed statement will appear in the record.
    Mr. Sciotto. Yes, sir. With regard to land mobile radio 
communications, I'm considered a subject matter expert, having 
worked in the field for 20 years. I hold degrees in electrical 
engineering and engineering technology. I've been blacklisted 
from this work since giving testimony before elected members of 
Congress in 2005 with regard to the failure of two-way radios 
in use by the fire department in New York on 9-11, failure we 
knew was probable based on tests conducted at Motorola where I 
was employed in February of 2001.
    I've been unable to secure a job with any of the other 
vendors of this technology at a time when these skills remain 
very much in demand, including many positions with local, 
State, and Federal government. And the latter organization 
rates me at up to 105 percent capable, according to their 
notices of results for the many positions I've made application 
to. In 2005, I was under contract to the U.S. Navy as an 
assistant for a project with 25 compatible systems. And I have 
been called to testify by the members of the firefighters union 
in New York.
    When I agreed, unknown to me, a collections agent from 
Motorola immediately filed an adverse account against my credit 
rating for an alleged accidental overpayment that I thought was 
a severance check in 2002. They made no attempt at 
communications for the three years and two months subsequent to 
my last day of work for Motorola. And though my continued work 
on the Navy program was predicated on the taking it easy on 
Motorola, I was subsequently denied all previously contracted 
work on the project and have remained mostly unemployed since.
    When I filed a whistleblower complaint with the Navy 
because they'd acquired ten times the capacity articulated in 
their own procurement documents for at least two bases, the 
Navy region and the southeast, I was accused of being a threat 
to base security in Naval District Washington and debarred and 
a few days later, was visited in my home by an investigator for 
the Naval Criminal Investigative Service in an attempt that was 
clearly designed to intimidate me and my family. So to them, my 
internet service seems to have been filtered, denying me access 
to government information freely available to anyone else.
    Two years ago, I was denied a position with the Navy when a 
vendor exercised reach back authority over Navy human resources 
hiring. The Navy manager responsible for this solicitation 
admitted to engaging in a prohibited personnel practice under 5 
U.S. Code. I have his e-mail. It contains his header 
information. I can prove it's genuine.
    I filed a complaint with the Navy and the Defense 
Department Inspector General last year, which they have not 
answered. I've alleged that industry trust among land radio 
solutions providers and worse.
    What is happening in my country? If former President 
Woodrow Wilson were here today, he would say the government 
which was designed for the people has got into the hands of the 
bosses and their employers with special interests. An invisible 
empire has been set up above the forms of democracy. That 
empire has a new weapon being leveled against the American 
people and every job seeker in this country. And in my emails 
to Representative Jackie Speier's staff, I'd given them the 
wreckage of my own career as an example of what the Department 
of Homeland Security is doing with the information they've 
apparently acquired from blogs and social networking sites 
surreptitiously.
    I am not the enemy of the state I've been made out to be by 
certain individuals on LinkedIn and at the Department of 
Homeland Security, but I am an enemy to the relationships some 
high level managers have with Motorola, in which they once held 
a significant financial interest.
    And this information was freely available on the internet 
before we passed net neutrality and it has since been 
sanitized. And this same individual I refer to had clear 
contact and regular contact with Navy program management.
    Gentlemen, ladies, I'm not here to ask for favor. I'm here 
to offer my leadership, though my family has been destroyed by 
this. The freedom to discuss or think differently about our 
problems used to be a cornerstone of American liberty and a 
hallmark of American ingenuity. And if you truly believe in the 
American people's ability to innovate our way out of these 
difficult times, you must take control of this process before 
it takes control of each of us.
    Again, I'm reminded of former President Wilson when he 
said, in conclusion, ``There can be no equality or opportunity 
if men and women and children be not shielded in their lives 
from the consequences of great industrial and social processes 
which they cannot alter, control, or singly cope with.''
    Thank you.
    Mr. Wolf. Thank you, sir, for your testimony. I appreciate 
you taking the time.
    Mr. Culberson. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Owen Jackson, vice president, National Community 
Reinvestment Coalition.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

               NATIONAL COMMUNITY REINVESTMENT COALITION


                                WITNESS

OWEN JACKSON, VICE PRESIDENT, BUSINESS DEVELOPMENT FOR THE NATIONAL 
    COMMUNITY REINVESTMENT COALITION
    Mr. Jackson. Thank you. Good afternoon, Chairman Wolf, 
Ranking Member Fattah, and the other members of this 
Subcommittee. My name Owen Jackson and I'm the vice president 
of Business Development for the National Community Reinvestment 
Coalition.
    On behalf of NCRC, it is an honor to testify today before 
the Appropriations Subcommittee on Commerce, Justice, Science, 
and Related Agencies. With limited Federal resources and a 
struggling economy, activities that help economic growth should 
be the highest priority. That is why I encourage you to return 
funding for the Department of Commerce's Minority Business 
Development Agency back to $32 million in fiscal year 2013.
    We should support programs that help American businesses 
grow and create jobs. And though the unemployment rate has 
improved, it remains much higher than five years ago. The 
Dallas Federal Reserve Bank estimates that unemployment may not 
return to pre-crisis levels until 2019. MBDA has a strong 
record of helping businesses create jobs. In the last three 
years, MBDA business centers have helped small businesses to 
obtain $10 billion in contracts and create 15,000 new jobs. 
That means American taxpayers received a 125 percent return on 
investment for every dollar of funding.
    Small businesses are the backbone of America's economy and 
the key to our recovery. In fact, small and minority businesses 
account for two thirds of all new jobs added to the economy and 
minority owned businesses added $1 trillion to the nation's 
economic output just last year.
    NCRC plays of powerful role in aiding the growth of small 
minority- and woman-owned businesses. We are the only nonprofit 
organization that operates three Department of Commerce 
business centers. They are located in Washington, D.C., New 
York, New York, and Houston, Texas. We also manage a woman's 
business center and a small business team incentive sponsored 
by the U.S. Small Business Administration. And we also have a 
small business loan fund.
    Access to resources can greatly improve a company's 
performance. NCRC's MBDA centers alone have helped clients 
access more than $2.3 billion in financing, secure more than 
$300 million in contracts, and, most importantly, create nearly 
1,500 new jobs. Grants provided by MBDA made this possible.
    Here's a direct example of how MBDA's business centers add 
value. In 2007, a Virginia IT firm contacted our D.C. center 
for assistance. The firm had 600 employees and revenues of $34 
million. In just three years, the firm's revenues almost 
doubled to $60 million. The company also added 300 new jobs. 
Those results were due to the support provided by NCRC's 
business centers.
    In conclusion, MBDA's budget has been cut by more than 
half, more than half since President Richard Nixon created it 
in 1969. The current proposal subtracts another $1.5 million. I 
encourage you to fund MBDA at $32 million in 2013. When a 
program works well, we should support it. This program works 
well by supporting the nation's businesses and a strong economy 
for all Americans.
    Thank you, again, for the opportunity to testify today. I 
look forward to any questions you may have for me. Thank you.
    Mr. Wolf. Thank you for your testimony.
    Mr. Culberson. Very brief. Mr. Jackson, what is the $32 
million used work, the money that flows through your coalition? 
Is it used for grants or is it used, as your other gentleman 
said, to hire consultants and experts that then work with the 
business? How is the money used?
    Mr. Jackson. MBDA's budget, a portion of the budget, is 
subtracted out to go as contracts to organizations like my 
organization to provide consulting services for MBEs around the 
country.
    Mr. Culberson. What type of consulting services do you 
provide to MBE's?
    Mr. Jackson. Access to capital, access to markets helping 
them to grow their business.
    Mr. Culberson. Such as, you mean, introducing them to what? 
I'm not sure I understand what precisely you do.
    Mr. Jackson. Well, we have, within in our offices, we hire 
full-time staff who have experience in doing business 
development to work with our firms to help them to grow their 
businesses to capacity, so that they can then turn around and 
increase their workforce.
    Mr. Culberson. What else is the $32 million used for?
    Mr. Jackson. The $32 million is for the agency, the 
agency's budget. The 2008 budget was $32 million.
    Mr. Culberson. Mm-hmm.
    Mr. Jackson. Right now the agency's budget is $28.7 
million. So were testifying asking that we, if you put the 
budget back to the 2008 number of $32 million.
    Mr. Culberson. So you say you use it to hire yourself and 
other staff.
    Mr. Jackson. The staff that we hire are the folks that----
    Mr. Culberson. It comes from that $32----
    Mr. Jackson. Yes.
    Mr. Culberson. It's used to hire staff.
    Mr. Jackson. Right.
    Mr. Culberson. Okay.
    Mr. Jackson. That staff is used to----
    Mr. Culberson. Thank you very much.
    Mr. Wolf. I thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Ron Allen, U.S. Section of the Pacific Salmon 
Commission.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

             U.S. SECTION OF THE PACIFIC SALMON COMMISSION


                                WITNESS

W. RON ALLEN, TRIBAL CHAIRMAN, CEO, JAMESTOWN, S'KLALLAM TRIBE
    Mr. Allen. Good afternoon, Mr. Chairman, Committee members. 
I appreciate the opportunity to testify. You have my testimony 
that I submitted to the Committee and it pretty well outlines 
what our request is of the Committee and the Congress with 
regard to the U.S.-Canada Pacific Salmon Commission.
    I am one of the commissioners. I am the chairman of an 
Indian tribe in the northwest, one of the tribes that Billy 
Frank, Jr., referenced earlier this afternoon. And I represent 
the 20 tribes in the northwest and the four tribes up the 
Columbia River that fish, have treaty rights with the United 
States Government and are part of this international treaty.
    This treaty was consummated back in 1985. It has been 
renegotiated numerous times in '89, '99, and recently in 2008. 
It is a commission that, a bilateral commission, that oversees 
the assessment and the management of Pacific salmon from the 
Gulf of Alaska to the lower southern coast of Oregon and up the 
Columbia River all the way to Idaho and then back into Canada, 
as well.
    It's probably about a $3 billion industry that affects a 
whole lot of coastal communities and many communities up the 
Columbia River. Our request is, obviously, very simple. We're 
asking for more money, like almost everybody else. We have a 
very extensive role. We meaning the tribes and the States, 
Alaska, Washington, Oregon, and Idaho.
    The resources that we are asking for are divvied up here 
primarily with regard to the States, Alaska, Washington, and 
Idaho, as well as Oregon. The functions that we carry out to 
implement this treaty, to manage this resource from Alaska to 
the upper reaches of the Columbia River, is very, very 
sophisticated, very complicated and it varies species, from the 
chinook to the coho to the chum to the sockeye that go up the 
river.
    Our different fisheries are very sophisticated and we have 
very sophisticated models and programs that basically provide 
oversight on what is the stock assessment, how well is it 
doing, what are we doing in terms of making sure that we're 
managing it and making recommendations on what is the 
allocation of the fishery that should be harvested, whether 
it's in Alaska, whether it's in British Columbia, or in the 
southern 48 states. And we have identified numerous functions.
    Now, we have a new problem that we are wrestling with right 
now. In the past over the many years, we have asked for 
increases. A number of years back, we did get a pretty good 
increase that helped us. It didn't get us to where we wanted to 
be, but it got us in a better position. Since then, the tight 
budgets have tapered us back more and more. So who has covered 
a difference in terms of the cost to carry out those federal 
and international functions is the States, and, subsequently, 
the tribes.
    Now, the tribes receive our money from the Bureau of Indian 
Affairs and Department of Interior. The States receive, and 
NOAA, receives their money through this Committee and its 
jurisdiction. It's a very important function. It's a very 
important responsibility internationally.
    You see two different categories. The main category that 
goes to the States and the category that we refer to as a 
chinook salmon agreement. This is a very unique model that we 
implement and require very specific kinds of expertise in order 
to make sure that that model is updated on a regular basis to 
make sure everybody is getting their fair share of chinook. It 
is a precious resource for all of our fisheries.
    I ask that you seriously consider our recommendation and 
our request. With the tightening budgets in the States, this 
international obligation is falling back onto the United States 
more. And so, hopefully, you'll understand our request. And we 
are ready to answer any questions we can and be of any 
assistance for clarification. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you very much. Thank you for your 
testimony.
    Mr. Fattah. I didn't hear your testimony. I'm sorry.
    Mr. Jackson. It was very good, too.
    Mr. Fattah. I promise you I will read it.
    Mr. Jackson. Thank you.
    Mr. Wolf. Thank you, sir.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Next on the panel, Robert Gagosian, president, 
Consortium for Ocean Leadership.
                              ----------                              

                                          Thursday, March 22, 2012.

                    CONSORTIUM FOR OCEAN LEADERSHIP


                                WITNESS

ROBERT GAGOSIAN, PRESIDENT, CONSORTIUM FOR OCEAN LEADERSHIP
    Mr. Gagosian. Mr. Chairman, Mr. Culberson, Mr. Fattah, and 
Members of Congress, and especially Committee staff. On behalf 
of the Consortium for Ocean Leadership, which represents more 
than 100 of the nation's leading ocean research and education 
institutions of aquarium industries, I want to express my 
appreciation this afternoon for the opportunity to testify 
before this Committee.
    We, as you know, are an ocean nation. We're dependent upon 
the sea for our national defense, food, and economic security. 
We're also a science dependant nation whose economy has grown 
dramatically since World War II, thanks to the academic 
university based research enterprise, which continually 
challenges the best minds through open competition and the peer 
review process.
    This process is the envy of the world. Our federal 
university partnership has driven the economy through science 
and technology innovation and it has also cultivated an ocean, 
science and engineering community capable of addressing our 
nation's most pressing problems, ranging from winning the Cold 
War anti-submarine battle to most recently identifying the 
Deepwater Horizon spills of surface oil and gas bloom in the 
Gulf of Mexico.
    Yet there is a tremendous amount that we don't know. For 
instance, we've greatly improved hurricane track forecasts, but 
we still are lacking accurate hurricane strength predictions 
and the answer will be in the ocean where most of the heat 
resides.
    Despite huge investments that Congress has made in recent 
years, NOAA has struggled to manage the requirements, cost, 
schedule, and performance of its Earth-observing satellites. We 
are expecting significant remote data gaps in a central area 
such as sea surface wind speed and direction, which is used for 
hurricane forecasting, and ocean topography used for sea level 
rise calculations.
    Because the budget mural overruns have effectively been 
paid for by cuts in NOAA's extramural research ocean and 
coastal programs, we're not only losing critical ocean data 
from those programs, but also the support for science to 
utilize the data generated from space from these satellites 
that are being funded in the first place.
    We desperately need a more robust federal system to define 
Earth observing requirements that take into account realistic 
budgets for design and construction, as well as a commitment to 
operate and maintain those observations into the future. If it 
is not possible for NOAA, NASA, DOD, and Interior to better 
collaborate, then you may want to consider consolidating the 
design, procurement, and operation of these satellites within 
well defined and achievable budgets at NASA.
    We also need to be developing the next generation of 
satellite constellations comprised of smaller, more focused 
platforms as the current delivery systems are very costly and, 
thus, too risky. Unfortunately, due to significant economic 
issues, our nation has fallen off the path to double federal 
support for basic research, as you are well aware.
    Meanwhile, our international competitors, such as China, 
India, and Brazil, are investing more and closing the 
innovation gap. While I understand and appreciate the economic 
crisis our nation is facing, I fear that the long-term 
consequences of abandoning the goals of the America Competes 
Act will far outweigh any short term small benefits and 
reducing the deficit through cuts and science support.
    Let me close by thanking the Subcommittee for its continued 
support of the National Science Foundation in this difficult 
budget environment. Yet despite the support, the foundation's 
new cross-directorate initiatives and change in policy for 
funding operations and maintenance of facilities mean that 
there will be less core ocean science and infrastructure funded 
in the next few years.
    Mr. Chairman, I hope that you will continue the 
Subcommittee's longstanding bipartisan support for science and 
education funding in the fiscal year '13 budget and into the 
future. I can assure you that my colleagues in the science 
community really appreciate your and your Committee's efforts. 
Thank you.
    Mr. Wolf. Thank you very much for your brief testimony. Mr. 
Fattah.
    Mr. Fattah. And you also have my thanks for your testimony. 
Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Keith Curtis, vice president, American Foreign 
Service Association.
                              ----------                              

                                          Thursday, March 22, 2012.

                  AMERICAN FOREIGN SERVICE ASSOCIATION


                                WITNESS

KEITH CURTIS, AMERICAN FOREIGN SERVICE ASSOCIATION
    Mr. Curtis. Thank you, Mr. Chairman, Ranking Member Fattah. 
Thanks for the opportunity this morning on behalf of the 
American Foreign Service Association to address the Committee.
    As you know AFSA represents all 28,000 foreign service 
employees. In the Foreign Commercial Service, we have the 
responsibility for supporting U.S. business interests 
internationally. In that effort, we do everything from 
supporting human rights and commercial activities, where the 
Chairman has been a great champion, to assisting small- and 
medium-sized businesses, major U.S. employers, investment in 
America, and serving in dangerous locations.
    The commercial service is at the heart of the key effort to 
expand our exports. As you know, we've been expanding about 17 
percent per year, 14 percent last year. We're proud to serve 
our country in an effective way, especially in time of need, 
and, frankly, we consider ourselves lucky that we have a 
measured, measurable, and focused mission. We're core motivated 
foreign service officers with business backgrounds and we gain 
principal satisfaction from getting things done.
    However, while the rest of the world, especially countries 
like China, Korea, and Germany, has been gearing up its export 
machines, we've been shrinking ours. We have gone from over 
1,250 employees in the year 2000 in the international field to 
barely 900 last year. Thankfully, this Committee and you all 
have recognized these problems over the last couple of years 
and the importance of our mission. We're very grateful for the 
increased voted last year of $10 million. That was a lifeline. 
Thank you very much for your work on the Committee.
    Unfortunately, much of it was absorbed by internal 
increased costs. Internal centralized services charge to the 
commercial service increased from $15 million in 2001 to $29 
million this year. Almost 100 percent. Because cost increases 
are outpacing budgets and because of the strategic decisions to 
reposition, we've had to close posts overseas.
    We can all agree that exports are critical to our national 
well being and is one of the clear paths to growth. In 2010, 
the commercial service directly helped generate $34.8 billion 
in exports. That's over 18,000 business clients. For every $1 
the Committee invested in the commercial service, we have $135 
of demonstrated exports assisted. That's a pretty good return 
on investment.
    We appreciate greatly the support of the Committee to 
support commercial service. My main purpose of being here today 
is to thank you for your support and implore you to continue 
that support in the tough budget times ahead.
    I also wanted to say that our concern is not about the 
future. It's not as about budget difficulties. At the same 
time, we are under enormous budget pressure, restructuring 
proposals, and Washington could have severe consequences in our 
ability to be effective. We recognize the need to increase 
organizational effectiveness that engendered the President's 
fiscal year '13 budget proposal to decrease the International 
Trade Administration from four units to three units. We believe 
that accordance of this proposal is important that the 
organization should be field driven.
    But our concern is that this merger may result in an 
organization that puts less priority on getting the job done on 
the ground internationally. The key will be to make sure that 
the top management jobs are reserved for senior employees with 
firsthand experience, working with U.S. businesses on the 
ground when we do this.
    The members of the Committee know that it is only when the 
reality is a local environment drive the processes in 
Washington that we can be effective in the long run. You cannot 
teach a man to fish until you've caught some fish yourself. 
This is especially important in a critical budget period when 
we have to focus on the must haves, the must dos, and the nice 
ideas, not the nice ideas.
    We are to examine any proposed restructuring by ITA and/or 
the commercial service to ensure it is driven by real field 
experience and the needs of the clients, not by what is 
imagined, but what is actually proven in practice. Thank you 
for your time today and God bless on your work on the 
Committee.
    Mr. Wolf. Thank you, Mr. Curtis. I appreciate your 
testimony.
    Mr. Fattah. Thank you. And thanks to the association for 
the work you've done.
    Mr. Curtis. Thank you.
    Mr. Wolf. Thanks.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Michelle Norvell, project manager for the Fort 
Bragg Groundfish Association. Welcome.
                              ----------                              

                                          Thursday, March 22, 2012.

                   FORT BRAGG GROUNDFISH ASSOCIATION


                                WITNESS

MICHELLE NORVELL, PROJECT MANAGER, FORT BRAGG GROUNDFISH ASSOCIATION
    Ms. Norvell. Thank you. Chairman Wolf and members of the 
Subcommittee, thank you for this opportunity to appear before 
you to discuss the President's 2013 budget as it relates to 
NOAA's program and I ask for your continued support.
    I want to say thank you for recognizing the historic 
relevance and future promise of the fishery. The investment you 
make today will have a profound effect on protecting jobs in 
vulnerable fishing communities along our coast and will benefit 
larger scale environmental and an economic recovery in the West 
Coast fisheries.
    Under NOAA's new program, there have been many successes 
achieved in the fishery. We saw unprecedented cooperation and 
collaboration among fishery stakeholders. Regional fishing 
associations have been established to create a model for area 
base management. High catch risk arrangements have been formed 
to collectively share and manage fish species, fishermen are 
fishing smarter by tracking and mapping fly-catch events and 
sharing the information using innovative technology among other 
risk pools.
    By maximizing harvest of target species and avoiding by-
catch, fisherman communities that rely on them are gaining 
ground economically. The extremely limited amount of overfished 
species that are allocated to the individual fishermen 
continues to be the biggest concern. We have found the best way 
to manage the risk of being shut down is to do a collective 
management approach. New collected arrangements are forming and 
emerging as the preferred model for better addressing 
overfished species management.
    In the simplest form, the risk pool functions by members 
contributing all or some of their by-catch quota share to a 
single pool managed by one person. Comprehensive regional 
fishing plans are created with proactive and reactive terms to 
carefully and thoughtfully manage overfished species annually 
among members.
    Efforts in 2011 between fishermen in the central coast of 
California and northern California, with the Nature Conservancy 
as their strategic partner, resulted in the creation of a 
central coast risk pool agreement in which 13 vessels 
participate. Using this approach, the fishermen immediately 
reduced the risk of being put out of business.
    This approach has also contributed to a substantial year 
round sustainable year round fishery. Members of our risk pool 
collectively kept their usage of by-catch quota to two percent, 
helping to rebuild these important species populations, while 
the West Coast caught over 30 percent of its annual by-catch 
quota. The outcome is an example of how cooperative fishing 
management taking place at the community level can help fishery 
participants and conservation interest improved fishery 
management. These type of collective arrangements in area base 
management hold enormous promise for stabilizing fishing 
activity in smaller scale fishing ports.
    Managing costs in the new program is also a major concern. 
Program implementation, rising observer costs, and the expense 
from the trawler buyout program, created a heavy financial 
burden on the new program. The accumulation of these costs 
currently tied to the catch-share program threatened smaller 
scale fishing operations and the ports they call home. Without 
manageable costs, consolidation of small fishing operations 
will begin to occur quickly and take hold. They will have 
serious impacts in small fishing ports as resources shift from 
many smaller ports to larger ports.
    The high cost to lease or buy quota pounds presents another 
challenge to small fishermen who are competing with larger 
scale operations. Without adequate resources for fishermen, our 
community associations to precious quota, further consolidation 
and dismantling of small fishing port communities are likely to 
occur. In 2011, the cost on an observer was $360 a day. And in 
2012, it rose to $420.
    Cost effective monitoring, such as electronic monitoring, 
are vital to finding efficiencies in the observer program. The 
recent plan released by NMFS implement an electronic monitoring 
feasibility plan for the West Coast program, is a promising 
step forward. The groundfish association and the central coast 
groundfish association agency conservancy coastal bridge to 
help them with the development and the design of their program. 
Industry has opened a dialogue with NMFS to identify feasible 
ways to extend transitional funding for observers for a period 
longer than three years.
    Industry stakeholders and administration are working in 
unison to respond to the emerging issues and changes in IFQ 
fishery. By-catch rules rules and carrier based management 
through regional fishing associations are important tools and 
need further developments, support, and guidance from NOAA. 
Industry needs the gift of time and resources to address and 
implement the needed changes. The level of funding for NOAA in 
2013 is vital to maintain function and give success to this 
highly complex West Coast catch-share program.
    Thank you, again, for this opportunity and I'm happy to 
answer any questions you may have.
    Mr. Wolf. Thank you very much for your great testimony.
    Ms. Norvell. Thank you.
    Mr. Wolf. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Ron Wasserstein, executive director, American 
Statistical Association.
                              ----------                              

                                          Thursday, March 22, 2012.

                    AMERICAN STATISTICAL ASSOCIATION


                                WITNESS

RON WASSERSTEIN, AMERICAN STATISTICAL ASSOCIATION
    Mr. Wasserstein. Chairman Wolf, Mr. Fattah, staff members, 
thank you for this opportunity. I'm here on behalf of the 
American Statistical Association to support the fiscal year '13 
budgets for several agencies in the fiscal year '13 Commerce, 
Justice, Science, and Related Agencies appropriations bill.
    Specifically, the ASA supports the fiscal year '13 budget 
request for the National Science Foundation, the Census Bureau, 
the Bureau of Economic Analysis, the Bureau of Justice 
Statistics, and the $5 million proposed in the National 
Institute of Standards and Technology budget to improve the 
science in forensic science.
    Fully funding the fiscal year '13 request for Census and 
BEA is important for three reasons. Their data facilitate 
economic growth and development, efficient government, and the 
saving of taxpayer money. Regarding economic growth and 
development, the private sector makes heavy use of Census 
Bureau and BEA data in its decision-making whether it be 
determining where to place a new retail outlet or siting a 
manufacturing plant. The data help answer questions on 
available work force, potential customer base, infrastructure, 
and inventory. The higher the quality of the data, the more 
confident the business community can be in the success of their 
job creating investments. With respect to efficient government, 
Census data helped to provide or to guide federal spending on 
everything from veterans affairs to transportation to Medicare. 
High quality data helps to avoid a scenario of unnecessary 
federal investments. And regarding saving taxpayer money, the 
GAO has said that the 2020 Census could cost of $17 billion 
more than the 2010 Census, unless major design changes are 
made. With 2020 Census research and planning well underway, 
underfunding Census in these early planning years could cost 
taxpayers billions of dollars down the road.
    The fiscal year '13 request for the Bureau of Justice 
Statistics would allow the agency to continue its improvements 
to the national crime victimization survey. This survey is 
unique because it is the only national comprehensive survey 
that provides crime statistics from the victim's perspective. 
Without the fiscal year '13 level, BJS will not be able to 
provide crime data down to a more regional level, information 
that helps law enforcement officials and policymakers improve 
public safety. Just as important if not more so, the fiscal 
year '13 request would allow research to improve the 
measurement of rape and sexual assault, the most under reported 
crimes in the United States.
    We turn to the National Science Foundation. Statistics is 
the science of collecting and analyzing and understanding data 
and thereby permeates and aids all scientific disciplines. As 
such, statistics is important in all NSF directorates and is 
funded throughout.
    We ask your support for the fiscal year '13 budget for NSF 
and we thank you for your support of scientific research to 
maintain our global competitiveness. Lastly, I urge you to 
support the $5 million proposed for measurements, science and 
standards in support of forensic science at NIST. Despite the 
urgent calls for forensic science reform pointed out in a 2009 
National Academies report, little has been done. $5,000,000 for 
improving science and forensic science is an important first 
step to ensuring science best serves our justice system.
    Thank you very much, Mr. Chairman and Ranking Member, for 
the opportunity to present the American Statistical 
Association's views on funding for these important scientific 
and statistical agencies.
    Mr. Wolf. Thank you very much for your testimony, Mr. 
Wasserstein. Mr. Fattah.
    Mr. Fattah. We appreciate your testimony and we'll take it 
under advisement.
    Mr. Wasserstein. Thank you, sir.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Wolf. Next, Matt Ruby, president of the South Atlantic 
Fishermen's Association. And joining him I think is former 
Congressman, Mr. Walsh.
    Mr. Fattah. Let me also acknowledge the presence of our 
friend, the former chair of this Committee and a great and 
distinguished American, Mr. Walsh.
                              ----------                              

                                          Thursday, March 22, 2012.

                 SOUTH ATLANTIC FISHERMEN'S ASSOCIATION


                                WITNESS

MATT RUBY, PRESIDENT, SOUTH ATLANTIC FISHERMEN'S ASSOCIATION
    Mr. Ruby. Chairman Wolf, Ranking Member Fattah, members of 
the Subcommittee, thank you for allowing me to testify before 
you today to discuss matters of great importance, fisheries 
management. I would like to ask that my written statement be 
submitted for the record. I am here to talk to you about the 
future of our fisheries, both as a commercial fisherman and as 
president of the South Atlantic Fishermen's Association, also 
known as SAFA.
    I have been a commercial fisherman for over 14 years and 
have been running my own business, a fishing business, since 
2006. My job, ability to provide for my family, and future 
livelihood is dependent on a healthy fishery. Like other SAFA 
members, without healthy fish stocks, I will not have a stable 
job and I will be unable to support my family.
    The current management in the south Atlantic region is not 
working. Since February, two fisheries in the region have 
closed, red snapper and golden tile fish. These closures mean 
fishermen cannot work or provide for their families and their 
future as a commercial fisherman is in question.
    It also means that local businesses like restaurants and 
suppliers, are also suffering. Unproductive fisheries impact 
entire communities. We want a healthy fishery so that we can 
continue to maintain our businesses and jobs, support our 
families, and to be productive members of society.
    Therefore, SAFA is strongly in support of exploring catch-
shares to help restore our fisheries and sustain our jobs. 
Catch-shares have a proven track record in other regions and we 
would like the chance to explore those in the south Atlantic. 
Catch-shares lengthen fishing seasons, increase safety, improve 
full time employment in the commercial sector and provide much 
needed flexibility. Flexibility would allow fishermen to fish 
in safer conditions, capitalize on the best market conditions, 
and be present at important family events.
    SAFA supports funding for catch-shares, including the 
requested $28 million for the national program and respectfully 
ask the Subcommittee to support catch-share funding and restore 
the $5 million in funding for the regional councils, which will 
help manage our fisheries.
    SAFA is concerned about efforts to pass legislation and 
limiting the ability of regional councils to consider catch-
shares as a management option. We are pleased to see that the 
Committee and, ultimately, Congress passed a bill last year 
that funded catch-shares and did not continue the prior year's 
prohibition on the use of federal funds for catch-shares. We 
commend you for this.
    We understand that fisheries management decisions are often 
complicated, contentious, and difficult. But what SAFA wants as 
local stakeholders is the opportunity to work with the South 
Atlantic Fisheries Management council to evaluate and adopt 
catch-shares, if that is what is best for the resource. With 
the management tools authorized by Congress, including catch-
shares, on the table, we can determine locally what is best for 
our businesses and the future of South Atlantic fisheries. It 
should be our decision, not budget decisions, or legislation 
that determine the use of them in the South Atlantic.
    Our region's commercial fishing industry is in trouble. Our 
jobs, our livelihoods, and our communities are in trouble. We 
need management tools that will help rebuild and sustain 
fisheries and will allow us to keep our jobs. Catch-shares can 
be one of those tools and we ask that you follow the same path 
that the Committee took last year, providing funding for catch-
shares and rejecting provisions that would restrict the use of 
catch-shares.
    This is a time when Congress should be providing more tools 
for fishermen to save our struggling businesses and local 
fishing communities, not taking options away from us to impress 
anyone from Washington, DC.
    Thank you for your consideration and SAFA looks forward to 
working with you again this year in support of our fisheries 
and commercial fishermen. Thank you.
    Mr. Wolf. Thank you very much for your testimony. I 
appreciate it. Mr. Fattah.
    Mr. Fattah. Thank you. And we learned yesterday that, 
unfortunately, a large majority of our seafood is imported from 
other places, so we should be supportive in making sure that we 
have a healthy fishing community in our own country. Thank you.
    Mr. Ruby. Thank you.
    Mr. Wolf. Would that help to have all seafood labeled as to 
where it comes from?
    Mr. Ruby. Yes, definitely. I know that they tried in some 
areas, like, say, in the Myrtle Beach area in South Carolina to 
pass laws that require restaurants to, you know, if a consumer 
comes in and they ask if it's wild caught or local, they're 
supposed to have to tell them.
    Now, I don't know how far the enforcement is going with 
that as far as, because they could go back and ask the chef and 
just say, yeah, tell them it's wild caught. But anything, you 
know anything that, you know, would help with, I mean, if 
restaurants use imports, I mean, that's fine, but it should be 
separate, your wild caught and your imports. They shouldn't 
deceive people because a lot of that is going on. And where 
people are serving grouper sandwiches and it's Asian catfish. I 
mean, if they want to serve it, that's fine, but they shouldn't 
say it's grouper and serve it to customers.
    Mr. Fattah. Okay.
    Mr. Ruby. So labeling and making sure what's what would 
definitely help.
    Mr. Fattah. Thank you very much.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. The next witness would be Gabrielle Martin, 
National Council, EEOC, Local 216.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

              NATIONAL COUNCIL OF EEOC LOCALS, NUMBER 216


                                WITNESS

GABRIELLE MARTIN, NATIONAL COUNCIL OF EEOC LOCALS, NUMBER 216
    Ms. Martin. Good afternoon, Chairman Wolf, Ranking Member 
Fattah, and staff. Thank you for the opportunity to address you 
today. I can appreciate you've had a long day, so I will try to 
be brief.
    I would like to start by thanking you for your support for 
the National Council for the EEOC. I'm the president of the 
National Council of EEOC Locals, Number 216, which represents 
the employees on the front line doing the work of the EEOC.
    As you know, we were founded in 1964 and, at the time, 
enforced approximately five laws. That enforcement authority 
has expanded to now 13 laws. We act on behalf of all Americans 
who seek to work, who seek that American dream.
    But we're in trouble. Fiscal year '11 capped a four year 
run of the highest number of charges we've ever gotten and it 
was just shy of a million for fiscal year '11. We also had the 
greatest number of retaliation charges that year. There was 
about 37,000. Remarkably, because we've been able to staff up, 
we actually finally had one year where we saw decrease in our 
backlog. If you look at the chart on page five of the testimony 
we submitted, you'll see the correlation between when we have 
staff and what we're able to do with the backlog.
    But that trend of reversal is in danger because, despite 
support from this Committee for funding for fiscal year '12, we 
suffered that two percent across the board cut and that 
amounted to a $7 million cut. That cut, coupled with a wave of 
retirements at the end of fiscal year '11, means we may be 
looking backwards instead of forward, that is, that backlog may 
continue to grow.
    We don't anticipate that the number of charges will 
decrease, given the current economic environment. We appreciate 
that it's a very difficult fiscal year and that your challenges 
will be many this year and probably into the future. But we are 
seeking support for the $374 million for EEOC. On behalf of the 
employees, we think it's founded, but we're not just coming 
saying throw money at us. We're also saying this is the third 
year that we've come to you and said we gave our agencies some 
plans for some efficiencies because not only the support of 
this Committee deserves it, but the American public deserves 
efficiencies with the resources that we get.
    So we have said free up investigator time so that we can 
reduce the backlog and the processing time. And, hopefully, 
that also means we can reduce the retaliation charges because 
those charges occur when people are waiting nine months to get 
their claims addressed and they're now coming back saying we've 
had additional discriminatory acts, or at least they're making 
that allegation, and then we have to go investigate it. So that 
would be one efficiency.
    Another efficiency that's fairly budget neutral is that, in 
2006, when the agency reorganized, it said it would reduce its 
employer to employer to manager to staff ratio. It has not done 
that. So that promise has been unbroken since 2006 and we 
think, with oversight from this Committee, reporting on who 
those people are, where they are, and putting them on the front 
line would also help address the backlog and provide more 
timely service to the public.
    And one final way that we think that the agency could take 
advantage of efficiencies is, with the limited resources it 
has, it's to use telework in greater numbers. Our own inspector 
general has said for many years this is a way to reduce brick 
and mortar, save money. But type of work we do, investigating, 
going out, seeing what work places look like, hearing the cases 
at the federal sector here, mediators going out and mediating 
cases, these are people who are not in the office every day and 
using telework could help us save some of those resources.
    So those are three highlights behind our very big task. 
Again, we thank you for your continued support and I'd be happy 
to answer any questions you have.
    Mr. Wolf. Thank you very much. Mr. Fattah.
    Mr. Fattah. Thank you very much for your testimony.
    Ms. Martin. Have a good afternoon.
    Mr. Wolf. Have a good afternoon.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Mr. Fernandez, owner of Fernandez Ranch.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                            FERNANDEZ RANCH


                                WITNESS

MAX FERNANDEZ, FERNANDEZ RANCH
    Mr. Fernandez. Hello. Thank you for the opportunity to 
testify.
    Mr. Wolf. You are surely welcome.
    Mr. Fernandez. My name is Max Fernandez. I was born in 
Chile. I came to this country in 1960. I got an occupation. I 
got to be an American citizen in 1968. I been married 43 years. 
I have a--my wife is a schoolteacher. And I have two daughters, 
one is a lawyer and the other one is a schoolteacher. I am very 
happy and thank you, thankful to this country for the 
opportunity that the country been providing to me and my 
family.
    I purchased a sheep ranch in 1980. The ranch is located in 
Washington State in Goldendale. My family history and tradition 
of sheep ranchers came from Spain to Chile in 1897. My ranch is 
small and, at the moment, I have about 800 head of sheep. At 
one time, I used to have 3,500, but because of the travel, with 
the little services, me and many other ranchers we been losing 
their herds.
    I employ two or three sheepherders and they each do a 
program. And they keep a temporary visa in the United States. 
I'm not a wealthy man, but I'm proud of my family history, 
successes, and accomplishments.
    I believe legal services continuously misuse government 
funds and I ask the Committee to defund, to reduce, or place 
the strict limitations of the funding of the activities of the 
legal services they use the funds for. I have to defend myself 
and my ranch against frequent lawsuits brought by the legal 
services and in no way justice--in no way justice.
    In 2002, I was sued by legal services on behalf of two 
sheepherders and their program. The sheepherders are upset by 
the U.S. Department of Labor. Legal services choose to ignore 
the established DOL wage rates and file a lawsuit claiming 
under the state law that sheepherders were entitled to a 
different wage. I won every court proceeding and I was forced 
to--and I went all the way to the Supreme Court. It cost me 
tens of thousands of dollars to defend myself and to prove that 
I was right.
     Mr. Wolf. Did you win?
     Mr. Fernandez. Yes, I did. But, you see, the legal 
services, every time you win, they keep----
    Mr. Wolf. Well, I'll tell you what you do. We appreciate 
your testimony. We're going to ask you to give us a copy of it 
and we're going to contact the legal services, president of the 
Legal Services Corporation, and we will ask them to comment 
specifically on your case and the circumstances you referenced. 
And make sure we have your full statement. And we will get back 
to you to make sure you know what they said.
    Mr. Fernandez. You know, not only that, they are suing me 
again.
    Mr. Wolf. Well, you give us the information and----
    Mr. Fernandez. I'm over.
    Mr. Wolf. Yes, you're over, but don't worry about it. I 
think you made a good point. Just give us the material----
    Mr. Fernandez. I will leave it here.
    Mr. Wolf [continuing]. To our staff. Give us anything. And 
if you want to take a few more days to sort of put anything 
else together.
    Mr. Fernandez. I think it pretty much here and I did send.
    Mr. Wolf. I see a lot of writing that maybe we don't----
    Mr. Fernandez. Between the wolf and the Legal Services, 
they are going to exterminate the sheepherders in the United 
States.
    Mr. Wolf. Well, we'll check it out. I don't know if I can 
help you with wolves.
    Mr. Fernandez. No, a joke. It's just basically a joke.
    Mr. Wolf. Okay. I missed it.
    Mr. Fernandez. I will send you.
    Mr. Wolf. Yeah.
    Mr. Fernandez. Some additional information.
    Mr. Wolf. Are you? Who should he--okay. You've got the 
first team here.
    Mr. Fernandez. They complained against me. This is how 
ridiculous they are. They say that I did have a picture that 
was offensive in my office, Senator, my wife and myself. It was 
a picture that----
    Mr. Wolf. And what did they say? That this is an offensive 
picture?
    Mr. Fernandez. Yes, sir.
    Mr. Wolf. Why do they say it's offensive? Just out of 
curiosity.
    Mr. Fernandez. This is how they use the taxpayers' money.
    Mr. Wolf. No, but what was their reason for saying this is 
offensive? I don't see anything offensive.
    Mr. Fernandez. No. They send it to a Department of Labor to 
investigate it. Seven months. And you know what they found? I'm 
missing a screen door.
    Mr. Wolf. Yes.
    Mr. Fernandez. Do you know what it cost me? $27,000 so far.
    Mr. Wolf. Well, we're gonig to get on it and then this 
gentleman right here, the first team right there, Colin, he'll 
take care of you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. We've added two more witnesses. Wendy McClanahan, 
senior vice president. Sure.
    The last shall be first and the first shall be last. Okay. 
This gentleman here. Go ahead.
                              ----------                              --
--------

                                          Thursday, March 22, 2012.

                        PUBLIC/PRIVATE VENTURES


                                WITNESS

WENDY McCLANAHAN, SENIOR VICE PRESIDENT, PUBLIC/PRIVATE VENTURES
    Ms. McClanahan. Chairman Wolf, Ranking Member Fattah, and 
other members of the Subcommittee, thank you for inviting me 
and Public/Private Ventures to speak before you today to inform 
you of our funding priorities for fiscal year 2013.
    PPV is a national nonprofit organization that partners with 
other organizations around the nation to help them improve 
their effectiveness in serving young people in transitioning 
them successfully to adulthood. We have a long history of work 
with the Justice Department. Beginning in 2003, PPV developed 
and evaluated a prisoner reentry demonstration program called 
Ready For Work that formed the basis for the Second Chance Act 
for the PRI and, also, for--
    We also develop and manage the Amachi mentoring coalition, 
a program that provides mentoring to families that have an 
incarcerated parent and to their children, and, also, to 
children of military families. And, more broadly, we've 
evaluated and provided technical assistance to hundreds of 
other programs over the years, striving to identify what works 
and what does not.
    My recommendations today are steeped in that history. I'd 
like to focus on the proposed innovated pay for success funding 
initiative within the Department of Justice. In the 2013 budget 
proposal, a total of $110 million is requested for eight Pay 
For Success grant programs across four agencies, including $20 
million set aside for the pilot programs within the Second 
Chance Act grant.
    The Office of Justice Programs will, however, support the 
initiative in this year's Second Chance Act grant competition. 
The Pay For Success pilots will be a critical test in how 
Justice and others support programs for their success. No 
longer is simply proving that a program works enough. Strong 
and impact the programs require that organizations manage and 
improve their own performance in an ongoing, an iterative way, 
yet few organizations have capacity or expertise in this area. 
Thus, for Pay For Success models to be successful, Justice must 
focus not only on measuring program impacts or outcomes but, 
also, on providing these agencies with performance management 
support, supports which have been historically underfunded and 
under attended to, both by funders and programs alike.
    If grantees in this pilot effort are to perform well, they 
need to focus on how they are implementing their programs, they 
need to get back to the basics, so to speak, by focusing on the 
essential components of program implementation, such as ruling 
the right participants, delivering services with quality, and 
using real time data to make real time program adjustments.
    We are strongly in support of the Pay For Success approach 
and encourage Congress and Justice to shape it in a way that 
maximizes its success and assures the most responsible 
stewardship of taxpayer dollars. This can be done by employing 
the following three principles.
    First, ensure that high quality data are collected and used 
for programs and organizational improvement. Identifying 
program impacts is not enough to keep programs delivering 
success services.
    Secondly, set appropriate performance targets. Justice and 
other agencies should support program targets that are 
consistent with realities on the ground and formed by research 
and evidence and guided by agencies who are themselves 
providing the services.
    Thirdly, support meaningful evaluation as part of the Pay 
For Success effort, only invest in the valuations that offer 
operational lessons, and only conduct a test of the model when 
the timing is right. Our experience with Amachi and other 
efforts indicates that providers generally can't do this alone. 
A growing body of evidence indicates that skilled intermediary 
organizations like PPD and others can be critical partners 
because we provide hands-on experience and our work is grounded 
in decades of expertise.
    In closing, public sector leadership is needed to elevate 
the importance of performance management and program 
improvement to ensure that Pay For Success is successful and 
good money doesn't follow bad. Thank you.
    Mr. Wolf. Thank you very much for your testimony. I 
appreciate it. Mr. Fattah.
    Mr. Fattah. Thank you for your testimony and I'm well aware 
of the great work that your organization does. Thank you.
    Mr. Wolf. Thank you.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Wolf. Our last witness, Richard Hill. Mr. Hill.
                              ----------                              

                                          Thursday, March 22, 2012.

                       HILL EQUIPMENT CORPORATION


                                WITNESS

RICHARD HILL, FORMER PRESIDENT/OWNER, HILL EQUIPMENT CORPORATION
    Mr. Hill. Thank you for allowing me to testify.
    Mr. Wolf. Yes, sir.
    Mr. Hill. My name is Richard Hill. I formed Hill Equipment 
Corporation at 2416 Delaware Avenue in Kennard, Louisiana. I 
incorporated around 1967 and I had that business until about 
1978. Excuse me, 1989. At which time I was thrown in jail in 
the State of Florida 16 times on bogus domestic charges. This 
caused me to lose $3 million in assets in these businesses that 
I had built.
    Okay. There never was any domestic violence. The reason for 
this occurring I allege was that the space shuttle Columbia was 
sabotaged. Equipment similar to what I had sold to NASA was 
used to sabotage the space shuttle Columbia. And the Columbia, 
excuse me, there are 12 instances of foam shedding, foam 
strikes, on these shuttles.
    There are two sources I allege of foam shedding. The first 
source was caused by the elimination of the protective coating 
on the main tank. Originally, it had a protective coating over 
it that kept the foam from popping off. Okay. For some reason, 
it was eliminated.
    Okay. The sudden source of foam shedding, which I allege is 
sabotage, emanated from the left bipod. Okay? All foam strikes 
that hits the space shuttles came from the left bipod. And I 
allege that a foreign object or some way that foam was altered 
to make it happen. Okay?
    Ten of the foam strikes occurred to the Columbia. Two of 
them occurred to the Atlantis and some other shuttle. I don't 
know which. Okay? For internal reasons, the main tanks are 
consumed upon reentry and are built for each mission. Okay? And 
they are dedicated at the time of the construction for a 
particular shuttle.
    For internal reasons, sometimes the Columbia-NASA will 
switch shuttles and, if those two other foam strikes that 
occurred on the Atlantis and the other, whichever one the other 
was, were originally dedicated to the Columbia. That's a 
smoking gun right there. Okay?
    The person who ordered the removal of the protective 
coating from the foam from the tanks is definitely a person of 
interest. Why did he do it? Okay. There's only one reason. To 
cover up sabotage. It was a diversion. Okay?
    This, in turn, provides the motive for the assassination of 
John F. Kennedy. Okay. When Kennedy was assassinated, there 
were a total of five assassinations. The first two 
assassinations were the brother of the president of Vietnam and 
the president of Vietnam. Then Kennedy was assassinated, all 
within three weeks of each other. Okay?
    The fourth assassination was a Lee Harvey Oswald look-
alike. That wasn't Lee Harvey Oswald. Lee Harvey Oswald is five 
foot eleven, had surgery that had a hole drilled in the back of 
his skull, and there was no sign of that in the autopsy. And 
the guy they autopsied was five foot nine. And, anyway, the guy 
couldn't have shot Kennedy. Kennedy's shot, the head shot at 
Kennedy came from the front, not the back as alleged in the 
Warren Commission report.
    What I ask is that a congressional investigation reopen 
again, because there was already one congressional 
investigation on the Kennedy assassination. But based on new 
evidence, a congressional investigation be opened into the 
Kennedy assassination and its relation to the sabotage of the 
space shuttle Columbia and the attempted sabotage of the space 
shuttle Discovery. Okay?
    The first country to put a laser cannon in orbit on the 
surface of Mars will rule Mars. The first country to put a 
battery of laser cannons on Mars will rule the earth. Laser 
cannons already exist and they can shoot clear across the 
universe. Right now, the Russians and the Chinese have control 
of outer space. That's what the Chinese military called focal 
graft. Okay? That's it.
    Mr. Wolf. Okay. Well, thank you very much for your 
testimony. I appreciate it.
    Mr. Fattah. Thank you for your testimony.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Fattah. Thank you for this hearing, Mr. Chairman.
    Mr. Wolf. Thank you. Have a nice weekend.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
